1a
APPENDIX A
FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Nos. 19-16636 and 19-16708
D.C. Nos. 3:16-cv-00525-VC and 3:16-md-02741-VC

EDWIN HARDEMAN,
Plaintiff-Appellee/
Cross-Appellant,
v.
MONSANTO COMPANY,
Defendant-Appellant/
Cross-Appellee.
Appeal from the United States District Court
for the Northern District of California
Vince G. Chhabria, District Judge, Presiding
Argued and Submitted
October 23, 2020—San Francisco, California
Filed May 14, 2021
OPINION
Before: Michael D. Hawkins, N. Randy Smith,
and Ryan D. Nelson, Circuit Judges.
Opinion by Judge R. Nelson;
Dissent by Judge N.R. Smith

2a
R. NELSON, Circuit Judge:
Monsanto Company manufactures Roundup, a pesticide with the active ingredient glyphosate. Since
2015, thousands of cancer victims have sued Monsanto
in state and federal court, alleging that Roundup
caused their non-Hodgkin’s lymphoma. This appeal
arises out of the first bellwether trial for the federal
cases consolidated in a multidistrict litigation.
The jury returned a verdict in favor of plaintiff
Edwin Hardeman, awarding him $5,267,634.10 in compensatory damages and $75 million in punitive damages. The district court reduced the jury’s punitive damages award to $20 million.
Monsanto appeals, arguing the Federal Insecticide,
Fungicide, and Rodenticide Act (“FIFRA”) preempts
Hardeman’s failure-to-warn claims; the district court
made a series of evidentiary and jury instruction errors; the district court erred in denying judgment as a
matter of law; and the punitive damages award violates
California law and the Due Process Clause. Hardeman
cross-appeals, arguing the jury’s $75 million punitive
damages award was constitutional.
We affirm the district court and hold that (1) Hardeman’s state failure-to-warn claims are not preempted
by FIFRA; (2) the district court ultimately applied the
correct standard from Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579 (1993), and did not
abuse its discretion in admitting Hardeman’s expert
testimony; (3) the district court did not abuse its discretion in admitting the International Agency for Research on Cancer’s classification of glyphosate as probably carcinogenic and three regulatory rejections of
that classification but excluding evidence from other
regulatory bodies; (4) the district court’s jury instruc-

3a
tion on causation, though erroneous, was harmless; (5)
Monsanto was properly denied judgment as a matter of
law because evidence shows the carcinogenic risk of
glyphosate was knowable at the time of Hardeman’s
exposure; and (6) evidence supports a punitive damages
award, punitive damages were properly reduced, and
the reduced award—while close to the outer limits—is
constitutional.
I
A
Under FIFRA, the United States Environmental
Protection Agency (“EPA”) enforces “the use, … sale[,]
and labeling[] of pesticides.” Bates v. Dow Agrosciences
LLC, 544 U.S. 431, 437 (2005) (citation omitted). A state
may “not impose or continue in effect any requirements
for labeling or packaging in addition to or different from
those” required by FIFRA. 7 U.S.C. § 136v(b).
FIFRA requires pesticide manufacturers to register their products with EPA. 7 U.S.C. § 136a(a). EPA
makes registration determinations after considering
available scientific data, § 136a(c)(1)(F), (c)(2)(A); 40
C.F.R. § 158.500, and FIFRA requires EPA to rereview a pesticide’s registration, including its effects on
human health, every fifteen years, § 136a(g)(1)(A).
FIFRA states, however, that “[i]n no event shall registration of an article be construed as a defense for the
commission of any offense under this subchapter.”
§ 136a(f)(2). Rather, “[a]s long as no cancellation proceedings are in effect,” registration of a pesticide is
merely “prima facie evidence that the pesticide, its labeling and packaging comply with the registration provisions of the subchapter.” Id.

4a
EPA can also institute cancellation proceedings, 7
U.S.C. § 136d(b), or take other enforcement action
against the manufacturer of a registered pesticide if the
agency determines the product is “misbranded.” Bates,
544 U.S. at 439. Remedies for misbranding include civil
and criminal penalties. Id. at 439 n.11 (citing 7 U.S.C.
§ 136l). A duly registered pesticide can be misbranded
if the label “does not contain adequate instructions for
use, or if its label omits necessary warnings or cautionary statements.” Bates, 544 U.S. at 438 (citation omitted). “Because it is unlawful under the statute to sell a
pesticide that is registered but nevertheless misbranded, manufacturers have a continuing obligation to adhere to FIFRA’s labeling requirements.” Id. (citations
omitted). This obligation includes a duty to seek approval to amend a label that does not contain all “necessary warnings or cautionary statements.” Id. (citation
omitted).
Starting in 1974, EPA registered pesticides containing glyphosate, the active ingredient in Roundup.1
EPA, Glyphosate Proposed Interim Registration Review Decision 4 (Apr. 2019) (“Proposed Interim Registration Review”). In 1985, an EPA review of a mouse
study found “[g]lyphosate was oncogenic in male mice,”
causing rare tumors. EPA classified glyphosate as a
possible human carcinogen. Since then, however, EPA
has repeatedly approved the use of glyphosate as a pesticide, each time concluding that it is not likely to be
carcinogenic to humans. See Nat’l Fam. Farm Coal. v.
EPA, 966 F.3d 893, 905 (9th Cir. 2020).

1

Though commonly referred to as an herbicide, Roundup is
defined as a pesticide under 7 U.S.C. § 136(t), (u). Roundup contains glyphosate, water, and other ingredients called “surfactants.”

5a
In the early 1990s, EPA reevaluated glyphosate’s
effects on human health as part of its regular review of
glyphosate’s registration. After considering numerous
carcinogenicity studies in rats and mice—including new
evidence submitted by Monsanto—EPA changed its
designation of glyphosate to a “Group E carcinogen”
signifying “evidence of non-carcinogenicity in humans.”
In 2015, a working group at the International
Agency for Research on Cancer (“IARC”), an agency of
the World Health Organization, issued a report classifying glyphosate as a “Group 2A” agent, meaning it is
“probably carcinogenic to humans” based on glyphosate’s “limited evidence” of cancer in humans and “sufficient evidence” of cancer in experimental animals.
IARC’s classification was a “hazard identification,” the
first step of a public health assessment designed to
identify cancer hazards. That hazard determination
asked whether glyphosate “is capable of causing cancer
under some circumstances,” but did not include a “risk
assessment” gauging the carcinogenic effects from realworld human exposure. Since IARC’s classification,
other national and international agencies charged with
reviewing pesticides—such as the European Union’s
European Chemicals Agency (“ECA”), European Food
Safety Authority (“EFSA”), and the national health authorities of Australia, Canada, Germany, and New Zealand—have reported that scientific evidence does not
show glyphosate causes cancer.
When the IARC report was released, EPA was
conducting its registration review of glyphosate, during
which it examined various scientific studies, including
those IARC considered. In 2017, EPA published its
proposed conclusion: Glyphosate was not likely to be
carcinogenic to humans. But, that same year, pursuant
to Proposition 65, California law categorized glyphosate

6a
as a chemical known to the state to cause cancer. Cal.
Off. of Env’t Health Hazard Assessment, Glyphosate,
(“Glyphosate Proposition 65”), https://oehha.ca.gov/
proposition-65/chemicals/glyphosate. That classification triggered a state law requirement to attach a
warning label to glyphosate products. See id.; Cal.
Health & Safety Code § 25249.6.
In April 2019—one month after the jury verdict in
this case—EPA noted that commenters “expressed
concerns that glyphosate formulations are more toxic
than glyphosate alone.” Proposed Interim Registration
Review at 10. EPA explained that “there are few research projects that have attempted to directly compare technical grade glyphosate to the formulations under the same experimental design,” but “[i]f at any
time, information becomes available that indicates adverse human health effects of concern for exposure to
glyphosate or its formulations, EPA intends to review
it and determine the appropriate regulatory action.”
Id. at 11.
About five months after the jury verdict, EPA issued a letter to all registrants of glyphosate-containing
products. Letter from Michael L. Goodis, EPA, Office
of Pesticide Programs (Aug. 7, 2019) (“2019 letter”).
The 2019 letter was not the product of any formal proceeding, was not published in the Federal Register, did
not cite any new scientific findings, and took no position
on whether Roundup causes cancer. Instead, this letter
challenged California’s inclusion of glyphosate in Proposition 65 as contrary to “EPA’s determination that
glyphosate is ‘not likely to be carcinogenic to humans.’ ”
Id. at 1. Given this determination, EPA “considers the
Proposition 65 warning language” that glyphosate is
carcinogenic “to constitute a false and misleading
statement” that violates FIFRA’s prohibition against

7a
“misbranded” substances. Id. 1–2 (citing § 136(q)(1)(A)).
The letter concluded with EPA instructing registrants
to remove such warning statements from labels of
glyphosate-based pesticides. Id. at 2.
B
In 2016, Hardeman sued Monsanto alleging that his
use of Roundup—which started in the 1980s and ended
in 2012—led to his diagnosis of non-Hodgkin’s lymphoma (“NHL”) in early 2015. Hardeman’s case is one of
approximately 5,000 in federal court alleging that
Roundup causes NHL. The Judicial Panel on Multidistrict Litigation consolidated those cases for pretrial
proceedings in the Northern District of California.
Hardeman’s case was the first of these consolidated
cases to go to trial.
NHL is a cancer that affects white blood cells in the
immune system. Approximately 70% or more of NHL
cases are idiopathic, meaning they develop for unknown
reasons. However, some causes of NHL—such as hepatitis C (“HCV”)—are well established. Hardeman had
HCV for 25 to 40 years before developing NHL.
Hardeman alleged Monsanto’s failure to warn him
of the carcinogenic risks of Roundup caused his NHL.
Monsanto moved to dismiss, arguing that Hardeman’s
claims were preempted by FIFRA given EPA’s registration of glyphosate, approval of the Roundup label,
and classification of glyphosate as non-carcinogenic.
The district court denied Monsanto’s motion. Monsanto
raised preemption again in a motion for summary
judgment, which the district court likewise denied.
The district court bifurcated the pretrial proceedings. The first phase addressed “general causation”—
whether glyphosate can cause NHL at exposure levels

8a
humans might experience. The second phase addressed
“specific causation”—whether Hardeman’s exposure to
Roundup caused his NHL.
The district court granted in part and denied in
part Monsanto’s motion to exclude Hardeman’s general
causation experts, allowing three of Hardeman’s experts to testify—Dr. Portier, Dr. Ritz, and Dr. Weisenburger. These experts introduced their general causation opinions with scientific evidence from epidemiology (study of disease in human populations), toxicology
(animal studies), and genotoxicology (cell studies); applied the Bradford Hill criteria;2 and used metaanalyses that combined and analyzed the results of
case-control studies.
The district court, however, acknowledged that
significant problems with Hardeman’s experts’ analyses made it a “very close question” whether their testimony was admissible to support general causation. In
re Roundup Prods. Liab. Litig., 390 F. Supp. 3d 1102,
1108 (N.D. Cal. 2018). The district court interpreted
the Ninth Circuit’s approach to Daubert as requiring
“slightly more room for deference to experts in close
cases than might be appropriate in some other Circuits.” Id. at 1113 (citations omitted). Ultimately, the
district court concluded Hardeman’s three experts’

2

The Bradford Hill criteria are nine factors generally accepted as relevant to assessing causation, such as: (1) the strength of
the association; (2) consistency; (3) specificity; (4) temporality; (5)
biological gradient or dose response; (6) biological plausibility; (7)
coherence with other scientific knowledge; (8) experimental evidence; and (9) analogy. See In re Roundup Prods. Liab. Litig., 390
F. Supp. 3d 1102, 1116 (N.D. Cal. 2018) (citing Austin Bradford
Hill, The Environment and Disease: Association or Causation?,
58 Proceedings of the Royal Society of Medicine 295 (1965)).

9a
opinions were relevant and reliable, satisfying Federal
Rule of Evidence 702 and Daubert.
The district court later denied Monsanto’s motion
to exclude Hardeman’s specific causation experts.
Hardeman’s experts performed differential diagnosis, a
methodology by which a physician “rules in” all potential causes of a disease, “rules out” those for “which
there is no plausible evidence of causation, and then determines the most likely cause among those that cannot
be excluded.” Wendell v. GlaxoSmithKline LLC, 858
F.3d 1227, 1234 (9th Cir. 2017). Hardeman’s experts
considered various risk factors beyond Roundup exposure that could explain his disease, including age, race,
obesity, hepatitis B (“HBV”), and HCV, as well as idiopathic origin—i.e., no known cause. They concluded
Roundup caused Hardeman’s NHL by ruling in Roundup based on general causation expert opinions and ruling out HCV and idiopathy3 as causes of Hardeman’s
NHL. The district court admitted the experts’ opinions, noting this circuit affords experts “wide latitude in
how they practice their art when offering causation
opinions.” In re Roundup, 358 F. Supp. 3d at 960 (citing Wendell, 858 F.3d at 1237).
Monsanto requested a bifurcated trial, with the
first phase addressing whether Roundup caused Hardeman’s cancer (without reference to any regulatory
decisions regarding glyphosate or Roundup) and the
second phase addressing liability and damages (where
3

As to idiopathy, the district court held that “[i]t is sufficient
for a qualified expert, in reliance on his clinical experience, review
of a plaintiff[‘s] medical records, and evaluation of the general causation evidence, to conclude that an ‘obvious and known risk factor[]’ is the cause of that plaintiff’s disease.” In re Roundup
Prods. Liab. Litig., 358 F. Supp. 3d 956, 960 (N.D. Cal. 2019) (quoting Wendell, 858 F.3d at 1235).

10a
the jury could see some of that evidence). Monsanto
moved to exclude all evidence regarding IARC’s report, which detailed the agency’s classification of
glyphosate as probably carcinogenic, as irrelevant and
likely to confuse and distract the jury. But if IARC evidence were admitted, Monsanto argued, the district
court should admit evidence that numerous regulatory
agencies around the world concluded that glyphosate is
safe.
Ultimately, the district court excluded IARC’s report but admitted IARC’s classification of glyphosate
as probably carcinogenic to mitigate the prejudice
caused to Hardeman due to bifurcation of the trial. The
district court also admitted conclusions from EPA,
EFSA, and ECA that glyphosate was safe but excluded
conclusions from other regulatory bodies as cumulative.
At trial, Hardeman’s experts testified that his exposure to glyphosate caused his NHL. Monsanto’s experts testified that little evidence links glyphosate to
cancer in humans and that Hardeman’s HCV most likely caused his cancer or his cancer was idiopathic.
The district court issued a “substantial factor” causation instruction. The jury was instructed that, to rule
for Hardeman, it must find that glyphosate exposure
was a but-for cause of his cancer or one of two or more
factors that independently could have caused his cancer.
After Phase One (on causation), the jury returned a
verdict that Roundup exposure was a “substantial factor” in causing Hardeman’s NHL. After Phase Two (on
liability and damages), the jury found that Monsanto
failed to warn about Roundup’s NHL risk and Hardeman was entitled to punitive damages. The jury
awarded Hardeman $5,267,634.10 in compensatory
damages and $75 million in punitive damages.

11a
In post-trial motions, Monsanto argued that the
district court improperly excluded evidence of foreign
regulatory approvals of glyphosate, which allegedly deprived the jury of the scope of evidence reinforcing
Monsanto’s view of the science. The district court explained that such evidence about foreign regulators
would have been cumulative under Federal Rule of Evidence 403 and denied Monsanto’s motion to overturn
the verdict and for judgment as a matter of law. But
the district court reduced the punitive damages award
of $75 million to $20 million. These appeals followed.
II
Whether Hardeman’s state claims are preempted is
reviewed de novo. Nathan Kimmel, Inc. v. DowElanco, 275 F.3d 1199, 1203 (9th Cir. 2002). Monsanto argues that Hardeman’s failure-to-warn claims are
preempted by FIFRA, under which states cannot “impose … any requirements for labeling or packaging in
addition to or different from” the requirements in
FIFRA itself. § 136v(b) (emphasis added); see also
U.S. Const. art. VI, cl. 2 (federal law “shall be the supreme Law of the Land … any Thing in the Constitution or Laws of any State to the Contrary notwithstanding”). We conclude that Hardeman’s failure-towarn claims based on Roundup’s labeling are consistent
with FIFRA and thus are neither expressly nor impliedly preempted.
A
FIFRA does not expressly preempt Hardeman’s
claims because FIFRA’s requirement that a pesticide
not be misbranded is consistent with, if not broader
than, California’s common law duty to warn. Bates employs a two-part test to determine whether FIFRA
preempts a state law claim. 544 U.S. at 444. First, the

12a
state law must be a requirement “for labeling or packaging.” Id. (quoting § 136v(b)). Second, the state law
must impose a labeling or packaging requirement that
is “in addition to or different from” those required under FIFRA. Id. (quoting § 136v(b)). Because Hardeman’s complaint is based on Monsanto’s failure to provide an adequate warning on a label under California
law, part one of this test is satisfied.
As to part two of the Bates test, “a state-law labeling requirement is not pre-empted by § 136v(b) if it is
equivalent to, and fully consistent with, FIFRA’s misbranding provisions.” 544 U.S. at 447. State law is
“equivalent to” and “fully consistent with” FIFRA
where both impose “parallel requirements,” meaning
that a violation of the state law is also a violation of
FIFRA. Id.; see also id. at 454 (“[A] manufacturer
should not be held liable under a state labeling requirement subject to § 136v(b) unless the manufacturer
is also liable for misbranding as defined by FIFRA.”).
Thus, if a violation of California’s duty to warn would
also be a violation of FIFRA’s misbranding provision,
then they impose parallel requirements fully consistent
with each other. Id. at 454 (“To survive pre-emption,
the state-law requirement need not be phrased in the
identical language as its corresponding FIFRA requirement … .”). To that end, elements of California’s
duty to warn and FIFRA’s misbranding provision are
compared below.
FIFRA’s misbranding provision requires a pesticide label “contain a warning or caution statement
which may be necessary and if complied with … is adequate to protect health and the environment.”
§ 136(q)(1)(G). Similarly, California common law re-

13a
quires a manufacturer to warn either of any health risk4
that is “known or knowable” (in strict liability) or those
risks “a reasonably prudent manufacturer would have
known and warned about” (in negligence). Conte v.
Wyeth, Inc., 85 Cal. Rptr. 3d 299, 310 (Ct. App. 2008).
Thus, FIFRA—which requires a warning “necessary”
and “adequate to protect health”—is broader than California’s requirement under negligence (no warning
needed if unreasonable to do so)5 and is, at minimum,
consistent with California’s requirement under strict
liability (no warning needed if risk not known or knowable). See id.; § 136(q)(1)(G). Because FIFRA’s misbranding requirements parallel those of California’s
common law duty, Hardeman’s failure-to-warn claims
effectively enforce FIFRA’s requirement against misbranding and are thus not expressly preempted. See
§ 136(q)(1)(G); Bates, 544 U.S. at 447–48 (citing favorably Justice O’Connor’s explanation in Medtronic, 518
U.S. 470, that “a state cause of action that seeks to enforce a federal requirement ‘does not impose a requirement that is “different from, or in addition to,” requirements under federal law’ ” ).
4

Because a risk of cancer is a risk contemplated by FIFRA as
“necessary” and “adequate to protect health,” § 136(q)(1)(G), (x),
(bb), we need not address the possibility that California common
law may require a manufacturer to warn of a risk not contemplated by FIFRA’s misbranding provision.
5

Though “it may be necessary as a matter of [state] law to
prove that th[e] violations were the result of negligent conduct …
such additional elements of the state-law cause of action would
make the state requirements narrower, not broader, than the federal requirement. While such a narrower requirement might be
‘different from’ the federal rules in a literal sense, such a difference
would surely provide a strange reason for finding pre-emption of a
state rule insofar as it duplicates the federal rule.” Medtronic, Inc.
v. Lohr, 518 U.S. 470, 495 (1996).

14a
Monsanto, however, argues that because EPA repeatedly registered Roundup for sale without a cancer
warning on the label, a jury’s decision that Roundup
should include such a warning would effectively impose
a requirement “in addition to or different from” that
required by FIFRA, and so the state law is preempted.
Granted, EPA is highly involved in the pesticide registration process, which includes approval of product labels. And EPA will not register a pesticide unless it
determines that the label “compl[ies] with” FIFRA’s
“requirements.” § 136a(c)(5)(B). But this argument
misses the point for two reasons.
First, EPA’s approval of a label—one step in a
larger registration process—is not conclusive of
FIFRA compliance. FIFRA specifies:
In no event shall registration of an article be
construed as a defense for the commission of
any offense under this subchapter. As long as
no cancellation proceedings are in effect registration of a pesticide shall be prima facie evidence that the pesticide, its labeling and packaging comply with the registration provisions
of the subchapter.
§ 136a(f)(2) (emphasis added).6 Because EPA has not
instituted any cancellation proceedings against Mon6

Section 136a(f)(2) distinguishes this case from Riegel v. Medtronic, Inc., 552 U.S. 312 (2008), which held that the Medical Device Amendments (“MDA”) to the Federal Food, Drug, and Cosmetic Act (“FDCA”) expressly preempted claims challenging the
safety and effectiveness of a medical device that received premarket approval from the Food and Drug Administration
(“FDA”). Id. at 315, 330. Like FIFRA’s preemption provision, the
MDA preempts certain state requirements that are different from,
or in addition to, certain federal requirements. See 21 U.S.C.
§ 360k(a)(1). But the MDA does not contain a provision like

15a
santo, EPA’s approval of Roundup’s label is prima facie
evidence of FIFRA compliance. See id. And looking at
FIFRA holistically, this makes sense—if mere EPA
approval of a label were determinative of FIFRA compliance, then FIFRA’s misbranding provision and regulations imposing a duty to report “additional factual information regarding unreasonable adverse effects”
would serve no purpose.
§ 136d(a)(2); see also
§ 136(q)(1) (detailing when a pesticide is misbranded);
40 C.F.R. § 159.152 (imposing duty to report additional
information on adverse effects). So even though EPA
approved Roundup’s label, a judge or jury could disagree and find that same label violates FIFRA. And because EPA’s labeling determinations are not dispositive of FIFRA compliance, they similarly are not conclusive as to which common law requirements are “in
addition to or different from” the requirements imposed by FIFRA. See § 136v(b); cf. Bates, 544 U.S. at
451 (“Private remedies that enforce federal misbranding requirements would seem to aid, rather than hinder, the functioning of FIFRA.”); Indian Brand
Farms, Inc. v. Novartis Crop Prot. Inc., 617 F.3d 207,
222 (3d Cir. 2010) (explaining that Bates “established
that mere inconsistency between the duty imposed by
state law and the content of a manufacturer’s labeling
approved by the EPA at registration did not necessarily mean that the state law duty was preempted”).
Second, the EPA actions that Monsanto alleges
preempt Hardeman’s claims do not carry the force of
law. As noted in Bates, “[a] requirement is a rule of law
that must be obeyed.” 544 U.S. at 445. To establish requirements that can preempt state law under § 136v(b),
FIFRA’s § 136a(f)(2), which clarifies that the agency’s approval of
a label is not determinative of compliance with the statute.

16a
agency action must have the force of law. See Wyeth v.
Levine, 555 U.S. 555, 576, 580 (2009). In other words,
only where there is a relevant EPA action carrying the
force of law are state failure-to-warn claims prohibited
from imposing requirements inconsistent with that action.7 Monsanto tries to circumvent this caveat by arguing that although EPA’s approval of Roundup’s label
was not a rulemaking, it happened “in the context of [a]
registration process” that “has the hallmarks of formal
agency action.” See § 136a; 40 C.F.R. § 155.50(b)–(c).
But, as explained above, FIFRA expressly states that
EPA’s decision to approve a label during the registration process raises only a rebuttable presumption that
the pesticide and its label comply with FIFRA.
§ 136a(f)(2). It would defy logic to say a rebuttable presumption carries the force of law necessary to have
preemptive effect, as doing so would deny any ability to
rebut the presumption.
Nor does EPA’s 2019 letter, sent after the conclusion of Hardeman’s trial to all registrants of products
containing glyphosate, carry the force of law. Generally, “Congress contemplates administrative action with
the effect of law when it provides for a relatively formal
administrative procedure tending to foster the fairness
and deliberation that should underlie a pronouncement
of such force.” United States v. Mead Corp., 533 U.S.
7

Monsanto relies on Bates’s explanation that a failure-towarn claim alleging that a label should have stated “DANGER”
instead of “CAUTION” would be preempted “because it is inconsistent with 40 C.F.R. § 156.64 (2004), which specifically assigns
these warnings to particular classes of pesticides based on their
toxicity.” 544 U.S. at 453. But this example deals with agency
action that has the force of law—FIFRA regulation 40 C.F.R.
§ 156.64. Here, however, neither EPA’s approval of Roundup’s
label during registration nor EPA’s 2019 letter carries the force of
law necessary to preempt Hardeman’s failure-to-warn claims.

17a
218, 230 (2001). But the 2019 letter—stating that EPA
believes any pesticide label with a cancer warning due
to the presence of glyphosate will be misbranded—did
not follow any “formal administrative procedure” that
would give the letter the force of law.8 See id. The
2019 letter was issued without any written notice, gave
no hearing or opportunity to respond, and lacked any
sort of dispute-resolution process. See Merck Sharp &
Dohme Corp. v. Albrecht, 139 S. Ct. 1668, 1679 (2019).
Instead, the 2019 letter is similar to the letter in Fellner v. Tri-Union Seafoods, LLC, which lacked preemptive effect because the FDA “merely expressed an informal policy opinion in a letter, and it did so only after
[the plaintiff’s] injuries were allegedly suffered.” 539
F.3d 237, 255 (3d Cir. 2008).9
Thus, we affirm the district court’s conclusion that
Hardeman’s state failure-to-warn claims are “equivalent to” and “fully consistent with” FIFRA and there8

EPA’s 2017 determination that glyphosate is not carcinogenic does not magically give the “force of law” to this 2019 letter on
misbranding. EPA’s 2017 determination was given in the context
of glyphosate “undergoing Registration Review” after evaluating
glyphosate’s carcinogenic potential. EPA, Revised Glyphosate
Issue Paper: Evaluation of Carcinogenic Potential 12 (Dec. 2017)
(“Registration Review also allows the agency to incorporate new
science.”). Even if the 2017 determination stems from more formal
procedures, it is not necessarily at odds with the future failure-towarn claim because it was made as part of EPA’s registration decision, which only supports presumptive (not conclusive) compliance with FIFRA. See § 136a(f)(2).
9

In contrast, EPA’s cancellation proceedings, for example,
may have the force of law given that § 136d(b) lays out a formal
notice and hearing process, and no comparable prima facie evidence restriction applies. See § 136a(f)(2) (stating that registration
is “prima facie evidence” of FIFRA compliance “[a]s long as no
cancellation proceedings are in effect”). But no cancellation proceedings were in effect here.

18a
fore not expressly preempted. See Bates, 544 U.S. at
449 (“The long history of tort litigation against manufacturers of poisonous substances adds force to the
basic presumption against pre-emption. If Congress
had intended to deprive injured parties of a long available form of compensation, it surely would have expressed that intent more clearly.”). The Supreme
Court decided Bates over fifteen years ago, and regulatory preemption in other contexts has developed considerably in the interim. For FIFRA preemption,
however, currently Bates controls.
B
Because Monsanto could comply with both FIFRA
and California law, FIFRA did not impliedly preempt
Hardeman’s state failure-to-warn claims.
1
A state failure-to-warn claim is impliedly preempted if the relevant federal and state laws “irreconcilably
conflict.” Merck, 139 S. Ct. at 1679 (quoting Rice v.
Norman Williams Co., 458 U.S. 654, 659 (1982)).
“[S]tate and federal law conflict where it is impossible
for a private party to comply with both state and federal requirements.” PLIVA, Inc. v. Mensing, 564 U.S.
604, 618 (2011) (internal quotation marks and citation
omitted). To demonstrate an “irreconcilabl[e] conflict,”
Monsanto must present “clear evidence” that (1) the
agency was “fully informed” of “the justifications for
the warning” the plaintiff demands, (2) the agency has
“informed the … manufacturer that [it] would not approve changing the … label to include that warning,”
and (3) the agency’s action “carr[ies] the force of law.”
Merck, 139 S. Ct. at 1678–79. However, because EPA’s
actions—such as registering Roundup, approving
Roundup’s label, and issuing the 2019 letter—do not

19a
have the force of law, Monsanto fails part (3) of Merck’s
“clear evidence” of “irreconcilabl[e] conflict” test and
cannot show preemption. See supra Section II.A.
2
Monsanto also argues that Hardeman’s claims are
impliedly preempted because, under EPA’s regulations,
Monsanto could not have unilaterally changed Roundup’s label, making it impossible for Monsanto to comply
with both FIFRA and California’s common law duty to
warn. Monsanto relies primarily on PLIVA, a case concerning the federal regulatory scheme governing generic drugs. 564 U.S. 604. But, as explained in PLIVA,
“different federal statutes and regulations may … lead
to different pre-emption results.” Id. at 626. Here,
FIFRA’s regulatory regime for pesticides differs
meaningfully from the regulatory scheme governing
generic drugs in PLIVA and, as a result, Monsanto’s
implied preemption argument fails.
Under the regulatory scheme at issue in PLIVA,
generic drug manufacturers have an “ongoing federal
duty of sameness,” according to which they must use
the same labeling as the corresponding name-brand
drug. Id. at 613 (internal quotation marks and citations
omitted). Generic drug manufacturers do not draft
their products’ initial labeling and do not have the power to revise labeling. See id. As the Supreme Court
explained, “[i]f [the generic drug manufacturers] had
[asked the FDA for help], and if the FDA decided there
was sufficient supporting information, and if the FDA
undertook negotiations with the brand-name manufacturer, and if adequate label changes were decided on
and
implemented,
then
the
[generic
drug]
[m]anufacturers would have started a Mouse Trap
game that eventually led to a better label.” Id. at 619.

20a
But, in PLIVA, the generic drug manufacturer could
not “independently satisfy … state duties for preemption purposes” because it “cannot satisfy its state
duties without the Federal Government’s special permission and assistance, which is dependent on the exercise of judgment by a federal agency.” Id. at 623–24
(explaining that “[t]he only action the [generic drug]
[m]anufacturers could independently take” was “asking
for the FDA’s help”).
Unlike the FDCA and FDA regulatory scheme for
generic drug manufacturers, FIFRA and the EPA regulatory scheme provide that pesticide manufacturers
are responsible for drafting their own product labels,
§ 136a(c)(1)(C), and do not need to maintain the same
labeling as another manufacturer. Once a pesticide is
registered, the manufacturer has a “continuing obligation to adhere to FIFRA’s labeling requirements.”
Bates, 544 U.S. at 438 (citations omitted). When a label
needs to be changed, the manufacturer has the responsibility to change the label by drafting and submitting
the label to EPA for approval, 40 C.F.R. § 152.50(e),
which EPA “shall” approve if it determines the change
will not violate FIFRA, § 136a(f)(1). This is a far cry
from the “special permission and assistance” needed
from the FDA in PLIVA to change a generic drug label, a process constrained by a duty of sameness and
the added step of agency deliberations with namebrand manufacturers. See 564 U.S. at 623-24.
Moreover, EPA permits pesticide manufacturers to
make certain changes to labels without prior approval.
See id. at 623. Specifically, manufacturers can make
minor modifications to labeling without prior EPA approval if EPA is notified of the change. 40 C.F.R.
§ 152.46(a); EPA, Office of Pesticide Programs, Pesticide Registration Notice 98-10 (Oct. 22, 1998) (“PRN 98-

21a
10”). Thus, unlike the generic drug manufacturers in
PLIVA, pesticide manufacturers “can act sufficiently
independently under federal law” when amending a label. See PLIVA, 564 U.S. at 623.
Though Monsanto contends that “[a]dding a warning about cancer would hardly qualify as a ‘minor modification,’ ” EPA has repeatedly permitted pesticide
manufacturers to use the notification procedure to add
notices related to cancer to their products’ labels.10
Nevertheless, Monsanto counters that there is no “single example where EPA has allowed a registrant to use
the notification process” where EPA previously “found
the relevant chemical was not carcinogenic, much less
where it determined a cancer warning would render a
label false and misleading,” referring to the 2019 letter.
But neither EPA’s 2017 finding that glyphosate is
not carcinogenic nor the 2019 letter (which do not carry
the force of law) divert Monsanto to a different process
for amending a label beyond those normally followed by
pesticide manufacturers under FIFRA and its regulations, as described above. Considering the responsibil10

For instance, pursuant to PRN 98-10, pesticide manufacturer Bayer CropScience notified EPA “of a minor labeling
amendment for LARVIN Technical,” informing EPA that “[a]s
required by California Proposition 65, the following statement has
been added to the label, ‘This product contains a chemical known
to the state of California to cause cancer.’ ” Letter from Larry R.
Hodges, Registration Manager, Bayer CropScience, to EPA, Office of Pesticide Programs 4 (Nov. 29, 2012), www3.epa.gov/
pesticides/chem_search/ppls/000264-00343-20131217.pdf.
In response, EPA’s Registration Division “conducted a review of this
request for its applicability under PRN 98-10 and finds that the
action(s) requested fall within the scope of PRN 98-10.” Letter
from Jennifer Gaines, EPA, Office of Pesticide Programs, to Larry
Hodges, Bayer CropScience 2 (Dec. 17, 2012), www3.epa.gov/
pesticides/chem_search/ppls/000264-00343-20131217.pdf.

22a
ity FIFRA places on manufacturers to update pesticide
labels and that EPA has allowed pesticide manufacturers to add cancer warnings to labels through the notification process without prior approval, it is not impossible for Monsanto to add a cancer warning to Roundup’s
label. See PLIVA, 564 U.S. at 623; see also Wyeth, 555
U.S. at 573 (explaining that “[i]mpossibility preemption is a demanding defense”).
III
Whether the district court applied the correct legal
standard under Daubert is reviewed de novo, and the
district court’s decision to admit expert testimony is
reviewed for abuse of discretion. Estate of Barabin v.
AstenJohnson, Inc., 740 F.3d 457, 462 (9th Cir. 2014)
(en banc), overruled on other grounds by United States
v. Bacon, 979 F.3d 766 (9th Cir. 2020) (en banc). We
hold that the district court ultimately applied the correct legal standard under Daubert and did not abuse its
discretion by admitting Hardeman’s general and specific causation expert testimony.
A
Under Federal Rule of Evidence 702, expert testimony must be reliable to be admissible. Daubert, 509
U.S. at 589. Scientific evidence is reliable when “the
principles and methodology used by an expert are
grounded in the methods of science.” Clausen v. M/V
New Carissa, 339 F.3d 1049, 1056 (9th Cir. 2003). When
determining reliability, district court judges can consider the following non-exclusive factors: (1) “whether the
theory or technique employed by the expert is generally
accepted in the scientific community;” (2) “whether it’s
been subjected to peer review and publication;” (3)
“whether it can be and has been tested;” and (4) “whether the known or potential rate of error is acceptable.”

23a
Daubert v. Merrell Dow Pharms., Inc., 43 F.3d 1311,
1316 (9th Cir. 1995) (citing Daubert, 509 U.S. at 593–95).
“Th[is] inquiry is ‘flexible,’” Wendell, 858 F.3d at 1232
(quoting Daubert, 509 U.S. at 594), and “should be applied with a ‘liberal thrust’ favoring admission,” Messick
v. Novartis Pharms. Corp., 747 F.3d 1193, 1196 (9th Cir.
2014) (quoting Daubert, 509 U.S. at 588).11
Monsanto contends that, by relying on a misguided
reading of Wendell and Messick, the district court misinterpreted Daubert to be more forgiving of experts’
extrapolations than this circuit allows. But, in reaching
its conclusions, the district court followed this court’s
precedent and thus cannot be faulted for following
binding case law. Monsanto’s specific critiques are addressed below.
First, according to Monsanto, the district court erroneously stated there is “slightly more room for deference to experts” in close cases, In re Roundup, 390 F.
Supp. 3d at 1113, and that courts in this circuit are
“more tolerant of borderline expert opinions,” In re
Roundup, 358 F. Supp. 3d at 959.

11

This liberal thrust favoring admission is not without limits.
“Just as the district court cannot abdicate its role as gatekeeper,
so too must it avoid delegating that role to the jury.” Estate of
Barabin, 740 F.3d at 464 (holding that district court erred by
“pass[ing] its greatest concern about [the expert’s] testimony to
the jury to determine” and there was little “indication that the
district court assessed, or made findings regarding, the scientific
validity or methodology of [another expert’s] proposed testimony”); see also United States v. Valencia-Lopez, 971 F.3d 891, 899
(9th Cir. 2020) (holding that district court erred in admitting expert testimony without making a reliability determination by dismissing the expert’s deficiencies as “going to the weight, not admissibility, of [the expert’s] testimony” (quoting Nease v. Ford
Motor Co., 848 F.3d 219, 230 (4th Cir. 2017))).

24a
As an initial matter, this court is not an outlier following a more flexible Daubert approach than other
circuits. The cases on which the district court relied do
not establish otherwise. For instance, in the Fourth
Circuit case relied on by the district court, the expert
failed to provide a proper scientific basis for her differential diagnosis by “focus[ing] almost exclusively on the
fact that [plaintiff] took the drug and later developed
the disease, rather than explaining what led her to believe that it was a substantial contributing factor as
compared to other possible causes.” In re Lipitor
(Atorvastatin Calcium) Mktg., Sales Pracs. & Prods.
Liab. Litig., 892 F.3d 624, 645 (4th Cir. 2018). But if we
compare the expert in Lipitor to, for instance, the expert in Messick, the cases are readily distinguishable.
Unlike the Lipitor expert, the expert in Messick provided a scientific basis for his conclusion by “refer[ing]
to his own extensive clinical experience as the basis for
his differential diagnosis, as well as his examination of
[plaintiff’s] records, treatment, and history.” 747 F.3d
at 1198.
Similarly, in the Sixth Circuit case relied on by the
district court, the expert’s causation analysis was insufficient because literature had only hypothesized but did
not find a link between the chemical and disease.
Tamraz v. Lincoln Elec. Co., 620 F.3d 665, 677–78 (6th
Cir. 2010). The Tamraz court explained, “the problem
is not that [the expert] failed to cite studies about [the
chemical] causing [the disease] … or could not quantify
how much [of the chemical] would lead to how much [of
the disease]; the problem is that he failed to cite any
non-speculative evidence for his conclusion.” Id. at 674.
In contrast, the experts in Wendell did not present that
deficiency, as they “relied not just on … studies—which
not only examined reported cases but also used statisti-

25a
cal analysis to come up with risk rates—but also on
their own wealth of experience and additional literature.” 858 F.3d at 1236. Thus, the Fourth Circuit and
Sixth Circuit cases on which the district court relied
are not at odds with this court’s Daubert approach.
To the extent the district court relied on In re
Zoloft (Sertraline Hydrochloride) Products Liability
Litigation, 858 F.3d 787, 800 (3d Cir. 2017), and
McClain v. Metabolife International, Inc., 401 F.3d
1233, 1244–45 (11th Cir. 2005), to show those courts
adopted the any step principles,12 those cases do not
reveal a more flexible Daubert approach in this circuit.
We have explained that “expert evidence is inadmissible where the analysis is the result of a faulty methodology or theory as opposed to imperfect execution of
laboratory techniques whose theoretical foundation is
sufficiently accepted in the scientific community to pass
muster under Daubert.” City of Pomona v. SQM N.
Am. Corp., 750 F.3d 1036, 1047–48 (9th Cir. 2014) (internal quotation marks and citation omitted). Imperfect application of methodology may not render expert
testimony unreliable because “ ‘ [a] minor flaw in an expert’s reasoning or a slight modification of an otherwise
reliable method’ does not render expert testimony inadmissible.” Id. at 1048 (quoting Amorgianos, 303 F.3d
at 267 (adopting the any step principles)) (alteration in
original). The reasoning guiding the any step principles
12

“The Daubert ‘requirement that the expert testify to scientific knowledge—conclusions supported by good grounds for each
step in the analysis—means that any step that renders the analysis unreliable under the Daubert factors renders the expert’s testimony inadmissible.’ ” Amorgianos v. Nat’l R.R. Passenger Corp.,
303 F.3d 256, 267 (2d Cir. 2002) (quoting In re Paoli R.R. Yard
PCB Litig., 35 F.3d 717, 745 (3d Cir. 1994)); see also Zoloft, 858
F.3d at 797; McClain, 401 F.3d at 1245.

26a
is not dissimilar; namely, “[t]he judge should only exclude the evidence if the flaw is large enough that the
expert lacks ‘good grounds’ for his or her conclusions.”
Amorgianos, 303 F.3d at 267 (quoting Paoli, 35 F.3d at
746).
Despite its incorrect assumption that this court is
more permissive than others in admitting Daubert testimony, the district court still employed the correct legal standard for reliability when it admitted Hardeman’s expert testimony. For instance, the district
court’s slight “deference to experts” with “borderline
… opinions” was proper under Daubert: “[T]he interests of justice favor leaving difficult issues in the hands
of the jury and relying on the safeguards of the adversary system … to ‘attack[] shaky but admissible evidence.’ ” Wendell, 858 F.3d at 1237 (quoting Daubert,
509 U.S. at 596) (alteration in original). The Supreme
Court has not directed courts to follow a different rule
since it first decided Daubert almost 28 years ago.
Second, Monsanto takes issue with the district
court’s suggestion that courts in this circuit can admit
opinions “that lean strongly toward the ‘art’ side of the
spectrum.” In re Roundup, 358 F. Supp. 3d at 959 (citation omitted). Though that may seem strange out of
context, the district court was only reiterating our
precedent following Daubert. See Messick, 747 F.3d at
1198 (“Medicine partakes of art as well as science … .”).
The district court did not suggest that courts in this
circuit allow “art” as a separate, standalone category
divorced from logic and science. Rather, in referencing
“art,” the district court followed Wendell and Messick’s
instructions that a testifying expert can rely on his own
extensive clinical experience under Daubert. See Wendell, 858 F.3d at 1237 (“Where, as here, two doctors
who stand at or near the top of their field and have ex-

27a
tensive clinical experience with the rare disease or
class of disease at issue, are prepared to give expert
opinions supporting causation, we conclude that Daubert poses no bar based on their principles and methodology.”); Messick, 747 F.3d at 1198 (allowing “extensive
clinical experience” to form basis of differential diagnosis opinion).
Monsanto attempts to distinguish Wendell by arguing that it only allows experts to rely on clinical experience in exceptional circumstances not present here,
particularly cases involving rare diseases with insufficient epidemiological data. Considering that Wendell
drew the concept of “art” from Messick, a case which
did not involve a rare disease, we do not find that the
application of art is limited to exceptional circumstances.
The district court allowed experts to rely on clinical
experience, or “art,” only when conducting differential
diagnosis to render specific causation opinions. Allowing experts to rely on clinical experience while conducting differential diagnosis, as the district court did here,
is consistent with Messick. See 747 F.3d at 1198
(“[T]here is nothing wrong with a doctor relying on extensive clinical experience when making a differential
diagnosis.”).
Monsanto further tries to distinguish Messick by
emphasizing that the expert there relied on clinical experience as well as an examination of medical literature
and plaintiff’s records. But Hardeman’s experts did the
same thing here, if not more, by relying on epidemiological, animal, and cell studies. Acknowledging this, Monsanto counters that “there are numerous epidemiological studies on the association between glyphosate and
Hardeman’s subtype of non-Hodgkin’s lymphoma that

28a
obviated the need for any reliance on ‘art.’ ” But Monsanto contradicts its own argument, asserting Wendell
and Messick “state that experience can supplement reliable scientific studies and medical literature.” On this
point, Monsanto is right: Hardeman’s experts’ clinical
experience could supplement the epidemiological studies on which they relied.
Thus, the district court applied the correct legal
standard under Daubert by following our precedent and
fulfilling its “special obligation to determine the reliability of an expert’s testimony.” Elsayed Mukhtar v.
Cal. State Univ., Hayward, 299 F.3d 1053, 1063 (9th
Cir. 2002) (internal quotation marks and citation omitted), overruled on other grounds by Estate of Barabin,
740 F.3d 457.
B
To establish general causation, Hardeman’s experts
needed to show that glyphosate can cause NHL at exposure levels people realistically may have experienced. Here, Hardeman’s general causation experts
relied on three types of studies: epidemiological,13 animal, and cellular. Animal studies are relevant evidence
of causation where there is a sound basis for extrapolating conclusions from those studies to humans in realworld conditions. See Domingo ex rel. Domingo v. T.K.,
289 F.3d 600, 606 (9th Cir. 2002). Similarly, cell studies
can support more substantial evidence of causation.
Therefore, animal and cell studies can help show causation so long as there is evidence of an association be13

Epidemiology is “the field of public health and medicine
that studies the incidence, distribution, and etiology of disease in
human populations.” Michael D. Green et al., Reference Guide on
Epidemiology, in Reference Manual on Scientific Evidence 551,
551 (3d ed. 2011) (“Reference Manual”).

29a
tween glyphosate and NHL in humans within the epidemiological literature. This means that to be admissible testimony, the experts must have reliably based
their general causation opinions on epidemiological evidence showing a connection between glyphosate and
cancer. As discussed below, the district court did not
abuse its discretion in concluding that Hardeman’s experts satisfied this requirement.
Monsanto maintains that the experts did not use
the epidemiological evidence reliably because they (1)
dismissed the Agricultural Health Study (“AHS”) and
(2) focused on case-control studies that did not sufficiently account for confounding factors. These criticisms, however, are not enough to render the expert
opinions unreliable.
First, Monsanto criticizes Hardeman’s experts for
ignoring the AHS, which Monsanto considers to be the
most powerful evidence on the relationship between
glyphosate and NHL. That study was a cohort study
conducted by the National Institutes of Health that
considered a range of pesticide exposures on 57,000
participants over several years. The AHS found no
statistically significant association between glyphosate
and NHL and showed no dose-response relationship,
meaning “no evidence of higher rates of [NHL] with
more days of exposure.”
Nonetheless, Hardeman’s experts had a reasonable
basis for placing less weight on the AHS. For instance,
an epidemiologist employed by Monsanto wrote years
before the AHS results were announced that “the exposure assessment in the AHS will be inaccurate” because the AHS will have “spurious exposure-disease
findings due to exposure misclassification.” Similarly,
Monsanto’s toxicologist, Donna Farmer, recognized

30a
that “[m]any groups have been highly critical of the
study as being a flawed study, in fact some have gone
so far as to call it junk science. … [T]he bottom line is
scary … there will be associations identified … just because of the way this study is designed.”
These criticisms from Monsanto employees resemble those from Hardeman’s experts that the AHS is
flawed and unreliable. Though Monsanto changed its
tune on the AHS because the misclassification concerns
were allegedly addressed using “sensitivity analyses”
as the study progressed, the overlapping criticisms still
show that Hardeman’s expert opinions on the AHS are
within “the range where experts might reasonably differ.” Kumho Tire Co. v. Carmichael, 526 U.S. 137, 153
(1999). Accordingly, the district court did not abuse its
discretion in concluding that “the epidemiology evidence is open to different interpretations” such that “an
expert who places more weight on the case-control
studies than the AHS cannot be excluded as categorically unreliable for doing so.” In re Roundup, 390 F.
Supp. 3d at 1126.
Second, Monsanto criticizes Hardeman’s experts
for relying on three case-control studies: De Roos
(2003), McDuffie (2001), and Eriksson (2008), which allegedly contain serious flaws. Although case-control
studies are “prone to recall bias,”14 Hardeman’s experts
gave the district court valid reasons to discount this
concern. For example, the experts explained that epidemiology studies overall found associations only be14

“[R]ecall bias[] occurs where people with a disease … are
differently able to recall past exposures than are people who never
get sick; generally, the assumption is that the cases will recall
greater levels of exposure, as those who become ill are more likely
to ruminate about the possible causes of their disease.” Reference
Manual at 585–86.

31a
tween glyphosate and NHL, but not between glyphosate and other cancers asked about in the studies. The
experts pointed out that, if participants were predisposed to think glyphosate caused cancer and consequently exhibited recall bias, the studies would have
reported associations for glyphosate and other cancers.
Hardeman’s experts also relied upon studies that
sought to validate self-reports of pesticide exposure
and found similar recall accuracy between controls and
cases. Considering this evidence, the district court did
not abuse its discretion in finding the “possible presence of recall bias” is “not significant enough to require
an expert categorically to weight [the case-control
studies] less heavily than the AHS.” In re Roundup,
390 F. Supp. 3d at 1133.
Monsanto criticizes the De Roos study specifically
for “not properly account[ing] for [NHL’s] latency period” because the study analyzed data collected between
1979 and 1986, but NHL takes “at least five to ten
years to develop” and Roundup was put on the market
in 1974. As the district court pointed out, a potential
confounding variable15 is an important reason a study
might show an association between glyphosate and
NHL shortly after glyphosate was put on the market.
The De Roos study, however, reduced the risk of
confounding by adjusting for many other pesticides.
While Hardeman’s experts acknowledged that it is “always possible” that the observed association was the
result of confounding not accounted for in De Roos, the
adjustment for many other pesticides in De Roos made
it “significantly less likely” that a pesticide other than
glyphosate caused the observed association. As a re15

Confounding variables are other factors that could explain
an observed association between a substance and the disease.

32a
sult, the district court properly scrutinized the reliability of De Roos and did not abuse its discretion in concluding that, “at least for the studies that adjust for
other pesticide exposures [i.e., De Roos], the relatively
short period between glyphosate exposure and cancer
development is not a concern so significant as to disqualify an expert who gives significant weight to the
case-control studies in rendering a causation opinion.”
In re Roundup, 390 F. Supp. 3d at 1123.
Nonetheless, Monsanto argues that Hardeman’s
experts still did not sufficiently consider confounding
factors while evaluating epidemiology. According to
Monsanto, “McDuffie did not account for the effect of
exposure to pesticides beyond glyphosate at all” and,
“while Eriksson did provide some results adjusted for
the effect of other pesticides, the adjusted results did
not show a statistically significant link between glyphosate and [NHL].”
But while the district court acknowledged that “exclusive consideration of numbers unadjusted for other
pesticides, when adjusted numbers are available, would
be disqualifying,” In re Roundup, 390 F. Supp. 3d at
1140, Hardeman’s experts did not do that here. For instance, “Dr. Portier addressed the most significant concern—the possibility that pesticides other than glyphosate caused the observed cases of NHL—by focusing
on data adjusted for potential confounding by various
other pesticides.” In re Roundup, 390 F. Supp. 3d at
1133; see also id. at 1140–41, 1143 (discussing Dr. Ritz
and Dr. Weisenburger). Further, even where adjustment for other pesticides resulted in loss of statistical
significance, the results still showed a positive associa-

33a
tion between glyphosate and NHL.16 Thus, contrary to
Monsanto’s criticisms, the general causation expert
opinions were sufficiently supported by reliable epidemiological evidence, so admitting these experts’ testimony was not an abuse of discretion.
C
To establish specific causation, experts needed to
show that Hardeman’s NHL was caused by glyphosate,
rather than some other factor. To do so, Hardeman’s
experts—Dr. Weisenburger, Dr. Shustov, and Dr.
Nabhan—used “differential diagnosis,” which starts
with ruling in “all potential causes, then rul[ing] out the
ones as to which there is no plausible evidence of causation, and then determin[ing] the most likely cause
among those that cannot be excluded.” Wendell, 858
F.3d at 1234; see also Clausen, 339 F.3d at 1057. Here,
Hardeman’s experts reliably used differential diagnosis
because they ruled in glyphosate based on the epidemiological evidence supporting the general causation
opinions and ruled out alternative causes, such as idiopathy and HCV.
1
Monsanto argues that Hardeman failed to adequately rule out idiopathy, considering that 70% or
16

Monsanto criticizes Dr. Weisenburger for relying on a single favorable odds ratio from the “earliest iteration” of the North
American Pooled Project. But such reliance is not enough to render Dr. Weisenburger’s entire testimony unreliable. See, e.g.,
Wendell, 858 F.3d at 1233 (explaining that district courts should
not look “too narrowly at each individual consideration, without
taking into account the broader picture of the experts’ overall
methodology”). The district Court properly considered this issue
before concluding Dr. Weisenburger’s testimony was sufficiently
reliable.

34a
more of NHL cases have unknown causes. Monsanto
acknowledges that an expert can rule out idiopathy by
reliably concluding that the known factor (here,
glyphosate) is a “substantial cause,” which can be
shown when a strong association exists between the
disease and that known risk factor. See Wendell, 858
F.3d at 1235, 1237 (even though expert “was not entirely able to rule” out idiopathy, he could conclude a
“known risk factor[]” was a substantial cause because
“literature show[ed] that patients exposed to” the
drugs in question were “at an increased risk for” the
disease). But here, Monsanto argues that Hardeman’s
experts did not reliably conclude that glyphosate was a
substantial cause because no strong association existed
between glyphosate and NHL, forcing the experts to
rely on two flawed studies and their own subjective
judgment.
Specifically, Monsanto argues that Hardeman’s experts did not rule in glyphosate as a substantial cause
because, unlike the experts in Wendell, they did not
show a sharp enough increased risk of cancer for those
exposed to glyphosate. Monsanto focuses on Hardeman’s experts’ inability to present a study with an adjusted odds ratio above 2.0. But we have never suggested that a hardline increase in a risk statistic, or
even an adjusted odds ratio above 2.0, is necessary for
finding a strong association. See id. at 1234. To the
contrary, flexibility is warranted considering the contextual nature of the Daubert inquiry. Thus, it was not
an abuse of discretion to admit expert testimony—that
glyphosate is a substantial cause—partly based on the
epidemiological studies from the general causation
opinions, where the general causation opinions showed
a “robust connection between glyphosate and NHL.”
In re Roundup, 358 F. Supp. 3d at 960.

35a
Next, Monsanto criticizes Hardeman’s experts for
relying on “two flawed studies”—McDuffie and Eriksson—linking glyphosate and NHL. Monsanto focuses
on the experts’ two attempted uses for those studies:
(1) to assign a quantified risk to Hardeman based on
the studies’ “unadjusted numbers” and (2) to show that
Hardeman’s risk ratio must have exceeded 2.0 because
he exceeded the exposure minimums from the two
studies (i.e., two days per year or ten lifetime days of
exposure). But this focus is misplaced. Though relying
on McDuffie and Eriksson for those propositions may
have been problematic, that is not what happened here.
The district court explicitly considered these issues and
properly exercised its gatekeeping function by precluding the experts from using the studies in those two
ways.
Instead, the district court allowed Hardeman’s experts to rely on McDuffie and Eriksson to show a doseresponse relationship between glyphosate and NHL.
And Hardeman’s experts presented a sufficient basis
for using these studies (though unadjusted for other
pesticides) to show such a relationship. For instance,
Dr. Weisenburger clarified, if a chemical “shows a dose
response, it’s very likely an etiologic agent because it’s
… unusual that a chemical would cause a disease and
not have a dose response. So when you see a dose response, that gives you some assurance that it really is
causing the disease.”
Had the experts relied only on McDuffie and Eriksson to show glyphosate is a substantial cause of NHL,
their specific causation opinions may have been unreliable. However, Hardeman’s experts relied not only on
McDuffie and Eriksson but also other epidemiological
evidence (like De Roos) supporting a strong association, as well as their clinical experience and review of

36a
plaintiff’s medical records. Thus, as a whole, the evidence provided a sufficient basis for reliably ruling out
idiopathy by concluding glyphosate was a substantial
cause of Hardeman’s NHL. See Wendell, 858 F.3d at
1233–34 (ruling out idiopathy for disease with 70% idiopathy rate where expert relied on clinical experience,
literature, and medical records).
2
Monsanto also argues that Hardeman’s experts did
not reliably rule out HCV as an alternate cause. HCV
is an established cause of NHL. Even though Hardeman was treated for HCV in 2005 and 2006, Monsanto
claims that he was vulnerable to cellular damage
caused by the virus for many years, including NHL.
But, as Dr. Weisenburger explained, to cause cancer,
the virus must be active, and there was no evidence
that Hardeman’s HCV had been active for the decade
preceding his NHL diagnosis. And this conclusion, as
determined by the district court, had significant support in the scientific literature.
Further, Dr. Weisenburger’s underlying methodology for reaching this conclusion was sound. He relied
on Hardeman’s medical records and his clinical experience and reviewed scientific literature (including seven
studies) as the basis for ruling out HCV. See Messick,
747 F.3d at 1199 (“[D]ifferential diagnosis grounded in
significant clinical experience and examination of medical records and literature can certainly aid the trier of
fact and cannot be considered to be offering ‘junk science.’ ” ). Thus, Dr. Weisenburger reliably ruled out
HCV as an alternate cause of Hardeman’s NHL, and
the district court did not abuse its discretion in admitting Hardeman’s expert testimony on specific causation.

37a
IV
The district court’s decision to admit IARC’s
glyphosate classification as a “probable carcinogen” but
exclude contrary conclusions from other regulatory
bodies is reviewed for abuse of discretion. Estate of
Barabin, 740 F.3d at 462. The district court made that
decision to mitigate prejudice to Hardeman after granting Monsanto’s request to bifurcate the trial.
Monsanto argues that admitting IARC’s classification was an error because the classification’s minimal
probative value was outweighed by unfair prejudice
and juror confusion, which was allegedly exacerbated
by the district court’s exclusion of various foreign regulatory agencies’ rejections of IARC’s classification. We
disagree.
Under Rule 403, the district court can “exclude relevant evidence if its probative value is substantially
outweighed by a danger of one or more of the following:
unfair prejudice, confusing the issues, misleading the
jury, undue delay, wasting time, or needlessly presenting cumulative evidence.” Fed. R. Evid. 403. “A district court’s Rule 403 determination is subject to great
deference, because the considerations arising under
Rule 403 are susceptible only to case-by-case determinations, requiring examination of the surrounding facts,
circumstances, and issues.” United States v. Hinkson,
585 F.3d 1247, 1267 (9th Cir. 2009) (en banc) (internal
quotation marks and citation omitted).
According to Monsanto, IARC’s classification had
minimal probative value because it did not rely on new
data or gauge cancer risk from real-world glyphosate
exposure. But this misses the point: IARC’s classification was admitted to mitigate prejudice to Hardeman
from the trial’s bifurcation. Monsanto had specifically

38a
requested bifurcation to preclude evidence of its “attempting to influence regulatory agencies and manipulate public opinion regarding glyphosate.” Without
IARC’s classification, “jurors w[ould] be left wondering, during the causation phase, how glyphosate could
possibly be dangerous if it ha[d] gone largely unregulated for decades.” Further, the district court minimized the risk of prejudice to Monsanto by only admitting IARC’s classification, not the underlying details,
and admitting the continued approval of glyphosate
from three other regulators—EPA, EFSA, and ECA.
Importantly, the district court instructed the jury to
“not defer” to the conclusions of any of these regulatory
bodies because they were not a substitute for the jurors’ “own independent assessment of the evidence.”
While other regulatory agencies had also rejected
IARC’s classification, the district court did not err in
concluding that evidence of additional regulators’ postIARC conclusions would have been cumulative. Admitting all foreign regulatory conclusions would have
invited the jury to weigh competing regulatory findings
rather than independently assess the scientific evidence.
Even if these evidentiary decisions were erroneous, any error was harmless because it was “more
probable than not that the … admission of the evidence
did not affect the jury’s verdict.” United States v.
Ramirez-Robles, 386 F.3d 1234, 1244 (9th Cir. 2004) (internal quotation marks and citations omitted). Considering the strong limiting instruction and the expert testimony linking glyphosate to cancer, the jury would
likely have reached the same causation verdict even
without evidence of IARC’s classification or with more
evidence of regulatory agency rejections of that classification. Therefore, we affirm the decision to admit the

39a
conclusions from IARC, EPA, EFSA, and ECA, and to
exclude evidence from additional regulatory agencies.
V
Monsanto also challenges the district court’s causation jury instruction. We review de novo whether that
instruction correctly states the law. Peralta v. Dillard,
744 F.3d 1076, 1082 (9th Cir. 2014) (en banc). We conclude that the district court’s causation jury instruction
was inconsistent with the Judicial Council of California
Civil Jury Instructions (“CACI”) and California case
law. We conclude, however, that any error was harmless. See Caballero v. City of Concord, 956 F.2d 204,
206 (9th Cir. 1992).
The district court’s causation jury instruction included a substantial factor and but-for causation instruction, drawing from CACI 430, and a concurrent
independent causes instruction.17 The first paragraph
17

The jury was instructed as follows:

To prevail on the question of medical causation, Mr.
Hardeman must prove by a preponderance of the evidence that Roundup was a substantial factor in causing
his non-Hodgkin’s lymphoma. A substantial factor is a
factor that a reasonable person would consider to have
contributed to the harm. It must be more than a remote
or trivial factor. It does not have to be the only cause of
the harm. Subject to the additional instructions below,
conduct is not a substantial factor in causing harm if the
same harm would have occurred without that conduct.
The following additional instructions apply if you believe
that two or more NHL-causing factors operated independently on Mr. Hardeman:
If you conclude that Mr. Hardeman has proven that his
exposure to Roundup was sufficient on its own to cause
his NHL, then you must find for Mr. Hardeman even if
you believe that other factors were also sufficient on

40a
of this instruction (on substantial factor and but-for
causation) adopted the same language as CACI 430, the
model “substantial factor” instruction. The district
court’s instruction included CACI 430’s final optional
sentence on but-for causation that reads, “[c]onduct is
not a substantial factor in causing harm if the same
harm would have occurred without that conduct.” But
CACI 430’s “Directions for Use” instruct courts to “not
include the [but-for instruction] in a case involving concurrent independent causes,” which the district court
did here. As such, “the but-for test is inappropriate in
cases when two forces are actively operating and each
is sufficient to bring about the harm.” Lopez v. The
Hillshire Brands Co., 254 Cal. Rptr. 3d 377, 383–84 (Ct.
App. 2019) (quoting Major v. R.J. Reynolds Tobacco
Co., 222 Cal. Rptr. 3d 563, 579 (Ct. App. 2017)). And
this makes sense considering that the two instructions
tend to contradict each other when used together.
Here, the district court’s causation jury instruction
erroneously incorporated the optional final sentence of
CACI 430. The concurrent independent causation instruction was appropriate—otherwise, the jury might
not have found causation, even if it thought Roundup
caused Hardeman’s cancer, because HCV may have
been an additional cause. See Viner v. Sweet, 70 P.3d
1046, 1051 (Cal. 2003) (explaining there is an exception
to but-for cause for “multiple forces operating at the
same time and independently, each of which would have
been sufficient by itself to bring about the harm”). But
because the concurrent independent causation instruction inherently conflicted with but-for causation, the
their own to cause his NHL. On the other hand, if you
conclude that Mr. Hardeman has not proven that his exposure to Roundup was sufficient on its own to cause his
NHL, then you must find for Monsanto.

41a
district court’s jury instruction did not state the law
entirely correctly. See Peralta, 744 F.3d at 1082. We
recognize the district court tried to alleviate this conflict by adding the introductory language of “[s]ubject
to the additional instructions below,” before providing
the but-for causation instruction, but we still find that
language confusing, such that the instruction was “misleading.” Id.
An erroneous instruction does not require reversal,
however, when “the error is more probably than not
harmless.” Caballero, 956 F.2d at 206 (citation omitted). That standard is “less stringent than review for
harmless error in a criminal case” and “more stringent
than review for sufficiency of the evidence.” Id. at 207.
Because the instruction given likely did not prejudice
Monsanto, the harmlessness standard is met. For instance, if the jury did not view the but-for instruction
as a bar to finding causation, then it applied the appropriate causation standard. And even if the jury interpreted the optional but-for sentence from CACI 430 to
mean Hardeman could only prevail if Roundup was a
but-for cause, then it would have also found legal causation under the more flexible concurrent independent
causation standard. Thus, we affirm because the error
in the causation instruction was likely harmless.
VI
Monsanto argues it was entitled to judgment as a
matter of law on the failure-to-warn claims because it
did not know and could not have known that glyphosate
caused cancer in 2012 (when Hardeman stopped using
Roundup). But reviewing de novo and “view[ing] the
evidence in the light most favorable to [Hardeman] …
and draw[ing] all reasonable inferences in h[is] favor,”
Lakeside-Scott v. Multnomah Cnty., 556 F.3d 797, 802

42a
(9th Cir. 2009), we conclude that sufficient scientific evidence was presented to the jury to support that the
association between glyphosate and cancer was “knowable” by 2012.
To prevail on his failure-to-warn claim, Hardeman
was required to prove that the link between Roundup
and cancer was “known or knowable in light of the generally recognized and prevailing best scientific and
medical knowledge available at the time of manufacture
and distribution.” Anderson v. Owens–Corning Fiberglas Corp., 810 P.2d 549, 558 (Cal. 1991). While the
“scientific landscape” was “more favorable” to Monsanto before 2012, there was sufficient scientific evidence
presented to the jury that the link between glyphosate
and cancer was “knowable.”
For instance, as early as 1985, EPA classified
glyphosate as a possible human carcinogen after reviewing a mouse study finding that “[g]lyphosate was
oncogenic in male mice,” causing rare tumors. Even
though EPA changed its designation of glyphosate to
non-carcinogenic in 1991, several studies found an association between glyphosate and cancer in the 1990s. In
the late 1990s, Monsanto hired Dr. Parry, a genotoxicologist, who found evidence that glyphosate may be
genotoxic and urged Monsanto to conduct specific tests
on Roundup’s genotoxicity. Though Monsanto never
conducted all the tests Dr. Parry requested,18 various
independent scientific studies linking glyphosate and
cancer were released by 2012. Thus, sufficient evidence
was presented to the jury that the association between
glyphosate and cancer was, at minimum, “knowable” by
18

Years later, in 2009, Monsanto toxicologist Donna Farmer
said, “you cannot say that Roundup does not cause cancer … [because] we have not done carcinogenicity studies with ‘Roundup.’ ”

43a
2012, and Monsanto was therefore not entitled to judgment as a matter of law.
VII
Finally, we address both parties’ challenges to the
punitive damages award. We review whether California law permits a jury’s decision to award punitive
damages for substantial evidence. Kaffaga v. Estate of
Steinbeck, 938 F.3d 1006, 1013 (9th Cir. 2019). We review de novo, with an “[e]xacting appellate review,”
the constitutionality of a punitive damages award.
State Farm Mut. Auto. Ins. Co. v. Campbell, 538 U.S.
408, 418 (2003) (citing Cooper Indus., Inc. v. Leatherman Tool Grp., Inc., 532 U.S. 424, 436 (2001)). “[W]e
defer to the district court’s ‘findings of fact unless they
are clearly erroneous.’ ” Arizona v. ASARCO LLC, 773
F.3d 1050, 1054 (9th Cir. 2014) (quoting Cooper Indus.,
532 U.S. at 440 n.14). Based on this review, we hold
that (1) California law permits a punitive damages
award because substantial evidence was presented to
the jury that Monsanto acted with malice, and (2)
though the $75 million punitive damages award was
constitutionally excessive, the reduced $20 million
award comports with the outer limits of the Due Process Clause.
A
Punitive damages were permissible under California law because substantial evidence was presented
that Monsanto acted with malice by, among other
things, ignoring Roundup’s carcinogenic risks. See Kaffaga, 938 F.3d at 1018.
Punitive damages are permissible under California
law when there is “clear and convincing evidence that
the defendant has been guilty of oppression, fraud, or

44a
malice.” Cal. Civ. Code § 3294(a). As relevant here,
“malice” means “despicable conduct which is carried on
by the defendant with a willful and conscious disregard
of the rights or safety of others.” § 3294(c)(1).
That definition of malice requires that we examine
what constitutes “despicable conduct” and “conscious
disregard.” “Despicable conduct” is conduct “so vile,
base, contemptible, miserable, wretched or loathsome
that it would be looked down upon and despised by
most ordinary decent people.” Pac. Gas & Elec. Co. v.
Super. Ct., 235 Cal. Rptr. 3d 228, 236 (Ct. App. 2018)
(internal quotation marks and citation omitted). “Conscious disregard” requires that the defendant “have actual knowledge of the risk of harm it is creating and, in
the face of that knowledge, fail to take steps it knows
will reduce or eliminate the risk of harm.” Id. (internal
quotation marks and citation omitted). But whether a
“defendant is aware of the probable dangerous consequences of [its] conduct and [it] willfully fails to avoid
such consequences” can be “proved either expressly
through direct evidence or by implication through indirect evidence from which the jury draws inferences.”
Pfeifer v. John Crane, Inc., 164 Cal. Rptr. 3d 112, 135
(Ct. App. 2013) (quoting Angie M. v. Super. Ct., 44 Cal.
Rptr. 2d 197, 204 (Ct. App. 1995)).
Substantial evidence of Monsanto’s malice was presented to the jury, supporting punitive damages under
§ 3294(a). For example, internal emails were presented
supporting that Monsanto was consciously aware of the
potential health risks associated with Roundup. One
email, from Monsanto toxicologist Mark Martens, read,
“I don’t know for sure how suppliers would react—but
if somebody came to me and said they wanted to test
Roundup I know how I would react—with serious concern.” A second email, from Monsanto toxicologist Wil-

45a
liam Heydens, read, “[g]lyphosate is OK but the formulated product (and thus the surfactant) does the damage.” And a third email, from Monsanto toxicologist
Donna Farmer, read, “you cannot say that Roundup is
not a carcinogen … [because] we have not done the
necessary testing on the formulation to make that
statement.” These emails provide the substantial evidence necessary to support punitive damages based on
Monsanto’s awareness that Roundup posed a potential
health risk.
There was also substantial evidence sufficient for a
jury to find that Monsanto “fail[ed] to take steps it
kn[ew] w[ould] reduce or eliminate the risk of harm.”
Pac. Gas & Elec. Co., 235 Cal. Rptr. 3d at 236 (internal
quotation marks and citation omitted). For instance,
after its own hired expert, Dr. Parry, found that
glyphosate—alone and when mixed with other chemicals in Roundup—had increased genotoxic risks, evidence was sufficient to infer that Monsanto largely
failed to perform further studies. Instead, Monsanto
helped author an article downplaying glyphosate’s
health and safety concerns. Even though “it is also
possible to draw a contrary conclusion” that Monsanto
was ignorant or negligent (but not malicious),19 the “jury’s verdict must be upheld [because] it is supported by
substantial evidence” that Monsanto consciously disregarded Roundup’s potential harm. See Pavao v. Pagay,
307 F.3d 915, 918 (9th Cir. 2002).

19

Monsanto also argues that it cannot be deemed to have acted with malice because it complied with regulations. But “[a] defendant’s compliance with, or actions consistent with, governmental regulations or determinations about a product do not necessarily eviscerate a claim for punitive damages.” Johnson & Johnson
Talcum Powder Cases, 249 Cal. Rptr. 3d 642, 678 (Ct. App. 2019).

46a
B
We next turn to the amount of punitive damages
that would still comport with the Due Process Clause.
Hardeman argues that the district court erred by reducing the jury’s $75 million punitive damages award to
$20 million. And Monsanto contends that even the reduced punitive damages award was unconstitutional
under the Due Process Clause. Consistent with our
“[e]xacting appellate review,” State Farm, 538 U.S. at
418 (citing Cooper Indus., 532 U.S. at 436), we lay out
some fundamental principles underlying the constitutionality of punitive damages awards.
“Compensatory damages and punitive damages
serve different purposes; compensatory damages redress concrete loss caused by the defendant’s wrongful
conduct, while punitive damages are aimed at deterrence and retribution.” Planned Parenthood of Columbia/Willamette Inc. v. Am. Coal. of Life Activists,
422 F.3d 949, 953 (9th Cir. 2005) (citing State Farm, 538
U.S. at 416; Cooper Indus., 532 U.S. at 432). Further,
“[t]he Supreme Court has instructed us to go ‘no further’ if a ‘more modest punishment’ for the ‘reprehensible conduct’ at issue ‘could have satisfied the State’s
legitimate objectives’ of punishing and deterring future
misconduct.” Lompe v. Sunridge Partners, LLC, 818
F.3d 1041, 1065 (10th Cir. 2016) (quoting State Farm,
538 U.S. at 419–20). Ultimately, we are mindful that in
applying the Due Process Clause, it is “a constitution
we are expounding.” Tabares v. City of Huntington
Beach, 988 F.3d 1119, 1122 (9th Cir. 2021) (quoting
McCulloch v. Maryland, 17 U.S. 316, 407 (1819)).
When punitive damages are “grossly excessive,”
they violate the Due Process Clause. State Farm, 538
U.S. at 416. Whether punitive damages are “grossly

47a
excessive” depends on three factors: “(1) the degree of
reprehensibility of the defendant’s misconduct; (2) the
disparity between the actual or potential harm suffered
by the plaintiff and the punitive damages award; and
(3) the difference between the punitive damages
awarded by the jury and the civil penalties authorized
or imposed in comparable cases.” Id. at 418 (citing
BMW of N. Am., Inc. v. Gore, 517 U.S. 559, 575 (1996)).
1
The weightiest factor is “the degree of reprehensibility of the defendant’s conduct.” Gore, 517 U.S. at
575. The district court found “Monsanto’s approach to
the safety of its product was indeed reprehensible.” In
re Roundup Prods. Liab. Litig., 385 F. Supp. 3d 1042,
1047 (N.D. Cal. 2019). The district court’s finding was
reasonable and supported by the facts presented to the
jury. Thus, the question is to what degree Monsanto’s
actions were reprehensible. We determine the reprehensibility of Monsanto’s conduct by considering the
following five factors: whether “[1] the harm caused
was physical as opposed to economic; [2] the tortious
conduct evinced an indifference to or a reckless disregard of the health or safety of others; [3] the target of
the conduct had financial vulnerability; [4] the conduct
involved repeated actions or was an isolated incident;
and [5] the harm was the result of intentional malice,
trickery, or deceit, or mere accident.” State Farm, 538
U.S. at 419 (citing Gore, 517 U.S. at 576–77).
Several aggravating factors associated with reprehensible conduct are present based on the evidence at
trial. First, the harm inflicted on Hardeman—cancer—
was physical, not purely economic. Hardeman has already been well compensated for damages resulting
from his physical injury. Indeed, $5,066,667 of the com-

48a
pensatory damages—about 96% of the jury’s
$5,267,634.10 total compensatory award—was based on
noneconomic harm. See In re Roundup, 385 F. Supp.
3d at 1045. The district court found the $2 million in
compensatory damages related to future noneconomic
harm were “borderline” high because Hardeman’s cancer was in remission. Id. And while remission is “no
guarantee,” testimony showed his cancer is unlikely to
return. Id. But, as the district court explained, this
concern was “mitigate[d]” because “the jury likely intended the future award to compensate a longer period
of suffering.” Id. These factual findings by the district
court, which are reasonable and not clearly erroneous,
highlight the reprehensibility of causing serious physical harm and the need to deter future harm. While
Hardeman was well compensated for past and future
harm, the serious nature of the harm supports finding
that Monsanto’s actions were reprehensible.
Second, the district court’s factual conclusion that
Monsanto ignored safety risks is not clearly erroneous
and also supports reprehensibility. For example, the
district court found that “Monsanto’s behavior betrayed a lack of concern about the risk that its product
might be carcinogenic.” Id. at 1047. In addition, it
found that “the evidence at trial painted the picture of a
company focused on attacking or undermining the people who raised concerns, to the exclusion of being an
objective arbiter of Roundup’s safety.” Id. But the district court also found mitigating evidence. Notwithstanding the jury’s verdict for Hardeman, the district
court explained that “the metaphorical jury is still out
on whether glyphosate causes NHL.” Id. Indeed,
“there is credible evidence on both sides of the scientific debate” which “surely diminish[es]—to a degree—
Monsanto’s culpability.” Id. Moreover, “[t]he scientific

49a
landscape was even more favorable to Monsanto during
the time Mr. Hardeman was using Roundup.” Id.
We also agree with the district court that no evidence was presented that Monsanto knew Roundup in
fact caused cancer. Monsanto never conducted studies
that may have indicated (as its scientists suspected)
that Roundup was carcinogenic. And regulators, like
EPA, have repeatedly found glyphosate to not have
carcinogenic risks. But, as the district court found, the
evidence supports that Monsanto knew Roundup might
cause cancer, hence its concern and reluctance to, for
instance, conduct Dr. Parry’s recommended studies.
We have no quibble with any of the district court’s findings of fact. Ultimately, evidence of Monsanto’s conduct—downplaying concerns and failing to fully assess
Roundup’s safety after being alerted to possible risks—
supports that Monsanto acted with “indifference to or a
reckless disregard of the health or safety of others.”
State Farm, 538 U.S. at 419.
Third, State Farm asks us to look at Hardeman’s
financial vulnerability. Id. It goes without saying that
this is a case of a large corporation and an individual—
not two corporations on equal footing. Having said
that, this factor is not particularly relevant in a mostly
noneconomic damages case like this one. See Lompe,
818 F.3d at 1066 (“But as a practical matter, the financial vulnerability factor does not have particular relevance … where the harm [plaintiff] suffered was physical rather than a reprehensible exploitation of financial
vulnerability through fraud or other financial misconduct.”). The district court below did not analyze this
factor. We do not find this factor helpful one way or
another to establish reprehensibility.

50a
Fourth, the district court did not clearly err in finding that Monsanto’s “conduct involved repeated actions” instead of “an isolated incident.” See In re
Roundup, 385 F. Supp. 3d at 1047 (quoting State Farm,
538 U.S. at 419). Evidence was presented that Monsanto repeatedly sold Roundup without a warning label.
Id. Thus, this factor supports reprehensibility because
“repeated misconduct is more reprehensible than an
individual instance of malfeasance.” Gore, 517 U.S. at
577.
Fifth, the district court recognized Monsanto’s actions exhibited malice but also made findings of fact
that mitigated this factor. The district court noted
there was no evidence “that Monsanto hid evidence
from the EPA or, alternatively, that it had managed to
capture the EPA.” See In re Roundup, 385 F. Supp. 3d
at 1047. There was also no evidence “that Monsanto
was in fact aware that glyphosate caused cancer but
concealed it, thus distinguishing this case from the
many cases adjudicating the conduct of the tobacco
companies.” Id. Nonetheless, there was evidence of
Monsanto’s malice.
As the district court found,
“[d]espite years of colorable claims in the scientific
community that Roundup causes NHL,” emails showed
“Monsanto employees crassly attempting to combat,
undermine or explain away challenges to Roundup’s
safety.” Id. And “not once was [the jury] shown an
email suggesting that Monsanto officials were actively
committed to conducting an objective assessment of its
product.” Id. We do not find the district court’s findings of fact clearly erroneous.
Based upon the district court’s findings, four of the
five factors support that Monsanto’s actions were reprehensible. But in two of those factors, there were significant mitigating considerations which suggest that

51a
Monsanto’s actions, while reprehensible, were not “particularly egregious.” See Gore, 517 U.S. at 582.
2
We next examine the disparity between harm to
Hardeman and the punitive damages award by looking
to the Supreme Court’s guidelines on appropriate ratios. State Farm, 538 U.S. at 424. The Supreme Court
has explained that “[s]ingle-digit multipliers are more
likely to comport with due process, while still achieving
the State’s goals of deterrence and retribution.” Id. at
425. “[A]n award of more than four times the amount
of compensatory damages might be close to the line of
constitutional impropriety.” Id. (citing Pac. Mut. Life
Ins. Co. v. Haslip, 499 U.S. 1, 23–24 (1991)). But there
are “no rigid benchmarks that a punitive damages
award may not surpass” and greater ratios might
“comport with due process where ‘a particularly egregious act has resulted in only a small amount of economic damages.’ ” Id. (quoting Gore, 517 U.S. at 582).
Here, the jury awarded $5,267,634.10 in compensatory damages and $75 million (approximately 14.2 times
the compensatory amount) in punitive damages. But
Monsanto’s conduct—though plausibly viewed as reprehensible—was not “particularly egregious” as to
warrant a damages ratio above the single-digit range,
especially considering the absence of evidence showing
a known safety risk was intentionally concealed. See id.
Thus, we have little trouble holding that the jury’s 14.2
to 1 ratio violated due process.
The $5,267,634.10 compensatory damages award
was substantial. See, e.g., Ramirez v. TransUnion
LLC, 951 F.3d 1008, 1037 (9th Cir. 2020), cert. granted
in part on other grounds, No. 20-297, 2020 WL 7366280
(U.S. Dec. 16, 2020) (describing $8 million compensato-

52a
ry damages award as “quite substantial”); Lompe, 818
F.3d at 1069 (“[C]ompensatory damages have often
been considered ‘substantial’ when they are over
$1,000,000.”). “When compensatory damages are substantial, then a lesser ratio, perhaps only equal to compensatory damages, can reach the outermost limit of
the due process guarantee.” State Farm, 538 U.S. at
425. But “State Farm’s 1:1 compensatory to punitive
damages ratio is not binding, no matter how factually
similar the cases may be.” Hangarter v. Provident Life
& Accident Ins. Co., 373 F.3d 998, 1014 (9th Cir. 2004).
Considering these precedents, we have held that “[i]n
cases where there are significant economic damages
and punitive damages are warranted but behavior is
not particularly egregious, a ratio of up to 4 to 1 serves
as a good proxy for the limits of constitutionality.”
Planned Parenthood, 422 F.3d at 962.
Even though “substantial” compensatory damages
were awarded here, the evidence justifies a damages
ratio higher than 1 to 1. Monsanto intentionally downplayed and ignored calls to test Roundup’s carcinogenic
risks, and the jury determined that Roundup caused
Hardeman’s cancer. Coupled with the physical damage—cancer—these factors suggest a damages ratio up
to 4 to 1 “serves as a good proxy for the limits of constitutionality.” Id.; see State Farm, 538 U.S. at 425 (“The
precise award in any case, of course, must be based upon the facts and circumstances of the defendant’s conduct and the harm to the plaintiff.”).
3
Third, the district court speculated that fines for
failure to warn of a product’s risk under FIFRA and
the California Health and Safety Code could potentially
“over time[] become quite high” because “both state

53a
and federal law calculate penalties per violation.” In re
Roundup, 385 F. Supp. 3d at 1048; see also 7 U.S.C.
§ 136j(a)(1)(E); 40 C.F.R. § 19.4; Cal. Health & Safety
Code § 25249.7. We note the need to avoid speculation
in analyzing this factor. See State Farm, 538 U.S. at
428 (rejecting consideration of speculative future penalties unrelated to plaintiffs’ harm). The parties failed
below, and again on appeal, to explain what the relevant civil fines are, how they would be calculated, and
even whether they would be warranted. See In re
Roundup, 385 F. Supp. 3d at 1048. Monsanto points
out, however, that no civil or criminal fines have been
imposed, apparently by any federal or any state agency, including California.
Though California in 2017 categorized glyphosate
as a chemical known to the state to cause cancer, see
Glyphosate Proposition 65, it is also not clear that Monsanto would have been subject to civil fines under California law in 2012. Because neither party presents argument or evidence, we agree with the district court
that this guidepost is not “particularly helpful here.”
See id. at 1048 (“[A]bsent an explanation from either
party about how these penalties would be calculated, it
is difficult to use them as a benchmark.”).
*
*
*
We hold that the jury’s $75 million punitive damages award was “grossly excessive” given the mitigating
factors found by the district court. See State Farm, 538
U.S. at 416. Considering the evidence of reprehensibility, however, we hold that the district court’s reduced
$20 million punitive damages award (a 3.8 to 1 damages
ratio), while at the outer limits of constitutional propriety, ultimately comports with due process. Planned
Parenthood, 422 F.3d at 962; see also Ramirez, 951

54a
F.3d at 1037 (upholding 4 to 1 ratio where $8 million
compensatory damages awarded).
Though we uphold the district court’s $20 million
punitive damages award, we emphasize that the award
is “close to the line of constitutional impropriety.” See
State Farm, 538 U.S. at 425. Considering the number
of cases pending in this Roundup multidistrict litigation, we recognize a smaller punitive damages award in
other cases may safely satisfy due process concerns by
still imposing the appropriate punishment and achieving the goals of deterrence and retribution. Cf. Lompe,
818 F.3d at 1065 (“The Supreme Court has instructed
us to go ‘no further’ if a ‘more modest punishment’ for
the ‘reprehensible conduct’ at issue ‘could have satisfied
the State’s legitimate objectives’ of punishing and deterring future misconduct.” (quoting State Farm, 538
U.S. at 419–20)); see, e.g., Johnson v. Monsanto Co., 266
Cal. Rptr. 3d 111, 129 (Ct. App. 2020), as modified on
denial of reh’g (Aug. 18, 2020), review denied (Oct. 21,
2020) (reducing punitive damages award in a Roundup
case to a 1 to 1 ratio with compensatory damages of
$10.3 million and where facts of Monsanto’s reprehensibility were likely stronger than this case).
VIII
We are aware this appeal involves a bellwether trial with potentially thousands of federal cases to follow.
But many of our holdings are fact-specific. Different
Roundup cases may present different considerations,
leading to different results. For example, were there
evidence that EPA took certain enforcement action
against Monsanto after a cancer warning was added to
Roundup’s label, perhaps the preemption analysis
would lead to a different outcome. And while our holding that expert testimony was admissible here may be

55a
applicable to other Roundup cases, much of this expert
testimony was unique to Hardeman’s specific case.
Thus, it would not be unreasonable for the district
court to revisit the admissibility of expert testimony
based upon the facts raised in future cases. Similarly,
despite the punitive damages upheld here, a smaller
punitive damages award in future cases may better
comport with due process. Ultimately, we agree that
the district court in this case either reached the correct
result or need not be reversed.
AFFIRMED.

56a
N.R. SMITH, Circuit Judge, dissenting to section
VII.B.
After a mandated de novo review of the district
court’s punitive damages award, determining if the
amount was constitutionally excessive (not simply determining whether the award was acceptable or reasonable), I must dissent. Let me explain.
Punitive damages are “ ‘ quasi-criminal,’ operat[ing]
as ‘private fines’ intended to punish the defendant and
to deter future wrongdoing.” Cooper Indus., Inc. v.
Leatherman Tool Grp., Inc., 532 U.S. 424, 432 (2001)
(quoting Pacific Mut. Life Ins. Co. v. Haslip, 499 U.S.
1, 19 (1991)). “Exacting appellate review ensures that
an award of punitive damages is based upon an ‘application of law, rather than a decisionmaker’s caprice.’ ”
State Farm Mut. Auto. Ins. Co. v. Campbell, 538 U.S.
408, 418 (2003). As the majority has stated, “the Supreme Court has instructed us to go ‘no further’ if a
‘more modest punishment’ for the ‘reprehensible conduct’ at issue ‘could have satisfied the State’s legitimate
objectives’ of punishing and deterring future misconduct.” Lompe v. Sunridge Partners, LLC, 818 F.3d
1041, 1065 (10th Cir. 2016) (quoting State Farm, 538
U.S. at 419–20). In order to determine de novo whether
the punishment is “grossly excessive,” the Supreme
Court requires us “to consider three guideposts: (1) the
degree of reprehensibility of the defendant’s misconduct; (2) the disparity between the actual or potential
harm suffered by the plaintiff and the punitive damages
award; and (3) the difference between the punitive
damages awarded by the jury and the civil penalties
authorized or imposed in comparable cases.” State
Farm, 538 U.S. at 417–18. Of course, we always defer
to the district court’s findings of fact unless they are
clearly erroneous. Cooper Indus., 532 U.S. at 440 n.14.

57a
The district court made the following findings of
fact, upon which one must make the analysis:
a.

The jury found it was more likely than not
that Roundup (the glyphosate therein) was
a “substantial factor” in causing Hardeman’s NHL. In order to evidence that
Roundup was a substantial factor in this
cause, Hardeman’s experts only performed
a differential diagnosis. Differential diagnosis is a methodology by which a physician
“rules in” all potential causes of a disease,
“rules out” those for “which there is no
plausible evidence of causation, and then
determines the most likely cause among
those that cannot be excluded.”

b. NHL is a cancer that affects white blood
cells in the immune system. Approximately 70% or more of the NHL cases are idiopathic, meaning they develop for unknown
reasons. However, some causes of NHL,
such as hepatitis C (HCV), are well established. Hardeman had HCV for 25 to 40
years before developing NHL.
c.

Hardeman was diagnosed with NHL in
early 2015. He started using Roundup in
the 1980s but ended his use in 2012. During the time Hardeman was using Roundup, the scientific landscape (of whether it
could cause cancer) was more favorable to
Monsanto than at the time of trial. In 2012,
EPA had little to no evidence that glyphosate was at all carcinogenic in humans. Not
until 2015 did the International Agency for
Research on Cancer (“IARC”) suggest that

58a
glyphosate was probably carcinogenic to
humans.
d. Even today, there is credible evidence on
both sides with regard to whether glyphosate causes NHL as documented by the repeated approvals of glyphosate by EPA,
the European Chemicals Agency, Health
Canada, and other worldwide regulatory
agencies.
e.

There is no evidence that Monsanto was in
fact aware that glyphosate caused cancer;
that Monsanto concealed it from EPA; or
that Monsanto somehow had “captured”
those in EPA, such that EPA would not
take a position contrary to Monsanto.

f.

The record at best shows that Monsanto
knew Roundup might cause cancer but
made minimal efforts to determine whether
the scientific evidence (finding glyphosate
may cause NHL) was accurate.

g. However, Monsanto did attack or undermine those who raised concerns for Roundup’s safety.
h. Monsanto has sold Roundup without a
warning label.1
i.

1

The award of future noneconomic damages
was not based on physical pain or impairment but was limited to “anxiety, mental

The district court noted that Monsanto continues to sell
Roundup without a warning label. However, “the conduct that
harmed [plaintiff] is the only conduct relevant to the reprehensibility analysis.” State Farm, 538 U.S. at 424.

59a
suffering, loss of enjoyment of life, emotional distress, and inconvenience.”
j.

Hardeman’s NHL is now in remission, his
prognosis is “very good” and it is “extremely unlikely” that his NHL will return.

See In re Roundup Prod. Liab. Litig., 385 F. Supp. 3d
1042, 1047 (N.D. Cal. 2019).
1.

The degree of reprehensibility of Monsanto’s
conduct.

Considering each of the three guideposts, the degree of reprehensibility is “[t]he most important indicium of the reasonableness of a punitive damages
award.” See State Farm, 538 U.S. at 419. The degree
of reprehensibility is determined by considering (1)
“the harm caused was physical as opposed to economic”; (2) “the tortious conduct evinced an indifference to
or a reckless disregard of the health or safety of others”; (3) the target of the conduct had financial vulnerability”; (4) “the conduct involved repeated actions or
was an isolated incident”; and (5) “the harm was the result of intentional malice, trickery, or deceit, or mere
accident.” Id. Applying the facts (as determined by
the district court) de novo to these five considerations,
Monsanto’s conduct from the 1980s to 2012 did not constitute the degree of “reprehensible conduct” that
would warrant an award of punitive damages at a 3.8:1
ratio. See id. Reviewing these five considerations instead demonstrates a low degree of reprehensibility.
First, while Hardeman suffered from physical harm
(NHL), he was well compensated for it by the jury.
Importantly, the physical harm suffered was not based
on acts or threats of violence, see Florez v. Delbovo, 939
F. Supp. 1341, 1348 (N.D. Ill. 1996) (explaining that

60a
“acts of violence or threats of bodily harm” are “the
most reprehensible” (citing BMW of N. Am., Inc. v.
Gore, 517 U.S. 559, 575 (1996)), or “from some physical
assault or trauma,” see State Farm, 538 U.S. at 426.
Further, (as demonstrated below) Monsanto did not
engage in deliberate conduct to exploit Hardeman and
expose him to a risk of cancer. Cf. Bullock v. Philip
Morris USA, Inc., 131 Cal. Rptr. 3d 382, 396 (Ct. App.
2011) (concluding “that in a case involving physical
harm, the physical or physiological vulnerability of the
target of the defendant’s conduct is an appropriate factor to consider in determining the degree of reprehensibility, particularly if the defendant deliberately exploited that vulnerability”).
Second, one must determine whether Monsanto’s
conduct evinced “indifference to or a reckless disregard
of the health or safety of others.” State Farm, 538 U.S.
at 419. In California, Hardeman had to demonstrate
that Monsanto “had been guilty of oppression, fraud, or
malice,” in order to be awarded punitive damages from
Monsanto. Cal. Civ. Code § 3294(a). Section 3294(c)(1)
outlines that Monsanto’s conduct must have been undertaken “with a willful and conscious disregard of the
rights or safety of others.” A conscious disregard “requires that the defendant have actual knowledge of the
risk of harm it is creating and, in the face of that
knowledge, fail[ed] to take steps it kn[ew would] reduce
or eliminate the risk of harm.” Ehrhardt v. Brunswick,
Inc., 231 Cal. Rptr. 60, 65 (Ct. App. 1986). Given this
standard, although ignoring evidence that Roundup
might cause cancer could be substantial evidence to establish punitive damages against Monsanto, there was
and still exists “credible evidence on both sides of the
debate” about whether Roundup actually does cause
cancer. During the time that Hardeman used Roundup,

61a
the evidence was scant that Roundup may cause cancer, but Monsanto did disregard it. However, its conduct does not demonstrate (nor did the court find) that
Monsanto intentionally targeted Hardeman.
Third, there is no evidence in the record that the
target of the conduct (Hardeman) had financial vulnerability. See Clark v. Chrysler Corp., 436 F.3d 594, 604
(6th Cir. 2006) (“The financial vulnerability of a target
is particularly relevant when the harm inflicted is economic in nature.”). The wealth of Monsanto cannot justify an award of punitive damages absent a connection
of its “financial resources and the physical injury suffered” by Hardeman. See id.
Fourth, Monsanto’s failure to place a warning on
Roundup’s label does not constitute “repeated actions.”2 See Gore, 517 U.S. at 577. “[E]vidence that a
defendant has repeatedly engaged in prohibited conduct while knowing or suspecting that it was unlawful
would provide relevant support for an argument that
strong medicine is required to cure the defendant’s disrespect for the law.” Id. at 576–77. At the time Hardeman used the product, Monsanto was not engaging in
unlawful conduct. At that time, EPA had little to no
evidence that glyphosate was carcinogenic in humans.
In fact (again), there is credible evidence (to this day)
on both sides with regard to whether glyphosate causes
NHL. Notably, IARC did not decide to classify
glyphosate as “probably carcinogenic to humans” until
2015 (three years after Hardeman stopped using
Roundup). See In re Roundup Prod. Liab. Litig., 385
F. Supp. 3d at 1047. Further, after California’s passage
of Proposition 65 (requiring a warning label for glypho2

As previously noted, the district court seems to rely on conduct that occurred post 2012 in determining the reprehensibility.

62a
sate), Michael L. Goodis, EPA, Office of Pesticide Programs, sent a letter to registrants (like Monsanto) challenging Proposition 65 as contrary to “EPA’s determination that glyphosate is ‘not likely to be carcinogenic
to humans.’ ” Proposed Interim Registration Review at
11. The letter charged that the Proposition 65 warning
was a “false and misleading statement” and violated the
Federal Insecticide, Fungicide, and Rodenticide Act
(“FIFRA”).
Fifth, Monsanto did not act with “intentional malice, trickery, or deceit.” See State Farm, 538 U.S. at
419. As the district court found, Monsanto acted with
indifference, but Monsanto did not engage in intentional acts, trickery, or deceit.3 See Williams v. First Advantage LNS Screening Sols. Inc, 947 F.3d 735, 754
(11th Cir. 2020) (concluding that “[a]t worst, Defendant
acted recklessly, but without any intent to harm Plaintiff”). In fact, Monsanto’s actions were not contrary to
“government regulations.” See Johnson & Johnson
Talcum Powder Cases, 249 Cal. Rptr. 3d 642, 678 (Ct.
3

Even the majority does not conclude that Monsanto acted
with “intentional malice, trickery, or deceit.” See Maj. Op. 53. Rather, it describes Monsanto’s conduct as “malice.” Id. at 56. However, “malice,” as found by the district court, means a “conscious
disregard of the rights or safety of others.” See In re Roundup
Prod. Liab. Litig., 385 F. Supp. 3d at 1046 (quoting Cal. Civ. Code
§ 3294(c)(1)). Thus, there is no evidence that the harm suffered by
Hardeman was the “result of intentional malice”; Monsanto did not
“intend[] to cause injury” to Hardeman. See Gober v. Ralphs Grocery Co., 40 Cal. Rptr. 3d 92, 106 (Ct. App. 2006). Nevertheless,
despite a lack of evidence of this “important criterion,” the majority still concludes that a punitive damages award at outer constitutional boundaries for this case of significant compensatory damages was appropriate. See Rhone-Poulenc Agro, S.A. v. DeKalb Genetics Corp., 345 F.3d 1366, 1371 (Fed. Cir. 2003) (noting that this
“factor has become an important criterion of what the Constitution
accepts as reprehensible conduct”).

63a
App. 2019), review denied (Oct. 23, 2019). Although
compliance with regulations cannot “eviscerate a claim
for punitive damages,” id., it does evidence that the
harm “was [not] the result of intentional malice, trickery, or deceit,” State Farm, 538 U.S. at 419. As the district court found, the association between Roundup and
NHL “remains under scientific investigation” and there
was no evidence of intentional acts on the part of Monsanto. Id.; cf. Satcher v. Honda Motor Co., 52 F.3d
1311, 1316–17 (5th Cir. 1995) (precluding punitive damages when there was a genuine dispute in the scientific
community).
Lastly, in reviewing these considerations, “some
wrongs are more blameworthy than others,” such as
“violence,” “trickery and deceit,” or “intentional malice” and are more deserving of a higher punitive damages ratio. See Gore, 517 U.S. at 575. We have suggested that this “hierarchy of reprehensibility” starts
“with acts and threats of violence … , followed by acts
taken in reckless disregard for others’ health and safety, affirmative acts of trickery and deceit, and finally,
acts of omission and mere negligence.” Swinton v. Potomac Corp., 270 F.3d 794, 818 (9th Cir. 2001) (citation
and quotation marks omitted). Thus, “[i]n order to justify a substantial punitive damage award, a plaintiff ordinarily must prove that the defendants’ conduct falls
at the upper end of the blameworthiness continuum, or,
put another way, that the conduct reflects a high level
of culpability.” Zimmerman v. Direct Fed. Credit Union, 262 F.3d 70, 82 (1st Cir. 2001).
No review of these considerations reflects “a high
level of culpability.” Id. Thus, Monsanto’s low degree
of reprehensibility cannot constitutionally justify the
district court’s substantial punitive damages award.

64a
2.

The disparity between harm suffered and
punitive damages award.

“The second and perhaps most commonly cited indicium of an unreasonable or excessive punitive damages
award is its ratio to the actual harm inflicted on the
plaintiff.” Gore, 517 U.S. at 580. In determining punitive damages for each case, the Supreme Court has outlined that “the precise award” of such damages “must
be based upon the facts and circumstances of the defendant’s conduct and the harm to the plaintiff.” State
Farm, 538 U.S. at 425. Although the Court has not
drawn a “bright-line ratio” for punitive damages, the
Court’s jurisprudence suggests “that, in practice, few
awards exceeding a single digit-ratio between punitive
and compensatory damages, to a significant degree, will
satisfy due process.” Id. “A higher ratio may … be justified in cases” where (1) “the injury is hard to detect,”
(2) “the monetary value of noneconomic harm might
have been difficult to determine,” or (3) “a particularly
egregious act has resulted in only a small amount of
[compensatory] damages.” Gore, 517 U.S. at 582. The
Court then clarified the outer boundaries for such an
award: “an award of more than four times the amount
of compensatory damages might be close to the line of
constitutional impropriety.” Id. However, it also emphasized an outermost limit in making such an award,
stating “when compensatory damages are substantial,
then a lesser ratio [less than 4:1], perhaps only equal to
compensatory damages, can reach the outermost limit
of the due process guarantee.” Id. (emphasis added).
The compensatory damages in this case are substantial ($5,267,634.10) and the reasons to justify a
higher ratio do not exist. Thus, a punitive damages
amount equal to compensatory damages reaches the
Supreme Court’s outermost limit for punitive damages.

65a
The California Supreme Court provides further
guidance, especially focusing on a case where there is a
relatively low reprehensibility. It said that “a ratio of
one to one might be the federal constitutional maximum
in a case involving … relatively low reprehensibility
and a substantial award of noneconomic damages:
‘When compensatory damages are substantial, then a
lesser ratio, perhaps only equal to compensatory damages, can reach the outermost limit of the due process
guarantee.’ ” Roby v. McKesson Corp., 219 P.3d 749,
769 (Cal. 2009) (quoting State Farm, 538 U.S. at 425).
In this case, the district court reduced the jury’s 14.2:1
punitive damages award to nearly a 4:1 ratio, which is
generally reserved for a higher degree of reprehensible
conduct. Id. Monsanto’s conduct here did not include
(1) acts or threats of violence; or (2) acts of trickery or
deceit, evidencing a low degree of reprehensibility.
Even in a case that involved conduct that was highly reprehensible, the California Court of Appeal concluded that “the permissible ratio of punitive to compensatory damages” should be reduced when the noneconomic damages “appear[ed] to include a punitive
component.” See Bankhead v. ArvinMeritor, Inc., 139
Cal. Rptr. 3d 849, 866–67 (Ct. App. 2012) (allowing punitive damages award at a 2.4:1 ratio). The Supreme
Court agrees. See State Farm, 538 U.S. at 425–26, 429
(explaining that “in light of the substantial compensatory damages awarded (a portion of which contained a
punitive element), a punitive damages award at or near
the amount of compensatory damages” was justified).
The jury awarded substantial past and future noneconomic damages totaling $5,066,667, which contain a
punitive element. The district court recognized this
fact when it noted that the $2,000,000 in future noneconomic damages was “borderline,” because it was

66a
“somewhat difficult to rationalize the conclusion that
the suffering he will face is, effectively, two-thirds of
the suffering he has already endured.” In re Roundup
Prod. Liab. Litig. 385 F. Supp. 3d. at 1045. Thus, a punitive damages award of 3.8:1 exceeded the constitutionally permissible limits. See State Farm, 538 U.S. at
425; Roby, 219 P.3d at 769. The ratio of punitive damages should be reduced to a 1:1 ratio. See id.
3.

The difference between the punitive damages
awarded and the civil penalties authorized or
imposed in similar cases.

The third guidepost also supports punitive damages
equal to the compensatory damages award. Sanctions
for comparable misconduct can be determined by either
the “civil or criminal penalties that could be imposed for
comparable misconduct,” Gore, 517 U.S. at 583, or “the
existence of other civil awards against the defendant for
the same conduct,” Haslip, 499 U.S. at 22; see also Ismail v. Cohen, 899 F.2d 183, 186 (2d Cir. 1990) (“Reference to other awards in similar cases is proper.”).
One has difficulty comparing civil or criminal penalties with this punitive damages award. During the time
Hardeman used Roundup, there were no federal or state
criminal or civil penalties for Monsanto’s conduct. Neither the federal government nor the State of California
had imposed any penalties for the possibility that
glyphosate may cause cancer.4 Although Monsanto’s
4

Criminal and civil penalties may be imposed under federal
and state law. See 7 U.S.C. §§ 136j(a)(1)(E), 136l(a)(1); 40 C.F.R.
§ 19.4; Cal. Health & Safety Code §§ 25249.6, 25249.7(a). Under
federal law, civil penalties may be assessed up to $5,000 for each
offense. 7 U.S.C. § 136l(a)(1); see also 40 C.F.R. § 19.4 (2012).
Criminal penalties may result in either imprisonment of one year,
a $50,000 fine, or both. Id. § 136l(b)(1). California law imposes a

67a
conduct following the harm can be considered in setting
the punitive damages award, see Johnson & Johnson
Talcum Powder Cases, 249 Cal. Rptr. 3d at 678, California did not list glyphosate as a chemical known to cause
cancer until 2017.5 It is similarly difficult to determine
how the federal government or California would apply or
calculate fines (which is probably one of the reasons neither party really addressed this issue).
Comparing this case to the only other litigated case
against Monsanto regarding the sale of Roundup supports a 1:1 ratio. See Johnson v. Monsanto Co., 266 Cal.
Rptr. 3d 111, 135 (Ct. App. 2020). In Johnson, the
plaintiff developed cancer in 2014 after using Roundup.
Id. at 116–17. Johnson sought damages, based on Monsanto’s knowledge regarding Roundup’s carcinogenicity. Id. at 117. Reviewing the evidence, the district
court reduced compensatory damages to $10,253,309.32
and awarded punitive damages at a 1:1 ratio. Id. at 129.
The damages awarded (for essentially “the same conduct”) in Johnson provide a worthy comparison in assessing the constitutionality of this punitive damages
award. See Haslip, 499 U.S. at 22; see also Restatement (Second) of Torts § 908 cmt. e (1979) (noting that
“[i]t seems appropriate to take into consideration both
the punitive damages that have been awarded in prior
suits and those that may be granted in the future, with
greater weight being given to the prior awards”).

civil penalty up to $2,500 per day for each violation. Cal. Health &
Safety Code § 25249.7(a).
5

California Health & Safety Code section 25249.6 prohibits
any “person in the course of doing business [from] knowingly and
intentionally expos[ing] any individual to a chemical known to the
state to cause cancer or reproductive toxicity without first giving
clear and reasonable warning to such individual.”

68a
Finally, our sister circuits have come to similar
conclusions when dealing with substantial compensatory damages (even when the conduct is highly reprehensible). For example, in Boerner v. Brown & Williamson Tobacco Co., the Eighth Circuit concluded that, despite American Tobacco’s “highly reprehensible” conduct, the “punitive damages award [of $15,000,000]
[wa]s excessive when measured against the substantial
compensatory damages award [of $4,025,000].” 394
F.3d 594, 603 (8th Cir. 2005). Thus, it “conclude[d] that
a ratio of approximately 1:1 would comport with the requirements of due process.” Id.; Saccameno v. U.S.
Bank Nat’l Ass’n, 943 F.3d 1071, 1090 (7th Cir. 2019),
cert. denied sub nom. Saccameno v. Ocwen Loan Servicing, LLC, 140 S. Ct. 2674 (2020) (holding that “a considerable compensatory award for the indifferent, not
malicious, mistreatment” and evidence that the “award
reflects emotional distress damages that ‘already contain [a] punitive element’ ” “should not exceed 1:1”);
Bridgeport Music, Inc. v. Justin Combs Pub., 507 F.3d
470, 490 (6th Cir. 2007) (“Given the large compensatory
damages award of $366,939, a substantial portion of
which contained a punitive element, and the low level of
reprehensibility of defendants’ conduct, a ratio of closer
to 1:1 or 2:1 is all that due process can tolerate in this
case.”); see also Clark, 436 F.3d at 607 (holding that
“because the compensatory damage award here is not
particularly large, a 1:1 ratio is inappropriate. But due
to the lack of several of reprehensibility factors, any
ratio higher than 2:1 is unwarranted”).
4.

Conclusion:

I start where I began. Because we are mandated
to review de novo the district court’s award of punitive
damages, one must undertake the review. In light of
the three guideposts, the district court’s $20,000,000

69a
punitive damages award exceeds the line of constitutionality. The facts found by the district court do not
support a 3.8:1 ratio to compensatory damages. Most
notably, Monsanto’s conduct is not particularly reprehensible in light of the ongoing scientific debate. The
compensatory damages are substantial; thus, punitive
damages in an amount equal to compensatory damages
reaches the outermost limit of the due process guarantee. Criminal and civil penalties and punitive damages
awarded in other cases do not suggest a higher award.
We then should go no further; this punishment will satisfy the State’s legitimate objectives for imposing such
damages.

71a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
MDL No. 2741
Case No. 16-md-02741-VC
IN RE: ROUNDUP PRODUCTS LIABILITY LITIGATION
This document relates to: ALL ACTIONS
Filed March 7, 2019
PRETRIAL ORDER NO. 101: ORDER RE
MONSANTO’S MOTION FOR SUMMARY
JUDGMENT ON NON-CAUSATION GROUNDS
Beyond its motion for summary judgment on causation, Monsanto moved for summary judgment against
the three bellwether plaintiffs on four other grounds.
Specifically, Monsanto contended that: (i) the plaintiffs’
claims are expressly preempted by federal law; (ii) the
plaintiffs’ claims are impliedly preempted; (iii) the evidence is insufficient to support a jury verdict for the
plaintiffs on their failure-to-warn claims; and (iv) the
evidence is insufficient to support a punitive damages
award. The Court previously informed the parties that
Monsanto’s motion on these issues would be denied;
this ruling now explains why.
Monsanto also seeks summary judgment against
one specific plaintiff, Gebeyehou, for the additional reason that his claims are barred by the statute of limitations. The Court will rule on that motion following the
completion of supplemental briefing.

72a
I.
The Court previously rejected Monsanto’s argument that the plaintiffs’ failure-to-warn claims are expressly preempted by the Federal Insecticide, Fungicide, and Rodenticide Act. See Hardeman v. Monsanto
Co., 216 F. Supp. 3d 1037, 1038-39 (N.D. Cal. 2016).
States are permitted to impose their own pesticide labeling requirements as long as those requirements are
not “in addition to or different from” those mandated
by FIFRA. 7 U.S.C. § 136v(b). Thus, state labeling
schemes that are “equivalent to, and fully consistent
with, FIFRA’s misbranding provisions” do not run
afoul of preemption. Bates v. Dow Agrosciences LLC,
544 U.S. 431, 447 (2005). As relevant here, FIFRA requires manufacturers to provide a warning that “may
be necessary and if complied with ... is adequate to protect health.” 7 U.S.C. § 136(q)(1)(G). California law—
which asks whether a risk is known or knowable (for
strict liability) or reasonably should have been known
(for negligence)—is consistent with this requirement.
See Hardeman, 216 F. Supp. 3d at 1038; see also Conte
v. Wyeth, Inc., 168 Cal. App. 4th 89, 101-02 (2008).
Monsanto now raises a different express preemption theory: it contends that FIFRA requires that a
label provide warnings only for “widespread and commonly recognized” uses of a product, while California
law imposes a broader requirement to warn of risks
from any use that is “reasonably foreseeable.” Monsanto’s argument reflects a misreading of the statute. The
phrase “widespread and commonly recognized” comes
not from the misbranding provision, § 136(q)(1)(G), but
rather from the cross-referenced registration provision,
§ 136a(d). When determining whether a pesticide
should be registered for restricted versus general use,
the EPA must consider the effects a pesticide will have

73a
“when applied in accordance with its directions for use,
warnings and cautions and for the uses for which it is
registered, or for one or more of such uses, or in accordance with a widespread and commonly recognized
practice.” 7 U.S.C. §§ 136a(d)(1)(B), (C) (emphasis added). But while a label must specify a product’s use classification, nothing in the statute suggests that warnings
should be limited to those relevant to the “widespread
and commonly recognized” uses of a product. See 40
C.F.R. § 156.10(a)(1)(ix). Indeed, FIFRA’s misbranding provision states that labels must include health
warnings “together with any requirements imposed under section 136a(d).” 7 U.S.C. § 136(q)(1)(G) (emphasis
added). California law is not preempted by the additional federal requirement that pesticide labels specify
their use classification.
II.
Monsanto argues that even if the plaintiffs’ claims
are not expressly preempted, they are barred under
the doctrine of impossibility preemption. Relying on a
trio of cases involving the Federal Food, Drug, and
Cosmetic Act, Monsanto contends that the plaintiffs’
warning and design defect claims are preempted because Monsanto cannot change Roundup’s label or design without first obtaining approval from the EPA.
See Mut. Pharm. Co. v. Bartlett, 570 U.S. 472 (2013);
PLIVA, Inc. v. Mensing, 564 U.S. 604 (2011); Wyeth v.
Levine, 555 U.S. 555 (2009). In the event the plaintiffs
prevail, Monsanto believes it will be trapped between a
state obligation not to sell the existing version of
Roundup and a federal obligation not to sell an altered
version of Roundup without prior agency approval. See
Mut. Pharm. Co., 570 U.S. at 480 (explaining that “the
Court has found state law to be impliedly pre-empted
where it is ‘impossible for a private party to comply

74a
with both state and federal requirements’” (quoting
English v. Gen. Elec. Co., 496 U.S. 72, 79 (1990))).
To begin, Monsanto’s implied preemption theory is
difficult—if not impossible—to square with Bates v.
Dow Agrosciences LLC, 544 U.S. 431 (2005). See Ansagay v. Dow Agrosciences LLC, 153 F. Supp. 3d 1270,
1281-82 (D. Haw. 2015). In Bates, the Supreme Court
outlined the scope of FIFRA’s express preemption
provision with respect to state failure-to-warn claims,
and further held that FIFRA did not preempt state
claims for defective design and breach of warranty.
Although the decision centered on the scope of
FIFRA’s express preemption provision, the implied
preemption question was also before the court. See
Brief for Respondent, Bates v. Dow Agrosciences LLC,
544 U.S. 431 (2005) (No. 03-388), 2004 WL 2758217, at
*36; see also Ansagay, 153 F. Supp. 3d at 1281-82.
Moreover, in reversing the lower court’s conclusion
that the plaintiffs’ claims had been preempted, the
Court necessarily rejected the possibility of implied
preemption. See Bates, 544 U.S. at 459 (Thomas, J.,
concurring in part and dissenting in part) (noting that
the majority decision “comports with th[e] Court’s increasing reluctance to expand federal statutes beyond
their terms through doctrines of implied pre-emption”).
Even if not foreclosed by Bates, Monsanto’s argument fails on the merits. In relying on a line of FDCA
cases, Monsanto elides a critical aspect of FIFRA’s
statutory scheme: FIFRA allows states to regulate or
ban pesticides that have been federally approved.
7 U.S.C. § 136v(a); see also Bates, 544 U.S. at 446 (noting that “a state agency may ban the sale of a pesticide
if it finds, for instance, that one of the pesticide’s labelapproved uses is unsafe”). Monsanto acknowledges this
fact, but nevertheless argues that while California can

75a
ban Roundup, it cannot impose any duties that might
indirectly prevent Monsanto from selling Roundup in
California (even temporarily). See Mut. Pharm. Co.,
570 U.S. at 488 (noting, in the context of the FDCA,
“that an actor seeking to satisfy both his federal- and
state-law obligations it not required to cease acting altogether in order to avoid liability”). But if California
can stop Monsanto from selling Roundup entirely, surely it can impose state-law duties that might require
Monsanto to seek EPA approval before selling an altered version of Roundup in California. By contrast,
nothing in the FDCA allows a state to ban a drug. See
Zogenix, Inc. v. Patrick, No. 14-11689-RWZ, 2014 WL
1454696, at *2 (D. Mass. Apr. 15, 2014) (concluding that
if the State “were able to countermand the FDA’s determinations and substitute its own requirements, it
would undermine the FDA’s ability to make drugs
available to promote and protect the public health”);
cf. PLIVA, Inc., 564 U.S. at 626 (refusing to “distort the
Supremacy Clause in order to create similar preemption across a dissimilar statutory scheme”).
III.
Putting aside preemption, Monsanto argues that it
is entitled to summary judgment on the failure-to-warn
claim because the plaintiffs have failed to present
“competent evidence” that any risk from glyphosate
was “known or knowable” by the scientific community
at the time the plaintiffs used Roundup. See Valentine
v. Baxter Healthcare Corp., 68 Cal. App. 4th 1467, 148384 (1999). Monsanto relies almost entirely on the epidemiological data to make this claim. Even granting
Monsanto’s argument that epidemiology provides the
most reliable evidence of causation, it is certainly not
the only evidence of causation in this case. Moreover,
the epidemiology is far from undisputed. To take just

76a
one example, the De Roos (2003) study supports a conclusion that glyphosate is a risk factor for NHL, yet
Monsanto fails to mention it in its motion. Monsanto
cannot prevail on a motion for summary judgment by
simply ignoring large swaths of evidence.
It is difficult to see how there could be no evidence
that the risks of glyphosate were “knowable” given the
Court’s denial of Monsanto’s motion to exclude the
plaintiffs’ causation experts. Of course, the Daubert
causation inquiry is not identical to the question of
whether there was a “known or knowable” risk from
glyphosate. But the Court previously determined that
the plaintiffs’ experts offered reliable opinions that
glyphosate causes NHL, and they did so relying almost
entirely on scientific evidence that existed when the
plaintiffs were using Roundup. Moreover, the plaintiffs
have presented a great deal of evidence that Monsanto
has not taken a responsible, objective approach to the
safety of its product. Thus, assuming a jury finding
that Roundup causes NHL, there is sufficient evidence
for the plaintiffs to argue that Monsanto could have
reached this conclusion on its own had it investigated
the issue responsibly and objectively.
IV.
For similar reasons, the plaintiffs presented sufficient evidence at summary judgment to support a punitive damages award against Monsanto. Although the
evidence that Roundup causes cancer is quite equivocal, there is strong evidence from which a jury could
conclude that Monsanto does not particularly care
whether its product is in fact giving people cancer, focusing instead on manipulating public opinion and undermining anyone who raises genuine and legitimate
concerns about the issue.

77a
IT IS SO ORDERED.
Date: March 7, 2019

[handwritten signature]
Honorable Vince Chhabria
United States District Court

79a
APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
MDL No. 2741
Case No. 16-md-02741-VC
IN RE: ROUNDUP PRODUCTS LIABILITY LITIGATION
This document relates to: ALL ACTIONS
Filed February 24, 2019
PRETRIAL ORDER NO. 85: DENYING
MONSANTO’S MOTION FOR SUMMARY
JUDGMENT ON SPECIFIC CAUSATION
The Court previously denied Monsanto’s motion for
summary judgment on general causation, concluding
that the opinions of the plaintiffs’ experts were shaky
but admissible. The question now is whether the plaintiffs have cleared the specific causation hurdle—that is,
whether they have presented evidence from which a
reasonable jury could conclude that exposure to
glyphosate caused the non-Hodgkin’s lymphoma of the
three bellwether plaintiffs: Edwin Hardeman, Sioum
Gebeyehou, and Elaine Stevick. To defeat Monsanto’s
motion for summary judgment on this issue, the plaintiffs must present at least one admissible expert opinion to support their specific causation argument. It is
again a close question, but the plaintiffs have barely
inched over the line. All three of the plaintiffs’ specific
causation experts may testify at trial, although, as dis-

80a
cussed below, some aspects of their opinions will not be
admitted.1
I.
The plaintiffs’ specific causation experts use a “differential diagnosis” as the basis for their opinion that
exposure to glyphosate caused these plaintiffs’ NHL.
A differential diagnosis is simply a framework for identifying the most probable cause of a disease.2 See Wendell v. GlaxoSmithKline LLC, 858 F.3d 1227, 1234 (9th
Cir. 2017). To conduct a differential diagnosis, a physician “rules in” all potential causes of a disease, “rules
out” those for “which there is no plausible evidence of
causation, and then determines the most likely cause
among those that cannot be excluded.” Id. The Ninth
Circuit has repeatedly approved the use of a differential diagnosis under Daubert, provided, of course, that
it is applied reliably. See Clausen v. M/V New Carissa,
339 F.3d 1049, 1057 (9th Cir. 2003). Monsanto does not
dispute that the plaintiffs’ experts may use a differen1

This ruling presumes the reader is familiar with the experts’
testimony and the Court’s general causation ruling. See In re
Roundup Products Liability Litigation, No. 16-md-02741-VC,
2018 WL 3368534 (N.D. Cal. July 10, 2018).
2

It appears that courts have used the term “differential diagnosis” to describe two separate tasks: identifying a plaintiff’s disease and identifying the cause of that disease. While differential
diagnosis accurately describes the first task, differential etiology
more accurately describes the latter. See Tamraz v. Lincoln Elec.
Co., 620 F.3d 665, 674 (6th Cir. 2010). Here, there is no dispute
that all three plaintiffs have been accurately diagnosed with NHL.
Because the operative question is what caused their NHL, the
relevant analysis is a differential etiology, rather than a differential diagnosis. Nevertheless, in this ruling the Court will follow
the parties and experts in this case (not to mention the terminology typically used in Ninth Circuit opinions) and stick with “differential diagnosis.”

81a
tial diagnosis as the basis for their opinions, but instead
argues that both their “ruling in” and “ruling out” were
unreliable.
A.
At the ruling-in stage, the question is “which of the
competing causes are generally capable of causing the”
disease. Clausen, 339 F.3d at 1057-58. And here, the
Court already determined that the plaintiffs offered
admissible expert opinions that glyphosate is capable of
causing NHL. Thus, Monsanto’s primary criticism of
the ruling-in process—namely, that the specific causation experts improperly ruled in glyphosate exposure
by cherry-picking favorable epidemiological studies—is
off point. As this Court has previously ruled, the specific causation experts are permitted to build from the
plaintiffs’ admissible general causation opinions. And
the admissible general causation opinions grappled
with the full body of evidence. Thus, it does not matter
that the specific causation experts mentioned only a
subset of the epidemiological studies in their reports; at
trial, their basis for ruling in glyphosate will be the
general causation opinions. This result is the byproduct
of the decision to bifurcate pretrial proceedings between general and specific causation—a decision that
Monsanto urged.3
3

The plaintiffs’ three specific causation experts are testifying
from different postures. Dr. Andrei Shustov was not involved in
the general causation proceedings, and his specific causation opinion is therefore the only one he has offered in this case. Dr. Chadhi
Nabhan did offer a general causation opinion, but it was excluded
on the basis that he failed to offer his own analysis of the relevant
studies, instead relying excessively on IARC’s conclusions. See In
re Roundup Products Liability Litigation, 2018 WL 3368534, at
*32-33. Dr. Dennis Weisenburger offered a general causation opinion that was admitted. Id. at *27-29.

82a
On a related note, Monsanto complains that the
specific causation experts ruled in glyphosate exposure
as a risk factor without presenting epidemiological evidence that it has an adjusted odds ratio above 2.0. But
the inquiry for this step of the differential diagnosis is
whether a risk factor is a potential cause, not whether
it is in fact the cause. See Wendell, 858 F.3d at 1234.
Indeed, as discussed further in Section II of this ruling,
there is not even a categorical requirement that an expert present a study identifying an adjusted odds ratio
above 2.0 to justify a decision not to rule out a risk factor. And in any event, the general causation opinions
on which the specific causation experts may build are
based significantly on De Roos (2003), which reported
an adjusted odds ratio of 2.1 with a 95% confidence interval of 1.1 to 4.0. See generally In re Roundup Products Liability Litigation, No. 16-md-02741-VC, 2018
WL 3368534, at *9 (N.D. Cal. July 10, 2018). The specific causation experts cite De Roos as well, but, again,
the important point is that these experts will not be repeating the analysis of the general causation experts,
but rather relying on them to rule in glyphosate.
B.
The next question is whether the experts adequately assessed all of the potential causes of the plaintiffs’ NHL, and properly ruled out factors other than
glyphosate, while at the same time declining to rule out
glyphosate itself.
The biggest concern, which affects all three plaintiffs, is how the experts account for idiopathy—that is,
the possibility that a plaintiff’s NHL is attributable to an
unknown cause. Imagine 100 people who develop NHL
after using Roundup. Imagine further that they had no
other significant risk factors for NHL. Assuming for ar-

83a
gument’s sake that the plaintiffs’ general causation opinions are correct, glyphosate was a substantial factor in
causing NHL for some of those 100 people. But the experts cannot automatically assume that glyphosate
caused all 100 people’s NHL. For some, the cause of
their NHL may not be determinable with the degree of
certainty necessary to prevail in court (perhaps because
their exposure to glyphosate was just too low, or perhaps for some other reason). The question for any particular plaintiff, then, is whether there is evidence from
which a jury could conclude by a preponderance of the
evidence that the plaintiff falls into the category of people whose NHL was caused by glyphosate. To assist the
jury in making this assessment, an expert must have a
way to differentiate Roundup users who developed
NHL because they used the product from Roundup users who would have developed NHL regardless.
One way for an expert to do this is to point to a biomarker or genetic signature associated with a particular risk factor. See, e.g., Henricksen v. ConocoPhillips
Co., 605 F. Supp. 2d 1142, 1162 (E.D. Wash. 2009). But
as the plaintiffs themselves note, that is not possible
here, nor is there any evidence suggesting that NHL
presents differently when caused by exposure to
glyphosate. Under a strict interpretation of Daubert,
perhaps that would be the end of the line for the plaintiffs and their experts (at least without much stronger
epidemiological evidence). But in the Ninth Circuit,
that is clearly not the case. See Wendell, 858 F.3d at
1233-37; see also Messick v. Novartis Pharm. Corp., 747
F.3d 1193, 1198-99 (9th Cir. 2014). Recognizing that
“[m]edicine partakes of art as well as science,” the
Ninth Circuit’s recent decisions reflect a view that district courts should typically admit specific causation
opinions that lean strongly toward the “art” side of the

84a
spectrum. Messick, 747 F.3d at 1198; see also Wendell,
858 F.3d at 1237 (“The first several victims of a new
toxic tort should not be barred from having their day in
court simply because the medical literature, which will
eventually show the connection between the victims’
condition and the toxic substance, has not yet been
completed.” (quoting Clausen, 339 F.3d at 1060)).
While the specific holdings of Wendell and Messick are
in some ways distinguishable, particularly with respect
to the rarity and specificity of the involved conditions,
the opinions are impossible to read without concluding
that district courts in the Ninth Circuit must be more
tolerant of borderline expert opinions than in other circuits. Compare In re Lipitor Mktg., Sales Practices
and Prods. Liab. Litig., 892 F.3d 624, 644-45 (4th Cir.
2018); Tamraz, 620 F.3d at 677-78. Of course, district
judges still must exercise their discretion, but in doing
so they must account for the fact that a wider range of
expert opinions (arguably much wider) will be admissible in this circuit.
Under Ninth Circuit caselaw, doctors enjoy wide
latitude in how they practice their art when offering
causation opinions. See Wendell, 858 F.3d at 1237
(“Where, as here, two doctors who stand at or near the
top of their field and have extensive clinical experience
with the rare disease or class of disease at issue, are
prepared to give expert opinions supporting causation,
we conclude that Daubert poses no bar based on their
principles and methodology.”). It is sufficient for a
qualified expert, in reliance on his clinical experience,
review of a plaintiffs’ medical records, and evaluation of
the general causation evidence, to conclude that an
“obvious and known risk factor[]” is the cause of that
plaintiff’s disease. See Wendell, 858 F.3d at 1235. Here,
the specific causation experts did that. Relying on the

85a
plaintiffs’ admissible general causation opinions—which
assert a robust connection between glyphosate and
NHL—the experts concluded that glyphosate was a
substantial factor in causing the plaintiffs’ NHL.
Moreover, the experts relied heavily on the plaintiffs’ exposure levels in drawing their conclusions. All
three experts noted the plaintiffs’ extensive Roundup
usage, and further explained—as did the plaintiffs' general causation opinions—that both the McDuffie (2001)
and Eriksson (2008) studies showed a dose-response relationship between glyphosate and NHL. See generally
In re Roundup Products Liability Litigation, 2018 WL
3368534, at *9-10. Thus, consistent with Ninth Circuit
caselaw, the experts provided a basis for their conclusion
that these plaintiffs fall into the category of Roundup
users who developed NHL. The Court may be skeptical
of their conclusions, and in particular of the assumption
built into their opinions from the general causation
phase about the strength of the epidemiological evidence. But their core opinions—that the plaintiffs had
no other significant risk factors and were exposed to
enough glyphosate to conclude that it was a substantial
factor in causing their NHL—are admissible.4
4

There is another significant risk factor for Mr. Hardeman:
hepatitis C. The experts explained that while active hepatitis C is a
known risk factor for NHL, it was highly unlikely that Mr. Hardeman’s development of NHL was attributable to his past hepatitis C
infection almost a decade after he had a sustained virologic response—meaning the hepatitis C virus was no longer detected in his
blood. While the experts could certainly have explored the hepatitis
C issue with more rigor, including by providing a more comprehensive discussion of the possible mechanisms by which hepatitis C
causes cancer and how it differs from pesticides in that respect, they
had significant support in the scientific literature for their conclusion. Monsanto can certainly challenge their interpretation of the
literature, but their underlying methodology was sound.

86a
II.
During cross-examination at the Daubert hearings,
Monsanto asked the plaintiffs’ specific causation experts
several hypothetical questions. These questions typically did not go directly to whether there was a sound basis for concluding that one of the plaintiffs’ NHL was
caused by glyphosate, but rather to whether the expert
would maintain his conclusion if the plaintiffs’ exposure
was far less severe. In other words, returning to the
previously-mentioned scenario of 100 NHL patients
with glyphosate exposure but no other risk factors, how,
precisely, would they draw the line between those
whose NHL was caused by glyphosate and those whose
NHL is idiopathic? The primary response of the plaintiffs’ experts—which, as discussed above, falls within
the range of admissible expert testimony—was that,
however they draw the line, the exposure for these
three plaintiffs was so significant that their NHL should
not be considered idiopathic. When further pressed,
however, these experts sometimes crossed into the
realm of junk science. These aspects of their opinions
will be excluded, unless of course Monsanto chooses to
use them as impeachment material. See Happel v.
Walmart Stores, Inc., 602 F.3d 820, 825-26 (7th Cir.
2010) (holding that it was not an abuse of discretion for
the district court to exclude a portion of expert testimony that it deemed unreliable); Smith v. Ford Motor Co.,
215 F.3d 713, 721 n.3 (7th Cir. 2000); cf. Fortune Dynamic, Inc. v. Victoria’s Secret Stores Brand Mgmt.,
Inc., 618 F.3d 1025, 1040-41 (9th Cir. 2010). To the extent the other witnesses intend to offer the same opinions, they are precluded from doing so as well.
First, Dr. Nabhan may not testify that the
McDuffie and Eriksson studies stand for the proposition that if someone uses Roundup more than two days

87a
per year or more than ten days in their lifetime, their
risk of developing NHL doubles. See Feb. 4, 2018 Tr.
[Nabhan] 251:06-20 [Dkt. No. 2672]. Because those
studies did not adjust for the use of other pesticides,
that statement is inaccurate, misleading, and untethered to any sound scientific method. See In re Roundup Products Liability Litigation, 2018 WL 3368534, at
*26.5 Relatedly, Drs. Nabhan and Shustov may not tes5

A doubling of the risk is significant under California law because it shows a 50% chance that a specific factor was the cause of
an individual’s disease. See Cooper v. Takeda Pharm. Am., Inc.,
239 Cal. App. 4th 555, 593-94 (2015); see also Daubert v. Merrell
Dow Pharm., Inc. (“Daubert II”), 43 F.3d 1311, 1321-22 (9th Cir.
1995). Accordingly, when a study shows a relative risk greater
than 2.0, it can be used, on its own, “to prove that the product at
issue was more likely than not responsible for causing a particular
person’s disease.” Cooper, 239 Cal. App. 4th at 593. But California
law does not categorically require a study showing a doubling of
the risk before an expert can opine, based on the totality of the
evidence, that a risk factor caused a plaintiff’s disease. Cf. Daubert II, 43 F.3d at 1322 (noting that an expert can testify “either
that [a product] actually caused plaintiffs’ injuries” or that the
product “more than doubled the likelihood of” those injuries) (emphasis added).
Although the parties speak of this issue in terms of Daubert,
it is perhaps better understood as a question of the sufficiency of
the evidence. As in any case, a plaintiff might be able to prove
their case using one strong piece of evidence. Or they might be
able to prove their case using multiple pieces of evidence, none of
which could, on its own, satisfy the burden of proof. While a study
showing a risk factor greater than 2.0 might itself be enough to
submit a case to the jury (assuming the study is scientifically
sound), there is no bright-line rule in California law requiring such
evidence for a case involving medical causation to survive summary judgment. Cf. Restatement (Third) of Torts: Liability for
Physical and Emotional Harm § 28 cmt. c(4) (2010) (“[A]ny judicial
requirement that plaintiffs must show a threshold increase in risk
or a doubling in incidence in a group study in order to satisfy the
burden of proof of specific causation is usually inappropriate. So

88a
tify that glyphosate is a substantial causative factor for
anyone who exceeds two days per year or ten lifetime
days of Roundup use, because that conclusion is again
based on unadjusted data. See Feb. 4, 2018 Tr.
[Nabhan] 253:13-254:05; 260:03-261:10 [Dkt. No. 2672];
Jan. 28, 2018 Tr. [Shustov] 213:21-214:02 [Dkt. No.
2635]. While they may rely on the general causation
opinions to testify that the risk of NHL increases as
exposure increases, it is not scientifically sound to
quantify that risk and assign it to a particular plaintiff
using the unadjusted numbers from McDuffie and
Eriksson.
Nor may Dr. Weisenburger testify that Mr. Hardeman’s risk of developing NHL more than doubled because he used Roundup far more than the threshold of
ten lifetime days set by the Eriksson and McDuffie
studies. Even putting aside the problems with unadjusted data, those studies simply do not support Dr.
Weisenburger’s assertion. Eriksson found an unadjusted odds ratio of 2.36 for those exposed to glyphosate for more than 10 lifetime days; McDuffie found an
unadjusted odds ratio of 2.12 for those exposed to
glyphosate for more than 2 days per year. Because neither study further delineated the subjects’ level of exposure, those results do not show that someone who
well exceeds the exposure threshold would necessarily
have a higher odds ratio—as Dr. Weisenburger eventually acknowledged at the Daubert hearing in response to questions from the Court.

long as there is adequate evidence of general causation, courts
should permit the parties to attempt to show,” using different
types of evidence, “whether the plaintiff’s disease was more likely
than not caused by the agent.”).

89a
Finally, Dr. Nabhan may not suggest that the risks
posed by glyphosate are similar to those posed by
smoking, nor may he invoke the uncertainty from decades ago on the dangers of smoking to argue that it will
eventually become obvious that glyphosate causes
NHL. See Feb. 4, 2018 Tr. [Nabhan] 261:17-262:12
[Dkt. No. 2672]. This comparison is highly speculative,
and, given its limited probative value, inadmissible under both Rules 403 and 702. See Daubert v. Merrell
Dow Pharm., Inc., 509 U.S. 579, 590 (1993); Pretrial
Order No. 81, Ruling on Monsanto’s Motion in Limine
No. 4.1 [Dkt. No. 2275].
III.
There are several other Daubert motions pending
before the Court. The plaintiffs’ motion to exclude portions of the opinions offered by Monsanto’s specific causation experts is largely granted in accordance with the
Court’s motions in limine order. See Pretrial Order No.
81, Ruling on Plaintiffs’ Motion in Limine 2 [Dkt. No.
2275]. At the summary judgment hearing, the parties
jointly concluded that neither Dr. Sullivan, Monsanto’s
exposure expert, nor Dr. Sawyer, Mr. Hardeman’s exposure expert, would testify during Phase 1 of Mr.
Hardeman’s trial. The Court will address challenges to
the Phase 2 experts, including any challenges to Drs.
Sawyer and Sullivan, prior to the start of Phase 2.
IT IS SO ORDERED.
Date: February 24, 2019

[handwritten signature]
Honorable Vince Chhabria
United States District Court

91a
APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
MDL No. 2741
Case No. 16-md-02741-VC
IN RE: ROUNDUP PRODUCTS LIABILITY LITIGATION
This document relates to: ALL ACTIONS
Re: Dkt. Nos. 545, 647
Filed July 10, 2018
PRETRIAL ORDER NO. 45: SUMMARY
JUDGMENT AND DAUBERT MOTIONS
The question at this early phase in the proceedings—the “general causation” phase—is whether a reasonable jury could conclude that glyphosate, a commonly used herbicide, can cause Non-Hodgkin’s Lymphoma
(“NHL”) at exposure levels people realistically may
have experienced. If the answer is yes, the case moves
to the next phase, which addresses whether each particular plaintiff’s NHL was caused by glyphosate. If
the answer is no, none of the plaintiffs’ cases may proceed. And the answer must be no unless the plaintiffs
can present at least one reliable expert opinion in support of their position.
There are two significant problems with the plaintiffs’ presentation, which combine to make this a very
close question. First, the plaintiffs (along with some of
their experts) rely heavily on the decision by the International Agency for Research on Cancer (“IARC”) to
classify glyphosate as “probably carcinogenic to hu-

92a
mans.” This classification is not as helpful to the plaintiffs as it might initially seem. To render a verdict for a
plaintiff in a civil trial, a jury must conclude, applying
the “preponderance of the evidence” standard, that the
plaintiff’s NHL was more likely than not caused by exposure to glyphosate. And at this general causation
phase, the question is whether a reasonable jury could
conclude by a preponderance of the evidence that
glyphosate can cause NHL at exposure levels people
realistically could have experienced. The IARC inquiry
is different in kind—it is a public health assessment,
not a civil trial. Public health assessments generally
involve two steps: (1) an effort to identify hazards; and
(2) an evaluation of the risk that the hazard poses at
particular exposure levels. The first step essentially
asks whether a substance is cause for concern, while
the second step asks how concerned we should be. As
IARC takes pains to point out, its decision that a substance is “probably carcinogenic to humans” is a hazard
assessment—merely the first step in determining
whether the substance currently presents a meaningful
risk to human health. IARC leaves the second step—
risk assessment—to other public health entities. Moreover, even with its hazard assessment, IARC makes
clear that although it uses the word “probably,” it does
not intend for that word to have any quantitative significance. Therefore, the public health inquiry does not
map nicely onto the inquiry required by civil litigation.
And the hazard assessment IARC undertakes is too
limited and too abstract to fully serve the plaintiffs’
purposes here. A substance could be cause for concern,
such that it can and should trigger preventive public
health measures and further study, even when it is not
so clearly dangerous as to allow a verdict in favor of a
plaintiff.

93a
The second problem with the plaintiffs’ presentation is that the evidence of a causal link between
glyphosate exposure and NHL in the human population
seems rather weak. Some epidemiological studies suggest that glyphosate exposure is slightly or moderately
associated with increased odds of developing NHL.
Other studies, including the largest and most recent,
suggest there is no link at all. All the studies leave certain questions unanswered, and every study has its
flaws. The evidence, viewed in its totality, seems too
equivocal to support any firm conclusion that glyphosate causes NHL. This calls into question the credibility of some of the plaintiffs’ experts, who have confidently identified a causal link.
However, the question at this phase is not whether
the plaintiffs’ experts are right. The question is whether they have offered opinions that would be admissible
at a jury trial. And the case law—particularly Ninth
Circuit case law—emphasizes that a trial judge should
not exclude an expert opinion merely because he thinks
it’s shaky, or because he thinks the jury will have cause
to question the expert’s credibility. So long as an opinion is premised on reliable scientific principles, it should
not be excluded by the trial judge; instead the weaknesses in an unpersuasive expert opinion can be exposed at trial, through cross-examination or testimony
by opposing experts.
The three expert opinions most helpful to the plaintiffs at this phase in the proceedings were offered by
Dr. Christopher Portier, Dr. Beate Ritz, and Dr. Dennis Weisenburger. A jury may well reject these opinions at trial, finding the opinions too results-driven or
concluding that the evidence behind those opinions is
too weak. But applying the standard set forth in the
case law for admission of expert testimony, the Court

94a
cannot go so far as to say these experts have served up
the kind of junk science that requires exclusion from
trial. And the testimony of these three experts is directly on topic, because they (in contrast to some other
experts) went beyond the inquiry conducted by IARC,
offering independent and relatively comprehensive
opinions that the epidemiological and other evidence
demonstrates glyphosate causes NHL in some people
who are exposed to it. Accordingly, their opinions are
admissible, which means the plaintiffs have presented
enough evidence to defeat Monsanto’s summary judgment motion. These proceedings thus move on to the
next phase, which will involve an attempt by individual
plaintiffs to present enough evidence to warrant a jury
trial on whether glyphosate caused the NHL they developed. Given how close the question is at the general
causation phase, the plaintiffs appear to face a daunting
challenge at the next phase. But it is a challenge they
are entitled to undertake.
This ruling is organized as follows: Section I provides background information relevant to these lawsuits. Section II describes the legal standard that applies to the admissibility of expert testimony, and explains why the IARC classification is insufficient to get
the plaintiffs over the general causation hurdle. Section III provides an overview of the important epidemiological studies, highlighting the strengths and
weaknesses of those studies and explaining why Monsanto’s criticisms of the studies more helpful to the
plaintiffs are not fatal to the plaintiffs’ case. Section IV
introduces the evidence addressing the carcinogenic
effects of glyphosate on rodents. Section V briefly discusses evidence on the effects of glyphosate at the cellular level. Section VI examines each of the plaintiffs’
experts’ opinions, and analyzes whether those opinions

95a
synthesize all this evidence reliably enough to be admissible at trial. Finally, Section VII addresses the
plaintiffs’ motion to exclude some of Monsanto’s experts.
I.

BACKGROUND

Glyphosate is the active ingredient in Roundup, an
herbicide manufactured by Monsanto. Roundup became commercially available in 1974, and glyphosatebased herbicides are now widely used across the United States and much of the world, on large-scale farms
and in backyards. The U.S. Environmental Protection
Agency does not currently consider glyphosate likely to
cause cancer.1
In 2015, IARC, which is the specialized cancer
agency of the World Health Organization, convened a
“working group” to assess whether several pesticides,
including glyphosate, can cause cancer. Since 1971,
IARC has regularly convened working groups to evaluate whether chemicals or other environmental factors
are capable of causing cancer in humans. These working groups compile “Monographs” that examine the
available scientific evidence and then come to conclusions about the carcinogenic potential of these different
agents. The working group examining glyphosate concluded that the pesticide is “probably carcinogenic to
humans,” a designation whose meaning will be discussed later in this ruling.2

1

See U.S. Environmental Protection Agency Office of Pesticide
Programs, Revised Glyphosate Issue Paper: Evaluation of Carcinogenic Potential 12-13, 143-44 (Dec. 12, 2017) [Daubert Ex. 873].
2

IARC, Some Organophosphate Insecticides and Herbicides:
Volume 112, at 398 (2015) [Daubert Ex. 1030] (“Monograph”).

96a
IARC’s designation addressed cancer in general,
but the working group’s report paid particular attention to human studies concerning a particular cancer,
NHL, in reaching its conclusion. NHL is a cancer that
affects lymphocytes, a type of white blood cell that is
part of the immune system. Farmers have long had an
elevated risk of NHL, even before glyphosate went on
the market.3
After IARC classified glyphosate as a probable carcinogen, a wave of lawsuits followed. These lawsuits,
which now number in the hundreds, were dispersed
among state and federal courts across the country, but
the claims against Monsanto raised similar issues. In particular, a central question in all these cases is whether
Monsanto’s glyphosate-based herbicides can cause NHL.
The Judicial Panel on Multidistrict Litigation, a
panel of judges empowered to coordinate proceedings
in federal cases where doing so “will be for the convenience of parties and witnesses and will promote the just
and efficient conduct” of the cases, determined that coordination in these cases was warranted. 28 U.S.C.
§ 1407(a). The Panel therefore created this Multidistrict Litigation to centralize management of all the federal cases, and assigned to this Court all pretrial proceedings in the Multidistrict Litigation. As is common
in such proceedings, the Court appointed a group of
plaintiffs’ counsel to serve as leaders and to represent
all the plaintiffs’ interests. Dkt. No. 62. Many additional cases have since been transferred to this district
as part of the Multidistrict Litigation, and more than
400 cases are now pending.
3

See Kenneth P. Cantor et al., Pesticides and Other Agricultural Risk Factors for Non-Hodgkin’s Lymphoma Among Men in
Iowa and Minnesota, 52 Cancer Research 2447, 2448 (1992).

97a
The Court decided to bifurcate the pretrial proceedings. Dkt. No. 25. The motions at issue here arise
during the first phase, which addresses “general causation.” As noted, the question at the general causation
phase is whether glyphosate is capable of causing NHL
at exposure levels humans might have experienced.
The second phase will involve, among other things, the
issue of “specific causation.” The specific causation inquiry focuses on whether individual plaintiffs’ exposure
to glyphosate-based herbicides caused the NHL they
developed.
II. THE DAUBERT STANDARD AND
THE GENERAL CAUSATION INQUIRY
To carry their burden during this phase of the litigation, the plaintiffs must put forward admissible evidence supporting their claim that glyphosate is capable
of causing NHL at exposure levels humans might have
experienced. If the plaintiffs cannot provide admissible
evidence supporting this proposition—and enough admissible evidence to allow a reasonable jury to find in
favor of the plaintiffs on this question—Monsanto is entitled to summary judgment in all the cases. See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249-50
(1986).
The evidence at issue here is expert witness testimony. The plaintiffs have retained six experts they
contend will provide opinions that satisfy the plaintiffs’
burden at the general causation phase. These experts
are: Dr. Beate Ritz, Dr. Christopher Portier, Dr. Alfred Neugut, Dr. Charles Jameson, Dr. Dennis Weisenburger, and Dr. Chadhi Nabhan. Broadly speaking,
each of these experts reviewed the available scientific
evidence and concluded that glyphosate is capable of
causing NHL in humans. Monsanto has moved to ex-

98a
clude the plaintiffs’ experts and has put forward seven
retained experts of its own, each of whom provides a
contrary view of the science. Before ruling on these
motions, the Court held seven days of hearings to assess the testimony of many of these experts. Pursuant
to the Cameras in the Courtroom pilot project, these
hearings were video recorded. The recordings are publicly available on the U.S. Courts website.4
A. Legal Standard
Experts may not automatically testify before a jury. First, the district court must act as a “gatekeeper”
and screen the experts’ testimony under the standards
set by the Federal Rules of Evidence and the Supreme
Court’s decision in Daubert v. Merrell Dow Pharmaceuticals, Inc. (Daubert I), 509 U.S. 579 (1993). Federal
Rule of Evidence 702, which governs this inquiry, provides that expert opinion testimony is admissible if: (1)
the witness is qualified to testify about the topics she
intends to address; (2) the expert’s specialized
knowledge will help the jury “to understand the evidence or to determine a fact in issue”; (3) “the testimony is based on sufficient facts or data”; (4) “the testimony is the product of reliable principles and methods”;
and (5) “the expert has reliably applied the principles
and methods to the facts of the case.” The burden is on
the plaintiffs to establish the admissibility of their experts’ testimony. See Building Industry Association of
Washington v. Washington State Building Code Council, 683 F.3d 1144, 1154 (9th Cir. 2012).

4

In re Roundup Products Liability Litigation, U.S. Courts,
http://www.uscourts.gov/cameras-courts/re-roundup-products-liabil
ity-litigation [https://perma.cc/YHJ8-Y7YP].

99a
To be qualified, the expert must have sufficient
“knowledge, skill, experience, training, or education” to
offer the opinion. Fed. R. Evid. 702. So long as the expert’s testimony is “within the reasonable confines of
his subject area,” a lack of particularized expertise generally goes to the weight of the testimony, not its admissibility. D.F. ex rel. Amador v. Sikorsky Aircraft
Corp., No. cv-00331-GPC-KSC, 2017 WL 4922814, at
*14 (S.D. Cal. Oct. 30, 2017) (quoting Avila v. Willits
Environmental Remediation Trust, 633 F.3d 828, 839
(9th Cir. 2011) and citing United States v. Garcia, 7
F.3d 885, 889-90 (9th Cir. 1993)); see also Hopkins v.
Dow Corning Corp., 33 F.3d 1116, 1124 (9th Cir. 1994).
Aside from the qualification requirement, there are
two questions at the heart of the admissibility determination: whether the testimony is relevant and whether
it is reliable. See City of Pomona v. SQM North America Corp., 750 F.3d 1036, 1043 (9th Cir. 2014). “Expert
opinion testimony is relevant if the knowledge underlying it has a valid connection to the pertinent inquiry.”
Id. at 1044 (citation omitted). In other words, the expert testimony must “fit” the question the jury must
answer. Daubert v. Merrell Dow Pharmaceuticals, Inc.
(Daubert II), 43 F.3d 1311, 1321 n.17 (9th Cir. 1995).
This bar is cleared where the evidence “logically advances a material aspect of the proposing party’s case.”
Messick v. Novartis Pharmaceuticals Corp., 747 F.3d
1193, 1196 (9th Cir. 2014) (citation omitted).
Expert evidence “is reliable if the knowledge underlying it has a reliable basis in the knowledge and
experience of the relevant discipline.” City of Pomona,
750 F.3d at 1044 (citation omitted). In deciding whether to permit an expert to testify, courts face the difficult task of “determin[ing] whether the analysis undergirding the experts’ testimony falls within the range of

100a
accepted standards governing how scientists conduct
their research and reach their conclusions.” Daubert
II, 43 F.3d at 1317. Among the factors courts consider
in making this determination are (1) whether the expert’s theory or method is generally accepted in the
scientific community; (2) whether the expert’s methodology can be or has been tested; (3) the known or potential error rate of the technique; and (4) whether the
method has been subjected to peer review and publication. Id. at 1316 (citing Daubert I, 509 U.S. at 593-94).
Courts should also consider whether the expert’s testimony springs from research independent of the litigation. Id. at 1317. If not, the expert should point to other evidence that the testimony has a reliable basis, like
peer-reviewed studies or a reputable source showing
that the expert “followed the scientific method, as it is
practiced by (at least) a recognized minority of scientists in their field.” Id. at 1317-19. These factors are
not a mandatory or inflexible checklist, and the Court
has broad discretion to determine which factors are
most informative in assessing reliability in the context
of a given case. See Kumho Tire Co., Ltd. v. Carmichael, 526 U.S. 137, 141-42 (1999); United States v.
Alatorre, 222 F.3d 1098, 1102 (9th Cir. 2000).
The focus of the reliability inquiry is on the principles and methodology an expert uses in forming her
opinions rather than the expert’s conclusions. But in
conducting the reliability analysis, the Court must also
consider whether, for a given conclusion, “there is
simply too great an analytical gap between the data and
the opinion proffered.” General Electric Co. v. Joiner,
522 U.S. 136, 146 (1997). In short, both unsound methods and unjustified extrapolations from existing data
can require the Court to exclude an expert.

101a
The Ninth Circuit has placed great emphasis on
Daubert’s admonition that a district court should conduct this analysis “with a ‘liberal thrust’ favoring admission.” Messick, 747 F.3d at 1196 (quoting Daubert I,
509 U.S. at 588). Accordingly, the Ninth Circuit has
emphasized that the gatekeeping function is meant to
“screen the jury from unreliable nonsense opinions, but
not to exclude opinions merely because they are impeachable.” Alaska Rent-A-Car, Inc. v. Avis Budget
Group, Inc., 738 F.3d 960, 969 (9th Cir. 2013). That is
because “[v]igorous cross-examination, presentation of
contrary evidence, and careful instruction on the burden of proof are the traditional and appropriate means
of attacking shaky but admissible evidence.” Daubert
I, 509 U.S. at 596; see, e.g., Murray v. Southern Route
Maritime SA, 870 F.3d 915, 925 (9th Cir. 2017); Wendell
v. GlaxoSmithKline LLC, 858 F.3d 1227, 1237 (9th Cir.
2017). This emphasis has resulted in slightly more
room for deference to experts in close cases than might
be appropriate in some other Circuits. Compare Wendell, 858 F.3d at 1233-38, and City of Pomona, 750 F.3d
at 1043-49, with In re Zoloft (Sertraline Hydrochloride)
Products Liability Litigation, 858 F.3d 787, 800 (3d Cir.
2017), and McClain v. Metabolife International, Inc.,
401 F.3d 1233, 1244-45 (11th Cir. 2005). This is a difference that could matter in close cases.
B. The Relevance of the IARC Classification
Although much of this ruling concerns itself with
the reliability prong of the Daubert analysis, relevance
is also important here. It’s not sufficient for the plaintiffs to present evidence that glyphosate could cause
NHL if humans were exposed to glyphosate at the
kinds of massive doses, administered in the kinds of
ways, that laboratory animals alone have experienced.
A “general causation” phase that focused on this ques-

102a
tion would be a waste of time—it would be too far afield
from the ultimate question whether any of the plaintiffs
in these cases got NHL from glyphosate. That is why,
to defeat Monsanto’s summary judgment motion on the
issue of general causation, it is not enough for the plaintiffs merely to present evidence that glyphosate is capable of causing cancer in the abstract.
By the same token, however, the inquiry at the
general causation phase is not whether glyphosate gave
NHL to any of the particular plaintiffs who brought
these lawsuits, and the plaintiffs need not establish any
particular level of exposure. It’s enough in this litigation, at this stage, for the plaintiffs to show that
glyphosate can cause NHL when people are exposed to
the highest dose people might plausibly experience.
See In re Hanford Nuclear Reservation Litigation, 292
F.3d 1124, 1133 (9th Cir. 2002). Picture, for instance, a
professional gardener who has applied Roundup without using protective equipment several times per week,
many hours per day, for decades.
The distinction between glyphosate’s capacity to
cause NHL at any hypothetical dose and its capacity to
cause NHL at a human-relevant dose is important here,
in light of the plaintiffs’ heavy reliance on IARC’s classification of glyphosate. Throughout much of this case,
the plaintiffs seem to have operated under the assumption that they can clear the general causation hurdle
simply by showing that IARC’s decision to designate
glyphosate a probable human carcinogen is scientifically sound. Accordingly, they have put forward some expert opinions that largely parrot IARC’s analysis and
conclusions. But whether glyphosate is “probably carcinogenic to humans” as IARC defines that phrase is
not what’s directly at issue here.

103a
IARC engages in a standardized inquiry that it describes in detail in the Preamble to the Monograph addressing glyphosate. In short, IARC seeks to identify
cancer hazards. The organization explains the “important” distinction between hazard identification and
risk assessment, stating that “[a] cancer ‘hazard’ is an
agent that is capable of causing cancer under some circumstances, while a cancer ‘risk’ is an estimate of the
carcinogenic effects expected from exposure to a cancer
hazard.” Monograph at 10. As a result, the Monograph
explains, the IARC classification process is only the
“first step in carcinogen risk assessment,” because the
Monographs “identify cancer hazards even when risks
are very low at current exposure levels, because new
uses or unforeseen exposures could engender risks that
are significantly higher.” Id. Putting this definition
into practice, Dr. Portier (one of the plaintiffs’ experts)
wrote a letter urging the EPA to “declare glyphosate a
probable human carcinogen and go on to do a risk assessment to determine if human exposure is sufficient
to warrant concern.” Expert Report of Dr. Portier,
App. Doc. 2 at 4, Wagstaff Decl. ISO Pls.’ Opp’n to
Def.’s Mot. for Summ. J. & Daubert Mot. (“Pls.’ Opp’n”)
Ex. 5 [Dkt. No. 648-5 at 151].
To make its hazard assessment, an IARC working
group looks first at studies in humans and then at studies in animals and at other available data, including
studies on the mechanisms by which a particular agent
affects organisms at the cellular level. The working
group determines, “using standard terms,” the
strength of the evidence for carcinogenicity in both
humans and animals. Monograph at 27. Here, IARC
concluded that there is “limited” evidence in humans
that glyphosate causes cancer, meaning that “[a] positive association has been observed between exposure to

104a
the agent and cancer for which a causal interpretation
is considered … to be credible, but chance, bias or confounding could not be ruled out with reasonable confidence.” Id. at 27, 398. IARC further concluded there
was “sufficient” evidence of carcinogenicity in experimental animals, that is, that “a causal relationship has
been established between [glyphosate] and an increased incidence of malignant neoplasms or of an appropriate combination of benign and malignant neoplasms” in animal studies. Id. at 28, 398.5 The label
IARC settled upon for glyphosate, “probably carcinogenic to humans,” automatically follows from these
evaluations. A substance is deemed a probable carcinogen, also known as a “Group 2A” agent, where IARC
concludes the evidence in humans is limited and evidence in animals is sufficient. Id. at 30.6 A Group 2A
classification can also be made when the working group
concludes there is “inadequate” evidence—that is, not
even limited evidence—that the agent causes cancer in
humans but sufficient evidence that it does so in animals, where there is also strong evidence that it causes
cancer in animals by a mechanism that operates in humans. Id. For comparison, a “Group 2B” classification
of “possibly carcinogenic to humans” usually follows
where the working group concludes there is “limited
evidence of carcinogenicity in humans” and “less than
sufficient evidence of carcinogenicity in experimental
animals,” or alternatively, where there is “inadequate
5
6

Neoplasms are tumors. Id. at 10.

IARC also notes that, “[e]xceptionally, an agent may be
classified in this category solely on the basis of limited evidence of
carcinogenicity in humans,” if the agent clearly belongs, based on
mechanistic evidence, to a class of agents some of which already
have been classified as carcinogenic or probably carcinogenic to
humans. Id.

105a
evidence of carcinogenicity in humans” but “sufficient
evidence of carcinogenicity in experimental animals.”
Id.7
All this is to say that IARC conducts its inquiry at
a higher level of generality than what the Court must
do here. Although IARC’s assessment is not entirely
divorced from real-world exposure levels, IARC sorts
agents into different categories based on a fairly rigid
formula that seeks to identify whether an agent is capable of causing cancer “under some circumstances.”
Id. at 10. Here, although there is no need to specify
precisely the circumstances under which each plaintiff
was exposed to glyphosate, only evidence supporting
the conclusion that glyphosate causes NHL in doses
within the realistic realm of actual human exposure can
get the plaintiffs past summary judgment. It’s worth
acknowledging that, even at the end of this ruling, precisely what the range of actual human exposure is will
remain vague, a product of bifurcated proceedings
where the hundreds of individual plaintiffs’ experiences
remain on the periphery for now. But it’s enough at
this point to say that IARC’s hazard assessment considers the evidence for a different purpose, and without
the attention to the effects of current human exposure
the Court must pay here. Moreover, it is not enough
for the evidence in this case to go merely to the causal
relationship between glyphosate and cancer in general;
it must go to the relationship between glyphosate and
7

Group 2B classification can also in some instances follow
where there is “inadequate evidence of carcinogenicity in humans
and less than sufficient evidence of carcinogenicity in experimental
animals together with supporting evidence from mechanistic and
other relevant data.” Id. “[S]trong evidence from mechanistic and
other relevant data” can also support classification in this category. Id.

106a
NHL in particular. Perhaps most importantly, the
question in a court case at this stage is whether a reasonable jury could conclude by a preponderance of the
evidence that glyphosate can cause NHL at humanrelevant doses—that is, whether a jury could conclude
it is “more likely than not” that glyphosate can cause
NHL in the human population. IARC’s use of the word
“probably” has “no quantitative significance.” Id. The
inquiry in this case therefore fits neatly into neither the
hazard identification nor the risk assessment boxes as
IARC defines them.
As a result, expert opinions that simply parrot
IARC’s analysis and conclusions are somewhat off topic
and are unduly limited, rendering them insufficient to
satisfy the plaintiffs’ burden at the general causation
phase. A “hazard assessment,” as IARC and other public health bodies define that inquiry, is not what the jury needs to conduct when deciding whether glyphosate
actually causes NHL in people at past or current exposure levels. An expert who recites IARC’s conclusions
and analysis therefore may be offering a sound scientific opinion, but not an opinion that speaks squarely to
the issue the jury must decide. And in addition to the
fact that such opinions are not enough to get the plaintiffs past the general causation hurdle, there is a significant possibility that, if there ever is a jury trial (that is,
if any plaintiff can get past summary judgment on the
issue of specific causation), expert opinions that go no
further than IARC’s analysis will be excluded. An expert opinion of this sort may not “fit” the general causation inquiry closely enough to be helpful to the jury in
the way Rule 702 requires; it may serve primarily to
confuse the jury, causing the trial to devolve into an abstract discussion about the differences between what
public health organizations do and what juries do. In

107a
any event, for current purposes, the point is that to the
extent the plaintiffs have offered opinions from experts
who merely reiterate the IARC analysis, those opinions
do not allow the plaintiffs to avoid summary judgment.
Beyond that, the relevance and admissibility of these
opinions at any eventual trial can be addressed as these
cases develop.
III. EPIDEMIOLOGY
Epidemiology is “the field of public health and medicine that studies the incidence, distribution, and etiology of disease in human populations.”8 As the parties
acknowledge, epidemiology is central to the general
causation inquiry, and where such evidence exists, it
must be addressed by the experts. See Norris v. Baxter Healthcare Corp., 397 F.3d 878, 882 (10th Cir. 2005);
Def.’s Daubert & Summ. J. Mot. 10 [Dkt. No. 545]
(“Def.’s Mot.”); Pls.’ Opp’n 19-20 [Dkt. No. 647]; cf.
Milward v. Acuity Specialty Products Group, Inc., 639
F.3d 11, 24 (1st Cir. 2011). None of the plaintiffs’ experts base their opinions exclusively on the epidemiology research, but all discuss it to varying degrees.
A. The Bradford Hill Criteria
Epidemiology studies examine whether an association exists between an agent like glyphosate and an
outcome like NHL. Whether that agent causes the
outcome, however, cannot be proven by epidemiological
studies alone; an evaluation of causation requires epidemiologists to exercise judgment about the import of
those studies and to consider them in context. Once epidemiologists have concluded from the studies that
8

Michael D. Green et al., Reference Guide on Epidemiology,
in Reference Manual on Scientific Evidence 551, 551 (3d ed. 2011)
(“Reference Manual”).

108a
there is an association between an agent and an outcome, they often assess causation through a framework
called the “Bradford Hill criteria.” These criteria are
named for Sir Austin Bradford Hill, who wrote a 1965
article that articulated nine “viewpoints” now generally
accepted to be relevant to assessing causation. Broadly, these factors are: (1) the strength of the association;
(2) consistency; (3) specificity; (4) temporality; (5) biological gradient or dose response; (6) biological plausibility; (7) coherence with other scientific knowledge; (8)
experimental evidence; and (9) analogy.9 Both parties’
experts considered these criteria, which are introduced
here to frame the discussion that follows, and they will
be explained in more detail in Section VI.
B. Case-Control Studies and Meta-Analyses
The first step in assessing causation is determining
whether an association exists between exposure to
glyphosate and NHL. In concluding that studies have
shown such an association, the plaintiffs’ experts emphasize case-control studies. A case-control study is
one of two primary types of observational epidemiological studies. This kind of study starts with a group of
people who have the disease of interest (the “cases”),
selects a similar population of people without the disease (the “controls”), and then compares the groups on
the basis of past exposure to the chemical the investigators are studying. In contrast, a cohort study, the
other primary type of observational epidemiological
study, selects a study population without the disease of
interest, sorts that population into exposed and unex9

Austin Bradford Hill, The Environment and Disease: Association or Causation?, 58 Proceedings of the Royal Society of
Medicine 295 (1965), Wagstaff Decl. ISO Pls.’ Opp’n Ex. 47 [Dkt.
No. 649-17] (“Bradford Hill”).

109a
posed groups, and then measures the incidence of disease in the exposed and unexposed groups after observing them for a period of time. Frequently touted
benefits of case-control studies are their comparatively
low cost and ability to identify associations relevant to
rare diseases. See, e.g., Reference Manual at 556-60;
Expert Report of Dr. Mucci 12, Hollingsworth Decl.
ISO Def.’s Mot. Ex. 18 [Dkt. No. 546-18] (“Mucci Report”); Expert Report of Dr. Ritz 13, Wagstaff Decl.
ISO Pls.’ Opp’n Ex. 3 [Dkt. No. 648-3] (“Ritz Report”).
Case-control studies report an odds ratio as the
measure of association between the variables the investigators are studying. “In a case-control study, the
odds ratio is the ratio of the odds that a case (one with
the disease) was exposed to the odds that a control (one
without the disease) was exposed.” Reference Manual
at 568. An odds ratio greater than 1.0 indicates an association, as it suggests those with the disease are more
likely to have been exposed to the substance of interest.
Odds ratios are typically reported with confidence
intervals that seek to capture the likely effects of random error. A 95% confidence interval, the standard interval, is a range that would capture the actual odds
ratio 95% of the time if the study were conducted repeatedly. Generally, larger sample sizes produce narrower confidence intervals. When the lower bound of
the 95% confidence interval exceeds 1.0, the results of
the study are considered to show an association that is
“statistically significant” at the .05 level. Id. at 580-81.
The purpose of assessing statistical significance is to
determine how likely it is that an observed odds ratio is
merely due to chance, rather than indicative of a true
association. The line delineating what constitutes a statistically significant result is necessarily somewhat arbitrary, and the experts dispute how much weight to

110a
give studies reporting odds ratios above 1.0 that are
not statistically significant at the .05 level. Although
there may be a causal association even in the absence of
statistically significant results, statistical significance
remains a useful metric for determining whether the
results of a given study likely show a real association.
In re Zoloft, 858 F.3d at 793.
When assessing whether an epidemiological study
can form a reliable basis for an expert’s opinion, a court
must determine whether the study adequately considered confounding variables and possible sources of bias.
In re Abilify (Aripiprazole) Products Liability Litigation, 299 F. Supp. 3d 1291, 1322-23 (N.D. Fla. 2018).
Confounding arises where a factor not accounted for by
the study wholly or partially explains an apparent association between the agent under study and the outcome. A factor is a confounder where it is independently related to both the exposure and the disease of interest. Failure to control for true confounding variables
can skew the results of a study, producing an observed
association where none exists or an observed association that is stronger or weaker than the actual association.10 Reliable epidemiological studies should account
for confounders where they are identified, although
“failure to control for every conceivable potential confounder does not necessarily render the results of an
epidemiological study unreliable.” In re Abilify, 299 F.
Supp. 3d at 1322. One way to account for confounders
is through study design; for instance, matching controls
to cases by age would ameliorate concerns about confounding resulting from the age of study participants.
Confounders can also be addressed during data analy10

See Kenneth J. Rothman et al., Modern Epidemiology 12934 (3d ed. 2008) (“Rothman”).

111a
sis, using methods like stratification or multivariable
analysis, so long as information about potential confounders was obtained during the study. See Reference
Manual at 591-97. One important possible source of
confounding in the studies relevant here is exposure to
other pesticides.
Bias occurs where the results of a study are subject
to systematic—in other words, non-random—error.
Study design, data collection, and data analysis can all
give rise to bias. Id. at 583. Most relevant in this case
is the possibility of information bias resulting from inaccurate information about study participants’ exposure to glyphosate. One type of information bias, recall
bias, occurs where people with a disease (the “cases” in
a case-control study) are differently able to recall past
exposures than are people who never get sick; generally, the assumption is that the cases will recall greater
levels of exposure, as those who become ill are more
likely to ruminate about the possible causes of their
disease. See id. at 585-86.
Concerns about recall bias and about study accuracy
more generally may be heightened where studies rely on
proxy respondents. Proxy respondents or surrogates,
often spouses or next of kin, are used when the study
participants themselves are not available, typically because they have died or are too ill to participate. Proxy
respondents are generally considered less reliable than
the study participants themselves. Mucci Report 20-21.
With this background in mind, the following is an
overview of the some of the most important and frequently discussed case-control studies.
One key publication is a pooled analysis of three
separate case-control studies conducted by the National Cancer Institute in the Midwestern United States

112a
between 1979 and 1986. In a pooled analysis, the study
authors combine the raw, participant-level data from
earlier studies and then analyze these data as one combined dataset. See Ritz Report 6; Mucci Report 25.
Pooling allows for uniform analysis of the data in the
underlying studies and increases the statistical power
of the earlier, smaller studies. The experts identify this
study as “De Roos (2003),” by the lead author’s last
name and its year of publication.11
De Roos (2003) aggregated the data from the three
studies and analyzed the effects of 47 different pesticides on the incidence of NHL. Id. at 1. The authors
sought to isolate the effect of each pesticide by controlling for the use of all 46 other pesticides, in addition to
age and study site, in their models assessing association. Id. at 2. The authors reported results using both
a more conventional logistic regression model and a
more conservative hierarchical regression model that
took into account values estimating the prior distributions of the other pesticides. Id. Using the logistic regression model, the odds ratio for those exposed to
glyphosate was 2.1, with a 95% confidence interval of
1.1 to 4.0.12 Using the hierarchical regression model,
the odds ratio was 1.6 (0.9, 2.8), no longer a statistically
significant result. Id. at 5. Thirty-six of the cases and
61 of the controls in this analysis were exposed to
glyphosate. Id. The study authors considered proxy
responses. Id. at 4.
11

A.J. De Roos et al., Integrative Assessment of Multiple
Pesticides as Risk Factors for Non-Hodgkin’s Lymphoma Among
Men, 60 Occupational & Environmental Medicine 1 (2003), Wagstaff Decl. ISO Pls.’ Opp’n Ex. 55 [Dkt. No. 652-9].
12

Going forward, the 95% confidence interval will be reported
in the following format: odds ratio (lower bound, upper bound).

113a
Another study discussed at length by the experts
focused on a population-based case-control study in
Canada.
They refer to this study as “McDuffie
13
(2001).”
NHL diagnoses in this study occurred between 1991 and 1994, and 51 cases and 133 controls
were exposed to glyphosate. Id. at 1158. Proxy respondents were not used. Id. at 1156. This study reported an overall odds ratio for glyphosate of 1.2 (0.83,
1.74). This estimate was adjusted for medical variables
associated with NHL outcomes (like a positive family
history of cancer or past cancer), age, and province of
residence, but not for use of other pesticides. Id. at
1158. The study also sought to capture an estimate of
NHL risk that reflected frequency of exposure to
glyphosate. It reported that when glyphosate was used
between zero and two days per year, the odds ratio was
1.00 (0.63, 1.57). When glyphosate was used more than
two days per year, the odds ratio was 2.12 (1.20, 3.73).
These estimates likewise appear not to have been adjusted for use of other pesticides. Id. at 1161.
The North American Pooled Project (“NAPP”) aggregated the data from the three case-control studies
included in De Roos (2003) and the Canadian data from
McDuffie (2001). The results of this pooled analysis
have not been published in a peer-reviewed journal, but
the parties highlighted results presented in an abstract
and two slide decks prepared for conferences. The
more recent analysis is presented in a slide deck for an
August 2015 presentation, although this slide deck, like
the other NAPP materials, does not detail the methods
13

Helen H. McDuffie et al., Non-Hodgkin’s Lymphoma and
Specific Pesticide Exposures in Men: Cross-Canada Study of Pesticides and Health, 10 Cancer Epidemiology, Biomarkers & Prevention 1155 (2001), Wagstaff Decl. ISO Pls.’ Opp’n Ex. 60 [Dkt.
No. 652-14].

114a
used by the study authors.14 These slides presented an
overall odds ratio for glyphosate use of 1.13 (0.84, 1.51),
when adjusted for use of three other pesticides and
several other potential confounders. Id. at 10. When
proxy respondents were removed from the data, the
odds ratio dropped to 0.95 (0.69, 1.32). Id. at 26. The
odds ratios reported for subjects who reported using
glyphosate for seven lifetime days or fewer were lower
than those who reported use for more than seven days,
but none of these odds ratios were statistically significant. For subjects who reported using glyphosate for
less than or equal to two days per year, without proxy
respondents, the odds ratio was 0.66 (0.39, 1.12), and
with proxy respondents it was 0.74 (0.46, 1.19). The
greater-than-two-days-per-year odds ratio without
proxy respondents was 1.77 (0.99, 3.17), and when
proxy respondents were included, the result was 1.73
(1.02, 2.94). Id. Monsanto argues that the NAPP
study, although still unpublished, should supersede the
earlier De Roos (2003) and McDuffie (2001) studies, as
it is a more recent and complete analysis.
A further publication, “Eriksson (2008),” addresses
the results of a Swedish population-based case-control
study, with NHL cases collected between 1999 and
2002.15 There were 29 glyphosate-exposed cases and 18
controls included in this study. Id. at 1659. Proxy respondents were not used. Id. at 1660. The authors ana14

Manisha Pahwa et al., An Evaluation of Glyphosate Use
and the Risk of Non-Hodgkin Lymphoma Major Histological SubTypes in the North American Pooled Project (Aug. 31, 2015)
[Daubert Ex. 1278].
15

Mikael Eriksson et al., Pesticide Exposure as Risk Factor
for Non-Hodgkin Lymphoma Including Histopathological Subgroup Analysis, 123 International Journal of Cancer 1657 (2008),
Wagstaff Decl. ISO Pls.’ Opp’n Ex. 54 [Dkt. No. 652-8].

115a
lyzed the data using a multivariate model controlling
for six other pesticides, age, sex, and year of diagnosis
or enrollment, and reported a non-statistically significant odds ratio of 1.51 (0.77, 2.94) for glyphosate. Id. at
1661. This study also reported a more detailed set of
numbers unadjusted for use of other pesticides. The
overall odds ratio for glyphosate was 2.02 (1.10, 3.71).
Breaking this down, the unadjusted results showed statistically significant associations for glyphosate and
NHL for those who were exposed to glyphosate for
greater than ten days—2.36 (1.04, 5.37), versus 1.69
(0.70, 4.07) for those exposed for less than ten days. Id.
at 1659. For those who developed cancer more than ten
years after exposure to glyphosate, the odds ratio was
2.26 (1.16, 4.40), compared to 1.11 (0.24, 5.08) for those
who developed cancer less than ten years after exposure. Id. at 1658-59. One possible cause for concern in
this study is the authors’ choice of the control group for
the univariate analysis, that is, the analysis not adjusted for use of other pesticides. See Mar. 5, 2018 Tr.
[Ritz] 34-35 [Dkt. No. 1172]; Mucci Report 53. The authors used as the control group for this part of the
analysis people who were not exposed to any of the
pesticides included in the study. Eriksson (2008) at
1658.16

16

Dr. Ritz sought to offer an opinion that, had the study authors used a more appropriate comparison group, the results
would not have changed materially. See Apr. 4, 2018 Tr. [Ritz] 2227 [Dkt. No. 1352]; see also Def.’s Apr. 9, 2018 Supp. Br. 5 [Dkt.
No. 1354] (objecting to this opinion). In light of her own tentativeness about her adjustment and the absence of any detailed explanation of her method in her reports or her live testimony, Dr.
Ritz’s opinion regarding how the Eriksson results would change
after altering the control group is not admissible.

116a
The plaintiffs also emphasize meta-analyses of the
available epidemiological studies. Meta-analysis combines the results of several studies, giving them different weights that take into account, for instance, the size
of the study population. Reference Manual at 607. Unlike a pooled analysis, which uses the underlying raw
data, meta-analysis uses the reported summary statistics from the earlier studies. See Ritz Report 6; Mucci
Report 24. The value of a meta-analysis, like the value
of a pooled analysis, depends upon the quality of the
underlying studies, and meta-analyses can be uninformative when the studies included in the analysis are
very different from one another. Although these metaanalyses take into account one cohort study, which will
be discussed shortly, they are introduced here since the
bulk of the included studies are case-control studies.
Three meta-analyses of the data on glyphosate and
NHL have been discussed during these proceedings.
The first was published in 2014 by Schinasi and Leon,
but this analysis did not use the odds ratios from some
of the underlying studies that were most fully adjusted
for confounders.17 The IARC working group updated
Schinasi and Leon’s meta-analysis to use the more fully
adjusted numbers and reported a meta-risk-ratio of 1.3
(1.03, 1.65). Monograph at 350.18 A later published me17

Leah Schinasi & Maria E. Leon, Non-Hodgkin Lymphoma
and Occupational Exposure to Agricultural Pesticide Chemical
Groups and Active Ingredients: A Systematic Review and MetaAnalysis, 11 International Journal of Environmental Research &
Public Health 4449 (2014), Wagstaff Decl. ISO Pls.’ Opp’n Ex. 67
[Dkt. No. 653-7] (“Schinasi & Leon (2014)”).
18

The risk ratio or relative risk, which is used to assess
whether an association exists in cohort studies, is the ratio of the
risk of disease among people exposed to those who are unexposed.
For relatively rare diseases, the odds ratio approximates the rela-

117a
ta-analysis, by Chang and Delzell in 2016, likewise took
into account the most fully adjusted results from the
earlier studies, and reported a meta-risk-ratio of 1.3
(1.0, 1.6).19 Chang & Delzell (2016) also conducted sensitivity analyses that swapped out the hierarchical regression in De Roos (2003) for the logistic regression
and replaced McDuffie (2001) with a 2011 analysis of
the Canadian data. See id. at 416. The results for the
four models they tested were very similar, all falling
between 1.3 (1.0, 1.6) and 1.4 (1.0, 1.8). Id.
Monsanto and its experts raise concerns about basing a causation assessment on the case-control studies
and meta-analyses. For instance, Monsanto’s epidemiology experts highlighted concerns about recall bias.
Mucci Report 36; Expert Report of Dr. Rider 3, Wagstaff Decl. ISO Pls.’ Opp’n Ex. 116 [Dkt. No. 656-11]
(“Rider Report”). The plaintiffs’ experts acknowledged
that recall bias is a potential concern in case-control
studies, but disputed that it is a major issue here. Ritz
Report 7-8; Revised Expert Report of Dr. Portier 7, 18,
Hollingsworth Decl. ISO Def.’s Mot. Ex. 8 [Dkt. No.
546-8] (“Portier Report”). The plaintiffs’ experts explained that, at the time the cases were assessed, the
participants had no reason to suspect that glyphosate
exposure could cause cancer, and therefore they were
unlikely to have over-reported their exposure. Apr. 4,
2018 Tr. [Ritz] 51-53. To demonstrate that participants
tive risk and, as with an odds ratio, a number above 1.0 indicates
an association between the exposure and the disease. Reference
Manual at 625, 627.
19

Ellen T. Chang & Elizabeth Delzell, Systematic Review and
Meta-Analysis of Glyphosate Exposure and Risk of Lymphohematopoietic Cancers, 51 Journal of Environmental Science &
Health 402 (2016), Wagstaff Decl. ISO Pls.’ Opp’n Ex. 68 [Dkt. No.
653-8] (“Chang & Delzell (2016)”).

118a
didn’t generally over-report glyphosate use when these
studies were conducted, they pointed out that epidemiology studies on the whole observed associations only
between glyphosate and NHL, and not between
glyphosate and the other cancers about which participants were asked. If participants were predisposed to
think that glyphosate caused cancer and exhibited recall bias as a result, they explained, one would expect to
see associations reported for glyphosate and other cancers. Id. at 50-51; see also Mar. 5, 2018 Tr. [Weisenburger] 192-93 [Dkt. No. 1172]; March 9, 2018 Tr. [Mucci] 945-46 [Dkt. No. 1186]. The plaintiffs’ experts also
pointed to studies that sought to validate self-reports of
pesticide exposure and that found similar recall accuracy between cases and controls. Ritz Report 19; Portier
Report 8, 11; Mar. 5, 2018 Tr. [Weisenburger] 182-83.
Ultimately, in response to these points, one of Monsanto’s epidemiology experts conceded at the Daubert
hearing that she was “not quite as worried about recall
bias in the context of this body of literature,” except in
the McDuffie (2001) study. Mar. 9, 2018 Tr. [Mucci] 946.
On the whole, concerns about recall bias in these studies do not demand that a reliable expert opinion meaningfully discount the body of case-control studies when
assessing causation.
Monsanto’s experts also attacked the plaintiffs’ experts’ reliance on case-control studies they contend reflect inadequate latency periods, that is, periods between exposure and diagnosis. See Mucci Report 7, 3640, 49, 69; Rider Report 32-33, 35, 38-39, 45-46. Specifically, Monsanto pointed to the case-control studies conducted in Kansas and Iowa/Minnesota, which are included in the pooled analyses reported in De Roos
(2003) and the NAPP. The Kansas cases were identified between 1979 and 1981 and the Iowa/Minnesota

119a
cases between 1980 and 1983. De Roos (2003) at 1-2.
Monsanto and its experts argued that these studies focused on people diagnosed with NHL too soon after
glyphosate was put on the market in 1974 to capture
cases caused by glyphosate, as cancer typically takes
many years to develop. The plaintiffs’ experts recognized that inadequate latency periods could be cause for
concern, and at least implicitly acknowledge that latency could be an issue with the studies that generated
many of the numbers that are most helpful to the plaintiffs. See Ritz Report 17 (“Although a short latency period does not completely exclude the possibility of exposure-disease relationships in cancer, a longer latency
period increases confidence in results due to increased
biological plausibility[,] i.e.[,] typically we would generally expect a 5-10 year minimum latency between exposure and disease onset for blood system related cancers.”); id. at 18-19 (acknowledging that the Iowa/Minnesota study had what “is considered an inadequate latency period”); Mar. 6, 2018 Tr. [Weisenburger]
267-70 [Dkt. No. 1175]; Portier Report 5 (“Because the
latency period for cancers can be long (years), evaluation of studies should consider whether the exposure
occurred sufficiently long ago to be associated with
cancer development.”); Apr. 6, 2018 Tr. [Portier] 142,
148-53 [Dkt. No. 1353].
Although the latency concern is legitimate, three of
the plaintiffs’ experts, Drs. Ritz, Portier, and Weisenburger, explained that this concern was mitigated to a
degree by steps taken by some study authors. One reason a study might show an association between glyphosate and NHL shortly after glyphosate was put on the
market is confounding; if one of the pesticides that was
frequently used before glyphosate came on the market
causes NHL, those who later switched to glyphosate

120a
might simply be manifesting the NHL triggered by
those other pesticides. However, in some of the studies, the authors adjusted for other pesticides. The
plaintiffs’ experts explained that, although it is always
possible that an observed association is the result of
confounding for which the authors did not account, the
adjustment for many other pesticides used by De Roos
(2003), in particular, made it significantly less likely
that a pesticide other than glyphosate explained the
observed association. If the studies accounted for likely
confounders, they explained, there is little reason to
discount the studies, notwithstanding the relatively
short latency periods they captured. See Mar. 6, 2018
Tr. [Weisenburger] 282-83; Apr. 4, 2018 Tr. [Ritz] 1518, 30-31; Apr. 6, 2018 Tr. [Portier] 149-53.
The plaintiffs’ experts also sought to downplay the
latency concern in other ways. Dr. Ritz asserted that,
in a case-control study, an association observed after a
short latency period might be something of an alarm
bell, as those cases might reflect outcomes in people
who experienced heavy exposures or who developed
particularly aggressive cancers. Apr. 4, 2018 Tr. [Ritz]
9-11. As a result, Dr. Ritz argued, one might expect to
see an even stronger association had the studies allowed for longer latency periods. Id.; see also Apr. 6,
2018 Tr. [Portier] 154. Dr. Ritz also hypothesized that
quicker onset of NHL in case-control studies might reflect the older average age of case-control study participants versus participants enrolled in the cohort study
discussed below.20
20

For the most part, Dr. Ritz introduced her views on latency
in her original expert report and discussed them at her deposition.
See Wagstaff Decl. ISO Pls.’ Opp’n Ex. 58 [Dkt. No. 652-12] (discussing latency in the context of the De Roos (2003) study). To the

121a
Overall, the latency concern raised by Monsanto is
a legitimate one that makes a causal account of the
American case-control studies, in particular, more difficult to swallow. But, at least for the studies that adjust
for other pesticide exposures, the relatively short period between glyphosate exposure and cancer development is not a concern so significant as to disqualify an
expert who gives significant weight to the case-control
studies in rendering a causation opinion.
Monsanto also argues that reliance on some of the
case-control studies is inappropriate because they did
not adequately account for the important possible confounder of exposure to other pesticides. Some glyphosate users, like farmers and landscapers, are likely exposed to many pesticides, and these other pesticides
may also be associated with elevated incidences of
NHL. As discussed, the case-control studies adjusted
for possible confounders to different degrees, and when
study authors provided both unadjusted and adjusted
numbers, the odds ratios adjusted for use of other pesticides were closer to 1.0, and often not statistically significant. See, e.g., Eriksson (2008) at 1659, 1661. The
possibility of confounding arising from exposure to othextent she strayed into new territory regarding latency in the epidemiological studies during the second round of Daubert hearings—as is arguably the case with her opinion that the older average age of participants in case-control studies might have some
explanatory power—the Court is persuaded that exclusion is not
warranted, as Dr. Ritz’s testimony was responsive to the Court’s
questions, and Monsanto will have an adequate opportunity between now and trial to refine its cross-examination on this point.
But see id. at 187-89 (discussing the relationship between age and
latency generally). The Court reaches the same conclusion regarding Dr. Portier’s illustration of the different latency concerns associated with case-control and cohort studies. See Apr. 6, 2018 Tr.
[Portier] 34-40.

122a
er pesticides is a serious consideration and one that
must be accounted for in a reliable expert report assessing the epidemiology evidence.
C. Cohort Study
Instead of the case-control studies, Monsanto’s experts focus on the results of the Agricultural Health
Study (AHS), a cohort study. Recall that cohort studies, unlike case-control studies, select participants
without the disease of interest and follow them for a
period of time to see what diseases develop in the exposed and unexposed cohorts. Advantages of such
studies include that they can conclusively establish the
temporal relationship between exposure to a chemical
and a disease, and that they avoid the possibility of recall bias by selecting participants before they develop
the disease. See Reference Manual at 557-58; Supplemental Expert Report of Dr. Ritz 3, Wagstaff Decl.
ISO Pls.’ Supp. Br. Ex. 7 [Dkt. No. 1136-7] (“Ritz Supp.
Report”). The AHS is a cohort study of more than
57,000 licensed pesticide applicators from Iowa and
North Carolina.21 The study participants were first
surveyed between 1993 and 1997, and were at that time
asked about their use of 50 pesticides, including glyphosate. Id. at 2. Participants were asked not only about
years of use and days of use per year, but also about
other features of their pesticide application that could
affect the intensity of their exposure, including use of
personal protective equipment and application method.
Id. Sixty-three percent of the participants completed a
follow-up telephone interview approximately five years
21

Gabriella Andreotti et al., Glyphosate Use and Cancer Incidence in the Agricultural Health Study, 110 Journal of the National Cancer Institute 1 (2018), Wagstaff Decl. ISO Pls.’ Supp. Br.
Ex. 1 at 1-2 [Dkt. No. 1136-1] (“Andreotti (2018)”).

123a
later. Id. That survey asked about the participants’
pesticide use during the most recent year in which they
farmed. Id. Cancer outcomes for members of the cohort were determined through cancer registries. Id.
When the initial round of expert reports in this
case was prepared, the most recent published study
addressing the relationship between glyphosate and
NHL as observed in the AHS was a 2005 study, whose
lead author was again De Roos.22 The De Roos (2005)
study was published before data from the follow-up
surveys were analyzed. It reported no statistically significant association between glyphosate use and NHL,
considering 92 total observed cases of NHL—a fully
adjusted odds ratio of 1.1 (0.7-1.9) for ever having used
glyphosate, with no evidence of higher rates of disease
with more days of exposure. Id. at 51-52. The metaanalyses mentioned previously—Schinasi & Leon
(2014), Chang & Delzell (2016), and IARC’s metaanalysis—incorporated this study.23

22

See Anneclaire J. De Roos et al., Cancer Incidence Among
Glyphosate-Exposed Pesticide Applicators in the Agricultural
Health Study, 113 Environmental Health Perspectives 49 (2005),
Wagstaff Decl. ISO Pls.’ Opp’n Ex. 72 [Dkt. No. 653-12] (“De Roos
(2005)”).
23

Several of the experts discussed an unpublished reanalysis
of the AHS data during the first round of expert reports, “Alvanja
(2013).” Chang and Delzell, authors of the 2016 meta-analysis,
prepared an unpublished “technical memorandum” revisiting their
meta-analysis, replacing the AHS (2005) data with data from Alvanja (2013) and incorporating the unpublished NAPP data into
their sensitivity analyses. Wagstaff Decl. ISO Pls.’ Opp’n Ex. 56
[Dkt. No. 652-10]. Data from these unpublished studies were provided by Monsanto. The primary meta-risk ratio reported in this
memorandum for ever having used glyphosate was 1.2 (0.91-1.6).
Id. at 5.

124a
A few months before the Daubert hearing, an update of the De Roos (2005) study was published in the
Journal of the National Cancer Institute. This update,
which is known as “Andreotti (2018),” included data
gathered using the follow-up telephone interviews and
considered 575 individuals who developed NHL. Andreotti (2018) at 5. Like the 2005 study, Andreotti
(2018) reported no association between glyphosate use
and NHL. Id. at 4-5. The study broke the cohort into
quartiles based on how intensively the study participants had used glyphosate, using a formula that included number of days of use, lifetime years of use, use of
protective equipment, and other factors to determine
the “intensity-weighted lifetime days of use” for each
participant. The results ranged from rate ratios of 0.83
(0.59, 1.18) for the lowest quartile, to 0.88 (0.65, 1.19) for
the third-highest quartile. Id. The study also reported
results that took into account different possible latency
periods, and these results likewise showed no statistically significant association. Id. at 6. At the Court’s
request, the parties submitted supplemental briefs addressing the import of this newly-published study.
Dkt. No. 761. All of the plaintiffs’ experts submitted
supplemental reports addressing the study, and Monsanto’s epidemiology experts did the same.
The plaintiffs’ experts identified concerns with this
study. First among these is the risk of exposure misclassification. Dr. Ritz highlighted potential problems
with both the way pesticide exposure was assessed
during the initial survey and the way the follow-up survey was conducted. See Ritz Supp. Report 2-7. Inaccurate exposure assessments were likely during the initial survey, she argued, because the initial data were
obtained from people applying for pesticide applicator
licenses who were asked on the spot to recall their use

125a
of many pesticides over the past several decades. They
did not have an opportunity to check their records or
otherwise verify their answers. Id. at 2-3.
Dr. Ritz also highlighted problems with the questionnaire’s inquiry about the use of personal protective
equipment, noting that the survey asked only about the
use of protective equipment generally, not about the
use of such equipment when applying glyphosate. Because the intensity-weighted results for each pesticide
relied on the same generic response regarding protective gear, participants were likely classified into incorrect exposure groups. Mar. 5, 2018 Tr. [Ritz] 72-76.
For example, if a farmer had in mind the protective
gear he used for his most toxic pesticides when he answered the question, even if he used no protective gear
when applying glyphosate, he would be placed in a lower exposure group for the intensity-weighted analysis
of glyphosate. Another consideration noted by Dr. Ritz
is that, because study participants were in the process
of applying for their pesticide applicator licenses, they
may have felt an incentive to portray themselves in
their responses as using protective gear properly even
if they did not actually do so. Id. at 74-75.
The plaintiffs’ experts also contend there is a particular risk of misclassification where glyphosate is concerned (compared to other pesticides studied in the
AHS), because use patterns changed so dramatically in
the mid-1990s. Ritz Supp. Report 5. Glyphosate use
greatly increased during that period with the introduction of glyphosate-resistant genetically engineered
crops. Dr. Ritz elaborated on this concern at some
length, arguing that the change in glyphosate use patterns was not adequately captured by the follow-up
study for two main reasons. First, the follow-up survey
asked only about pesticide use during the last year of

126a
farming prior to the interview, rather than asking
about all the intervening years. Id. at 6. Second, the
study authors imputed the exposures of the approximately thirty-seven percent of participants who did not
respond to the follow-up survey using a mathematical
model. That imputation, the plaintiffs’ experts argued,
is also susceptible to error. Id. at 6-7; Supplemental
Expert Report of Dr. Portier 2-4, Wagstaff Decl. ISO
Pls.’ Supp. Br. Ex. 22 [Dkt. No. 1136-22] (“Portier
Supp. Report”).24 They highlighted a published paper
evaluating the AHS imputation method that reported
the model underestimated glyphosate exposure when
tested against a sample of those who had responded to
the survey.25 According to Dr. Portier, use of this im24

During his second round of Daubert testimony, Dr. Portier
presented a series of hypothetical examples seeking to explain the
risk of exposure misclassification associated with the imputation
method in the most recent AHS study. Apr. 6, 2018 Tr. [Portier]
51-57. These examples were not included in his supplemental expert report. However, Dr. Portier explained in his supplemental
report that the imputation method could have resulted in differential exposure misclassification and pointed to the 2012 study from
which he obtained the numbers he used in his Daubert presentation. Portier Supp. Report 3. Under ordinary pretrial circumstances, it would be a closer question whether to exclude these
new hypotheticals; there would be an argument that Monsanto
lacked sufficient time to prepare to address them before the jury
trial. However, in the context of these MDL proceedings, the
Court concludes they need not be excluded. Cf. In re Seroquel
Products Liability Litigation, No. 6:06-md-1769-Orl-22DAB, 2009
WL 3806435, at *13 (M.D. Fla. June 23, 2009). For one, Monsanto
will have adequate time to prepare further cross-examination relevant to these charts between now and the next phase of the proceedings. For another, although the charts themselves reflected
additional analysis, that analysis elaborated on Dr. Portier’s previously disclosed opinions.
25

See Apr. 6, 2018 Tr. [Portier] 49-50, 56-57; Sonya L. Heltshe
et al., Using Multiple Imputation To Assign Pesticide Use for

127a
putation method likely resulted in differential exposure
misclassification. Apr. 6, 2018 Tr. [Portier] 49-50, 56-57.
Moreover, Dr. Portier contended, the differences in the
total percentage of people exposed could have masked a
misclassification of much larger magnitude, had the imputation model also misclassified some of the exposed
people as unexposed. Apr. 6, 2018 Tr. [Portier] 53-56.
In addition, the model assumed that non-response to
the follow-up survey was random, leaving open the possibility that non-responders were meaningfully different from those who responded to the survey. See
Heltshe (2012) at 8.
Monsanto’s experts mounted a strong defense of
this study, pointing out that it considered by far the
largest number of NHL cases across a broad range of
exposures and for the longest period of time. Supplemental Expert Report of Dr. Mucci 6, Hollingsworth
Decl. ISO Def.’s Supp. Br. Ex. 7 [Dkt. No. 1137-8]
(“Mucci Supp. Report”); Supplemental Expert Report
of Dr. Rider 6, 9, Hollingsworth Decl. ISO Def.’s Supp.
Br. Ex. 8 [Dkt. No. 1137-9] (“Rider Supp. Report”). In
addition, Monsanto argues, the results are appropriately controlled for confounding by lifestyle factors and
other pesticides. Mucci Supp. Report 7. To rebut the
critiques of the plaintiffs’ experts, Monsanto’s experts
highlighted the sensitivity analyses used by the study
authors, as well as the efforts taken to validate the imputation method used to estimate the missing responsNon-Responders in the Follow-Up Questionnaire in the Agricultural Health Study, 22 Journal of Exposure Science & Environmental Epidemiology 1, 11, 18 (2012), Wagstaff Decl. ISO Pls.’
Supp. Br. Ex. 31 [Dkt. No. 1136-31] (“Heltshe (2012)”) (showing an
observed prevalence of glyphosate exposure of 52.73%, compared
to an imputed prevalence of 45.42% in a holdout dataset used to
test the accuracy of the model).

128a
es and to demonstrate that selection bias with respect
to those who completed the follow-up interview was not
a serious concern. Id. at 3-7; Rider Supp. Report 4, 10;
Mar. 9, 2018 Tr. [Mucci] 905-09. In short, Monsanto’s
experts reasonably consider the most recent AHS publication to be the most powerful evidence regarding the
relationship between glyphosate and NHL. Because
this study shows no association, Monsanto argues,
there is no basis for finding a causal relationship.
*

*

*

The upshot of all this is that the epidemiology evidence is open to different interpretations, and the potential flaws in the data from the case-control studies
and meta-analyses are not overwhelmingly greater
than the potential flaws in the data from the AHS
study. An expert operating “within the range of accepted standards governing how scientists conduct
their research and reach their conclusions” could thus
place less weight on the AHS study, and could conclude
that the analyses of the case-control studies support an
association between glyphosate exposure and NHL,
even if this is not necessarily the best interpretation of
the evidence. Daubert II, 43 F.3d at 1317. As a result,
an expert who places more weight on the case-control
studies than the AHS study cannot be excluded as categorically unreliable for doing so.
IV. LABORATORY ANIMAL CANCER STUDIES
In addition to the epidemiological evidence, the
plaintiffs seek to support their general causation arguments with opinions addressing studies of cancer in rodents.
Monsanto objects to the plaintiffs’ experts’ reliance
on these studies to support their causation opinions, ar-

129a
guing that any opinions based upon these data fail the
relevance or “fit” requirement of the Daubert inquiry.
In effect, Monsanto argues that for opinions addressing
this evidence to be admissible, the plaintiffs must show
that it is appropriate to extrapolate directly from increased incidences of particular rodent tumors to an
increased incidence of NHL in humans at humanrelevant exposure levels. That is not necessary. It’s
true that, where animal studies provide the best available evidence of causation, the experts seeking to rely
upon such evidence must explain why the results in animals are relevant to humans. See Domingo ex rel.
Domingo v. T.K., 289 F.3d 600, 606 (9th Cir. 2002); In re
Silicone Gel Breast Implants Products Liability Litigation, 318 F. Supp. 2d 879, 891 (C.D. Cal. 2004) (“Animal studies are not generally admissible where contrary epidemiological evidence in humans exists.”). But
the parties don’t face that scenario here.
It is sufficient for purposes of the Rule 702 relevance inquiry that the evidence “logically advance[] a
material aspect of the proposing party’s case.” Daubert
II, 43 F.3d at 1315. Demonstrating that a chemical is
carcinogenic in rodents would logically advance the
plaintiffs’ argument that glyphosate is capable of causing NHL in humans, because it is pertinent to, at least,
the biological plausibility criterion that is part of the
Bradford Hill analysis. See, e.g., Mar. 7, 2018 Tr.
[Jameson] 429 (“This is a premise that is generally accepted in the scientific community, that if an agent
causes a[] cancer in animals, that it’s biologically plausible to be a human carcinogen.”) [Dkt. No. 1181]. Rodent cancer studies are routinely conducted to learn
information that is useful in assessing whether sub-

130a
stances cause cancer in humans.26 So, while the rodent
studies would not be sufficient on their own to satisfy
the plaintiffs’ burden (at least in this case), the rodent
studies nevertheless “speak[] clearly and directly to an
issue in dispute in the case,” and they will not mislead
the jury when properly contextualized. Daubert II, 43
F.3d at 1321 n.17.
For these reasons, although IARC’s overall conclusion that glyphosate is a “probable human carcinogen” is
not squarely relevant to the general causation question
in this case, IARC’s narrower conclusion about carcinogenicity in lab animals is quite relevant. If there is sufficient evidence that glyphosate causes cancer in animals,
as IARC concluded, that would support the plaintiffs’
case. And IARC’s analysis itself suggests that such a
conclusion is within the mainstream of scientific views
regarding how to interpret the available animal cancer
studies. See Reference Manual at 564 n.46.
As with the epidemiological studies, the parties’
experts generally agree about which underlying animal
studies are worthy of close consideration. The studies
at issue are cancer bioassays that assess the development of tumors (both benign and malignant) in rodent
subjects after chronic exposure to different doses of
glyphosate over most of their lifetimes. See, e.g., id. at
640-41, 644-45; Expert Report of Dr. Rosol 3, Wagstaff
Decl. ISO Pls.’ Opp’n Ex. 97 [Dkt. No. 655-7 at 124]
(“Rosol Report”); Expert Report of Dr. Jameson 19,
Wagstaff Decl ISO Pls.’ Opp’n Ex. 6 [Dkt. No. 648-6]
26

See Bernard D. Goldstein & Mary Sue Henifin, Reference
Guide on Toxicology, in Reference Manual on Scientific Evidence
633, 637 (3d ed. 2011) (“[T]he toxic responses in laboratory animals
are useful predictors of toxic responses in humans.”); see also In re
Silicone Gel Breast Implants Products Liability Litigation, 318 F.
Supp. 2d at 890.

131a
(“Jameson Report”). Included in these studies is a control group subject to the same conditions—regarding
food, light exposure, or exercise, for example—as the
experimental group in every respect except for exposure to the chemical of interest. See Reference Manual
at 640. The rodents in these long-term studies are typically exposed to doses that are significantly higher, relative to body mass, than what humans realistically
would experience, as the goal is to maximize the studies’ ability to detect the chemical’s capacity to cause
cancer. Id. at 644-45.
In contrast to the epidemiology studies, much of the
data on experimental animals were not presented in
studies published in peer reviewed journals. Instead,
the data tend to come from studies submitted by manufacturers to regulatory agencies. To the extent the data
underlying these studies are public, the data are generally considered by IARC, and they were considered by
the experts in this case. See Monograph at 12; Apr. 6,
2018 Tr. [Portier] 186. One source of much of the data
for the experts here was a supplement to a review article published in 2015, which included tumor incidence
tables from many of the regulatory submissions.27
As with the epidemiology, the experts also broadly
agreed on the method to be employed in evaluating animal toxicology studies. They conducted literature reviews and assessed study quality, excluding those studies about which inadequate information was available
27

Helmut Greim et al., Evaluation of Carcinogenic Potential
of the Herbicide Glyphosate, Drawing on Tumor Incidence Data
from Fourteen Chronic/Carcinogenicity Rodent Studies, 45 Critical Reviews in Toxicology 185, 185 (2015) (“Greim (2015)”). Although IARC reviewed Greim (2015), it was unable to evaluate in
detail several of the studies considered by the experts here. Mar.
7, 2018 Tr. [Jameson] 455-56; Monograph at 354.

132a
or that had serious methodological problems. Although
there is some disagreement at the margins, the experts
focused primarily on seven rat studies and five mouse
studies. See Jameson Report 28-29; Portier Report 50;
Rosol Report 9-19; Expert Report of Dr. Foster 13-25,
Wagstaff Decl. ISO Pls.’ Opp’n Ex. 37 [Dkt. No. 649-7]
(“Foster Report”). Then, broadly speaking—although
the details differ—the experts assessed the tumors that
arose in the studies for statistical and biological significance. Relevant to the first aspect of this analysis is
both whether there was a statistically significant increase in tumor development in a particular dose group,
as compared to the control group, and whether the
numbers of tumors that developed in the treated
groups showed a statistically significant trend as the
dosage of glyphosate increased.28 The experts also
agreed that data from concurrent controls—the rodents
28

See U.S. Environmental Protection Agency, Guidelines for
Carcinogen Risk Assessment 2-19 (2005), https://www.epa.gov/
sites/production/files/2013-09/documents/cancer_guidelines_final_325-05.pdf [https://perma.cc/G878-YJLC] (“EPA, Guidelines for Carcinogen Risk Assessment”). The EPA Guidelines go on to explain:
Trend tests and pairwise comparison tests are the recommended tests for determining whether chance, rather
than a treatment-related effect, is a plausible explanation
for an apparent increase in tumor incidence. A trend test
such as the Cochran-Armitage test (Snedecor and
Cochran, 1967) asks whether the results in all dose groups
together increase as dose increases. A pairwise comparison test such as the Fisher exact test (Fisher, 1950) asks
whether an incidence in one dose group is increased over
that of the control group. By convention, for both tests a
statistically significant comparison is one for which p is
less than 0.05 that the increased incidence is due to
chance. Significance in either kind of test is sufficient to
reject the hypothesis that chance accounts for the result.
Id.

133a
in the control group of the same study—were most important. But they acknowledged that the rate of tumor
incidence in historical control groups—control groups
used in previous, similar studies—was relevant as an
indicator of how many spontaneous tumors could be
expected. The experts disagreed, however, about how
and to what extent to consider historical control information. A further important consideration in assessing
whether a chemical causes cancer in rodents is whether
particular tumor findings were replicated across gender, subtype, species, or study. Monsanto does not dispute the reliability of this method on the whole, instead
critiquing specific aspects the plaintiffs’ experts’ application. These critiques will be discussed in Section VI.
V. MECHANISTIC DATA
The final category of evidence the plaintiffs seek to
put before the jury addresses possible mechanisms at
the cellular level by which glyphosate could cause cancer. The plaintiffs identify two possible mechanisms
they contend are supported by the scientific literature:
genotoxicity and oxidative stress.
Monsanto again disputes the relevance of this body
of literature, arguing that the objectives of studies at
the cellular level are far afield from the question of
general causation. However, for much the same reason
that the experts’ opinions on the rodent studies are relevant, the plaintiffs’ experts’ opinions regarding the
mechanistic evidence are also relevant: the mechanistic
evidence pertains to biological plausibility. Evidence
that glyphosate causes damage to the genetic material
in cells (genotoxicity) or an imbalance between the production of reactive oxygen species and antioxidant defenses in a cell (oxidative stress) supports the plaintiffs’
argument that it is biologically plausible that glypho-

134a
sate acts as a carcinogen. See In re Denture Cream
Products Liability Litigation, 795 F. Supp. 2d 1345,
1356 (S.D. Fla. 2011) (“When mechanistic evidence is
present it can greatly strengthen a causal inference,
but when it is absent it does not necessarily undermine
the inference.” (citation and alteration omitted)). This
is not a scenario where the plaintiffs are relying on
mechanistic studies alone to justify their experts’ causal inferences; mechanistic evidence “may supplement
the more substantial evidence of general causation in
this case.” In re Abilify, 299 F. Supp. 3d at 1399.
Monsanto further argues that any opinion that relies upon two human studies—which the parties refer
to as “Paz-y-Miño (2007)” and “Bolognesi (2009)”—must
be excluded because the methodologies of those studies
are so flawed that any opinion based on them is necessarily unreliable.29 These studies considered possible
genotoxic effects of glyphosate in people following aerial spraying in Colombia and Ecuador. They are “in vivo” studies of cells in whole, living organisms, as opposed to “in vitro” studies of cells outside their normal
biological contexts.
Studies are not admissible simply because they are
published. See In re Viagra Products Liability Litigation, 658 F. Supp. 2d 936, 945 (D. Minn. 2009). The two
human in vivo studies Monsanto targets have flaws,
29

César Paz-y-Miño et al., Evaluation of DNA Damage in an
Ecuadorian Population Exposed to Glyphosate, 30 Genetics &
Molecular Biology 456 (2007), Wagstaff Decl. ISO Pls.’ Opp’n Ex.
109 [Dkt. No. 656-4] (“Paz-y-Miño (2007)”); C. Bolognesi et al., Biomonitoring of Genotoxic Risk in Agricultural Workers from Five
Colombian Regions: Association to Occupational Exposure to
Glyphosate, 72 Journal of Toxicology & Environmental Health 986
(2009), Wagstaff Decl. ISO Pls.’ Opp’n Ex. 110 [Dkt. No. 656-5]
(“Bolognesi (2009)”).

135a
some of which are acknowledged by the study authors
themselves. See Bolognesi (2009) at 995 (acknowledging the possibility of misclassification of exposures and
“the need to use better procedures to estimate the exposure”). For instance, there was a delay between
glyphosate exposure and the genotoxicity assessment
in Paz-y-Miño (2007), and some of the study participants showed symptoms suggesting acute illness. See
Paz-y-Miño (2007) at 457. But none of these flaws is so
glaring that an expert who relies on the studies in assessing all the evidence going to whether glyphosate
has a genotoxic effect, as the plaintiffs’ experts and
IARC did, is necessarily unreliable.
VI. CONCLUSIONS REGARDING
THE PLAINTIFFS’ EXPERTS
The parties’ experts offer contrasting takes on how
to assess the evidence discussed in the three preceding
sections. It is a given that there will be disagreement
among reasonable scientists about which evidence to
emphasize in cases where the evidence does not point
unequivocally toward a particular conclusion. See, e.g.,
Milward, 639 F.3d at 18. The question here is whether
the plaintiffs’ experts’ analysis of these studies “falls
within the range of accepted standards governing how
scientists conduct their research and reach their conclusions.” Daubert II, 43 F.3d at 1317.
Although the plaintiffs’ experts specialize in various scientific disciplines, they all engage in some version of a Bradford Hill analysis (perhaps with the exception of Dr. Jameson, as discussed below). Recall
that the Bradford Hill approach to assessing whether
an association is causal takes into account: strength of
association, consistency across studies, specificity of the
association, temporality, dose response, biological plau-

136a
sibility, coherence, experimental evidence, and analogous compounds.
As mentioned in Section III, the Bradford Hill criteria are generally associated with epidemiology, and a
reliable assessment that an association between
glyphosate and NHL exists in the epidemiological literature is a prerequisite to application of the criteria. See
Reference Manual at 597. As a practical matter, however, application of these criteria requires an expert to
consider more than the epidemiology literature. In
particular, by inquiring about biological plausibility and
coherence with other knowledge, the Bradford Hill
framework asks experts to survey all the available evidence that might support or disprove causation. A
broad survey of the available evidence is neither unusual in expert testimony nor necessarily inappropriate.
See, e.g., Milward, 639 F.3d at 19-20; In re Neurontin
Marketing, Sales Practices & Products Liability Litigation, 612 F. Supp. 2d 116, 158-59 (D. Mass. 2009).
However, this feature of the Bradford Hill methodology poses some challenges for a reviewing court, as the
sweep of an expert’s opinion is likely to be quite broad,
the inquiry involves the exercise of subjective judgment, and an expert may opine on matters outside of
her core area of expertise.
To the extent the Daubert question is whether consideration of the Bradford Hill factors is a reliable
method for determining causation as a general matter,
the answer is yes. See, e.g., Wendell, 858 F.3d at 1235
n.4; In re Zoloft, 858 F.3d at 795-97. Although it is not
the sort of scientific process that is amenable to objective testing, or that has a known or potential error rate,
none of the experts dispute that this method of evaluating scientific evidence is generally accepted in the field
of epidemiology. See Daubert II, 43 F.3d at 1316; Lust

137a
By & Through Lust v. Merrell Dow Pharmaceuticals,
Inc., 89 F.3d 594, 597 (9th Cir. 1996) (noting that “testing and rate of error … do not apply, however, when
the expert has not done original research, but rather
has surveyed available literature and drawn conclusions that differ from those presented by the scientists
who performed the original work”). What matters
more in this case is whether the way the experts assessed each of the Bradford Hill factors is reliable in
light of the underlying evidence. The experts must also
show that the analytical leaps required to reach their
ultimate conclusions regarding glyphosate’s ability to
cause NHL in humans are supportable, in light of the
evidence on which they relied. See Joiner, 522 U.S. at
146.
A. Dr. Portier
Dr. Portier is a biostatistician whose graduate research focused on the design of rodent studies and who,
among other things, worked for much of his career at
the Center for Disease Control’s National Center for
Environmental Health and at the National Institutes of
Health’s National Institute of Environmental Health
Sciences. Mar. 7, 2018 Tr. [Portier] 540-41; Portier Report 1-3. Although Dr. Portier’s PhD is in biostatistics
and his primary focus is on toxicology and mechanistic
studies, he has reviewed epidemiology studies throughout his career and has published in the field. Apr. 6,
2018 Tr. [Portier] 13-14, 16-21. Accordingly, although
epidemiology is not his core area, he is qualified to examine the epidemiology literature to see whether an
association exists and, if so, to engage in a Bradford
Hill analysis.
Dr. Portier conducted a literature review of the epidemiological evidence and, as to the epidemiological

138a
evidence alone, agreed with IARC’s conclusion that the
evidence supported a credible causal interpretation but
could not definitively rule out chance, bias, or confounding. See Portier Report 6; Mar. 8, 2018 Tr. [Portier]
618-19; Apr. 6, 2018 Tr. [Portier] 78-79. As an initial
matter, Monsanto makes a non-frivolous argument that
Dr. Portier’s description of what the epidemiology evidence shows—a description that several of the plaintiffs’ experts shared—entitles it to summary judgment.
However, the better conclusion is that the plaintiffs’
experts need not derive their causation conclusion exclusively from that body of evidence. If other bodies of
knowledge tend to bolster a causal interpretation of
studies that could not alone establish causation, an expert need not be excluded based on an opinion that the
epidemiology evidence alone is limited in the way Dr.
Portier describes.
Although Dr. Portier agreed with IARC’s assessment, his expert report did not simply reiterate IARC’s
conclusions. In analyzing the epidemiology evidence,
Dr. Portier emphasized numbers adjusted for use of
other pesticides, particularly those from the Chang &
Delzell (2016) and IARC meta-analyses and the De
Roos (2003) study. He considered the possible roles
that chance, confounding, small sample sizes, and recall
bias might have played in explaining the observed results. See, e.g., Portier Report 11. He also explained
that he discounted the Andreotti (2018) study in light of
possible exposure misclassification arising from the
study design, the dramatic increase in glyphosate use
over the course of the AHS, and the authors’ imputation of exposures for the sizable portion of the cohort
that did not respond to the follow-up survey. Portier
Supp. Report 3-4.

139a
As noted, reliably identifying an association between NHL and glyphosate is a necessary predicate to
reliable application of the Bradford Hill criteria. See
Bradford Hill at 295; In re Lipitor (Atorvastatin Calcium) Marketing, Sales Practices & Product Liability
Litigation (No. II), 892 F.3d 624, 640 (4th Cir. 2018).
Dr. Portier does not in his report first pause to establish an association. Even though Dr. Portier did not
structure his report in this way, however, it is clear
that he identified an association between glyphosate
and NHL. What primarily persuaded Dr. Portier that
an association existed was the consistency of the observed associations across different case-control studies. Portier Report 15. He acknowledged that, using
the most highly adjusted numbers, the increases in
NHL observed with exposure to glyphosate were
“modest”—generally under 2.0—and were not always
statistically significant. Id. at 15, 19. But he concluded
it was unlikely that so many studies would report results above 1.0, whether statistically significant or not,
if there was no true association. Id. at 14-16. This is
thus not a scenario where an expert attempted to deploy the Bradford Hill “guidelines to support the existence of causation in the absence of any epidemiologic
studies finding an association,” given how Dr. Portier
interprets the studies. In re Lipitor, 892 F.3d at 640
(citations omitted).
Dr. Portier conducted his Bradford Hill analysis as
follows: He concluded that the epidemiology studies
addressed exposures occurring prior to disease onset,
and therefore that the temporality criterion—the only
non-discretionary Bradford Hill factor—was satisfied.
Portier Report 75. As to the strength of the observed
association, Dr. Portier acknowledged that the observed odds ratios showed a “moderate” association,

140a
and that it was therefore “conceivable they are individually due to either chance or bias.” Id. at 18.30 Although the magnitude of the observed association in
each individual study was not especially large, another
Bradford Hill criterion, consistency, allayed his concerns about chance and bias, leading him ultimately to
conclude that the case-control studies “demonstrate a
significant strength of association.” Id. at 19. His opinion that the consistency criterion provided strong support for causation emphasized the Chang & Delzell
(2016) meta-analysis, which showed little heterogeneity
between studies and remained stable after sensitivity
analyses. Id. at 15-17. He also considered possible
sources of bias or confounding that might explain the
consistency but noted, among other things, that several
of the studies controlled for other pesticides without
erasing the observed association. Id. at 17-18. Dr.
Portier further concluded, based on two case-control
studies and the AHS, that dose response, or biological
gradient, was demonstrated to a moderate degree by
the epidemiological studies. Id. at 74-75. Dose response—which refers to whether there is an increased
risk of contracting a disease associated with higher levels of exposure to the agent—is strong but not necessary evidence of a causal relationship. Reference Manual at 603.
30

Monsanto argues that the plaintiffs must be able to show a
statistically significant odds ratio of greater than 2.0 to survive
summary judgment at the general causation stage. Controlling
case law does not support that proposition. See In re Hanford Nuclear Reservation Litigation, 292 F.3d at 1137; see also In re Bextra & Celebrex Marketing Sales Practices & Product Liability Litigation, 524 F. Supp. 2d 1166, 1172-73 (N.D. Cal. 2007) (explaining
that a relative risk of greater than 1.0 is relevant to general causation, while a relative risk of 2.0 can be probative of specific causation).

141a
Dr. Portier further concluded that the biological
plausibility criterion “very strong[ly]” supported causation. Portier Report 77. He focused much of his report
on this point, analyzing both the rodent carcinogenicity
studies and the studies addressing possible cellular
mechanisms of action in conjunction with this factor.
Id. at 19-74. He again relied on this evidence, along
with studies showing absorption and excretion of
glyphosate by exposed humans, in support of Bradford
Hill’s “coherence” criterion, which asks whether a
causal interpretation of the association conflicts with
other information known about the disease. Id. at 7576. He concluded this criterion strongly supported a
causal assessment. Id. at 77.
Because there are causes of NHL aside from
glyphosate, Dr. Portier concluded “[t]here is little support for specificity.” Id. at 75; see also id. at 77 (stating
that specificity is “[n]ot needed”); Apr. 6, 2018 Tr.
[Portier] 75 (stating that specificity “doesn’t add to the
causation argument”). He did not rely on the criteria
considering analogous compounds and evidence from
human experimental studies in reaching his causation
opinion, citing his lack of information about the former
and a lack of data altogether as to the latter. Portier
Report 76-78.
With respect to Dr. Portier’s epidemiology-related
conclusions—both his finding of an association between
glyphosate exposure and NHL and his application of
the Bradford Hill factors that turn on the epidemiology
studies—it is not difficult to conclude that much of his
analysis is sufficiently reliable to be admissible. For
example, as discussed more fully in Section III, it was
reasonable for Dr. Portier to rely more heavily on the
case-control studies than the AHS. To briefly recap,
there is a legitimate concern about exposure misclassi-

142a
fication in the AHS. With respect to the case-control
studies, Dr. Portier addressed the most significant concern—the possibility that pesticides other than glyphosate caused the observed cases of NHL—by focusing
on data adjusted for potential confounding by various
other pesticides. See In re Abilify, 299 F. Supp. 3d at
1322-23. Monsanto’s other critiques of the case-control
studies, like the possible presence of recall bias or the
short period between glyphosate exposure and diagnosis in some of the studies, are not significant enough to
require an expert categorically to weight them less
heavily than the AHS. And having reasonably decided
to rely heavily on the case-control studies, Dr. Portier’s
conclusion that a true association exists between
glyphosate and NHL, as well as his conclusion that the
Bradford Hill “consistency” criterion was satisfied, was
not an unreasonable logical leap.
On the other hand, some of Dr. Portier’s epidemiology-related conclusions follow less clearly from the
studies—particularly those relating to strength of association and dose response. Regarding the former, it
seems like a stretch to conclude, as Dr. Portier seems
to have done, that the association between glyphosate
use and NHL is strong. See Apr. 6, 2018 Tr. [Portier]
68. Even if one completely discounted the AHS (which
Dr. Portier claims not to have done), virtually all the
adjusted odds ratios from the case-control studies are
below 2.0, and many of them are not statistically significant. As discussed in Section III, data may well be informative even in the absence of statistical significance,
but one would expect a more cautious assessment regarding the strength of association in light of these
numbers, particularly when one remembers that the
case-control studies have vulnerabilities of their own.
And when the AHS is given some weight (as Dr. Porti-

143a
er apparently agrees it should), the overall picture from
the data becomes fuzzier still.
With respect to dose response, it’s true that some
of the data from the case-control studies support Dr.
Portier’s conclusion, but other data do not, as he
acknowledged. Eriksson (2008) reported a higher odds
ratio—2.36 (1.04, 5.37)—for those who used glyphosate
for greater than ten days than for those who used it for
ten or fewer days—1.69 (0.70, 4.07). McDuffie (2001)
reported odds ratios of 1.0 (0.63, 1.57) for those who
used glyphosate between zero and two days per year,
and of 2.12 (1.2, 3.73) for those who used it for greater
than two days per year. Dr. Portier also concluded that
the rodent carcinogenicity studies demonstrated a dose
response. Yet neither of the published AHS studies,
which used much more detailed exposure metrics,
demonstrated a dose response. See Portier Report 7475; Apr. 6, 2018 Tr. [Portier] 140. Although the better
conclusion might be that these data are inconclusive,
Dr. Portier’s assessment that the biological gradient
criterion is moderately supportive of a causal association does not constitute an unsupported scientific leap.
See Joiner, 522 U.S. at 146.
More broadly, Dr. Portier’s epidemiology-related
conclusions, even tempered as they are by the recognition that the epidemiology evidence alone does not
show causation, are far from unassailable. There is one
large cohort study (the AHS), with results recently
published in a well-regarded scientific journal, suggesting no association between glyphosate use and NHL.
There is a series of case-control studies arguably suggesting an association, but a fairly weak one. There are
limited data indicating that the association strengthens
with greater exposure to glyphosate, but also data to
the contrary. And there are legitimate concerns about

144a
the reliability of the data from all the studies. Under
these circumstances, all one might expect an expert to
conclude is that glyphosate exposure is cause for concern, but not that glyphosate is likely causing NHL at
realistic human exposure levels.
But, as noted at the beginning of this ruling, the
Daubert inquiry does not require (or even allow) a district court to exclude an expert’s opinion merely because the court is not persuaded that the expert’s read
of the evidence is the best one. See, e.g., City of Pomona, 750 F.3d at 1044 (“The district court is not tasked
with deciding whether the expert is right or wrong,
just whether his testimony has substance such that it
would be helpful to a jury.” (citation and alteration
omitted)); Quiet Technology DC-8, Inc. v. Hurel-Dubois
UK Ltd., 326 F.3d 1333, 1341 (11th Cir. 2003) (“[I]t is
not the role of the district court to make ultimate conclusions as to the persuasiveness of the proffered evidence.”); Daubert II, 43 F.3d at 1318 (“[T]he test under
Daubert is not the correctness of the expert’s conclusions but the soundness of his methodology.”); In re
TMI Litigation, 193 F.3d 613, 665 (3d Cir. 1999),
amended, 199 F.3d 158 (3d Cir. 2000) (explaining that
plaintiffs “do not have to demonstrate to the judge by a
preponderance of the evidence that the assessments of
their experts are correct, they only have to demonstrate by a preponderance of evidence that their opinions are reliable” (citation omitted)). It bears repeating
that applying the Bradford Hill criteria involves a certain amount of subjectivity, and experts often will disagree when doing so. The job of the district court is
merely to ensure that the expert’s methods are not so
far outside the realm of reasonable scientific practice
that his testimony would be unhelpful or misleading to
a jury. See Messick, 747 F.3d at 1199. The Court must

145a
also assure itself that the expert’s conclusions are not
based upon unreasonable extrapolations from the existing data. See Joiner, 522 U.S. at 146. Monsanto can
cross-examine Dr. Portier on the apparent weaknesses
in his analysis, and there is little reason to think that a
jury will not understand those weaknesses. But the
aspects of his opinion based upon the epidemiology evidence have a sufficiently reliable basis in the methods
of that discipline for the jury to consider his testimony
about that evidence, including his assessments of the
strength, consistency, and dose-response Bradford Hill
criteria. See Messick, 747 F.3d at 1197.
Dr. Portier’s testimony regarding the contested
Bradford Hill factors that do not depend primarily upon
epidemiology evidence—namely, biological plausibility
and coherence—is also admissible, with one exception.
Dr. Portier first supported his biological plausibility conclusion with a determination that sufficient evidence shows that glyphosate causes cancer in two
strains of rats and one strain of mice. Portier Report
52. One of Monsanto’s major critiques of this portion of
his analysis concerns his decision to use a pooling method to analyze together the results of the various rodent
carcinogenicity studies. Dr. Portier’s expert report
combined the results of similar studies, treating the resulting data as “one big bioassay,” then analyzed the
results using a Cochran-Armitage trend test. Mar. 7,
2018 Tr. [Portier] 579. In response to critiques from
one of Monsanto’s experts, he then conducted an additional analysis using logistic regression, which he contended provided similar results. Id. at 579-80. He also
conducted sensitivity analyses in conjunction with his
pooling that sought to isolate the effects of studies that,
for instance, had a very high rate of tumor incidence in
the control and all dose groups. Id. at 577-84.

146a
Although some version of Dr. Portier’s pooled approach may well gain traction as a means of evaluating
the results of multiple rodent studies, it fares poorly
under the traditional Daubert criteria. His pooling approach is not subject to objective testing, and it appears to have no identifiable error rate. Although neither of these shortcomings itself requires exclusion, Dr.
Portier’s method also has not gained general acceptance in the scientific community, nor does it appear
to have been subjected to peer review and publication.
See Estate of Barabin v. AstenJohnson, Inc., 740 F.3d
457, 463 (9th Cir. 2014).
Dr. Portier seemed to acknowledge that his approach was novel, but argued it was still a reliable way
to assess multiple animal studies. Mar. 8, 2018 Tr.
[Portier] 638 [Dkt. No. 1183]; Portier Report 21
(“Methods for the combined analysis of multiple animal
cancer bioassays are not available in the scientific literature.”). Dr. Portier later pointed to two studies by another scientist that he contended used a similar pooling
analysis. Mar. 8, 2018 Tr. [Portier] 635. But it appears
that the pooling used in these studies combined male
and female rodents from the same study, or that the
authors displayed results from studies of different
lengths in a single figure to model a dose-response
curve, rather than combining rodents from multiple
separate studies to determine whether given tumor
findings were significant in the way that Dr. Portier
does.31 As evidence that Dr. Portier’s method has
31

See Michael L. Dourson et al., Update: Mode of Action
(MOA) for Liver Tumors Induced by Oral Exposure to 1, 4 dioxane, 88 Regulatory Toxicology & Pharmacology 45, 46-50
(2017), Wagstaff Decl. ISO Pls.’ Opp’n, Ex. 104 [Dkt Nos. 655-14];
Michael Dourson et al., Mode of Action Analysis for Liver Tumors
from Oral 1, 4 -dioxane Exposures and Evidence-Based Dose Re-

147a
gained acceptance, the plaintiffs pointed to comments
by members of the EPA’s Science Advisory Panel indicating that pooling the studies here would be appropriate. However, although some members of the panel evidently found Dr. Portier’s proposed approach promising, the report of the panel meeting says only that some
“[p]anelists recommend that EPA adopt a pooled analysis approach for combining multiple studies.” Wagstaff Decl. ISO Pls.’ Opp’n Ex. 10 at 59 [Dkt. No. 64810]. The report continues, “[a]dopting a pooled analysis
approach should include the development of full guidelines for how to conduct and evaluate these analyses,”
suggesting that the details of what might constitute a
reliable way to conduct a pooled analysis remained to
be determined. Id.; see also Mar. 8, 2018 Tr. [Portier]
638.
That Dr. Portier has staked his reputation on his
pooling analysis in regulatory submissions in addition
to doing so in this litigation suggests that this litigation
isn’t the only force behind this portion of his analysis.
But Dr. Portier’s pooling method has evolved as he has
received feedback from his peers, and his regulatory
submissions reflected a somewhat different analysis
than the one he presents here. Mar. 8, 2018 Tr. [Portier] 626-35. Further, during cross-examination, Dr.
Portier acknowledged an error in his expert report, in
which he neglected to present one of his pooled sensitivity analyses of thyroid C-cell tumors in male rats,
making it appear that he had not consistently applied
his method to all the relevant studies. Mar. 8, 2018 Tr.
[Portier] 665-66. All this suggests that Dr. Portier’s
pooling is a good faith work in progress, but does not
sponse Assessment, 68 Regulatory Toxicology & Pharmacology
387, 391, 394 (2014), Wagstaff Decl. ISO Pls.’ Opp’n Ex. 105 [Dkt.
No. 655-15]; Mar. 8, 2018 Tr. [Portier] 635-36.

148a
yet constitute “the scientific method, as it is practiced
by (at least) a recognized minority of scientists in their
field.” Daubert II, 43 F.3d at 1319. The proper place to
refine his pooling approach is not in front the jury.
The question thus becomes whether Dr. Portier’s
opinion as to the animal studies “nonetheless rests on
good grounds.” Karlo v. Pittsburgh Glass Works, LLC,
849 F.3d 61, 83 (3d Cir. 2017). Although it is a somewhat close call, it appears that Dr. Portier’s other analyses and conclusions are separable from his pooling.
Dr. Portier acknowledged that the pooling was “part of
[his] analysis and evaluation,” but he sought to make
clear that his conclusions were not dependent upon it.
Mar. 8, 2018 Tr. [Portier] 640. He explained, “The
pooled analysis is just a tool for me to better understand the strength of the evidence across multiple studies. Like a meta-analysis or the pooled analysis in epidemiology. Not having it doesn’t change the core
meaning of the data. And so my opinion of the animal
carcinogenicity data wouldn’t change just because I
couldn’t use the pooled analysis.” Apr. 6, 2018 Tr.
[Portier] 181. Indeed, a significant portion of his rebuttal report was dedicated to disputing one of Monsanto’s
expert’s interpretations of the individual studies. See
Rebuttal Report of Dr. Portier 12-24, Wagstaff Decl.
ISO Pls.’ Opp’n Ex. 96 [Dkt. No. 655-6].
Without pooling, the remainder of his analysis
evinces relatively minor disagreements with the other
toxicology experts on how to interpret the studies, and
his positions in these debates do not depart from the
realm of reasonable science. Monsanto criticized the
way Dr. Portier addressed the possibility that random
chance could explain the statistically significant tumor
findings he identified, given the large number of possible tumor sites analyzed. See Mar. 8, 2018 Tr. [Portier]

149a
682-89. In addition to disputing the method he used to
account for the role of chance, Monsanto highlighted
that the total number of tumor sites included in this
portion of his initial report was higher than the number
included in his rebuttal report. At the Daubert hearing,
however, Dr. Portier explained the discrepancy, citing
his decision to depart from his original reliance on the
tumor site counts in a comment provided by another
scientist to the EPA. Id. at 683-89. Dr. Portier provided a reasonable explanation, and to the extent Monsanto seeks to argue that this change makes his opinion
less credible, it is free to do so. See Primiano v. Cook,
598 F.3d 558, 566 (9th Cir. 2010) (“Where the foundation is sufficient, the litigant is entitled to have the jury
decide upon the experts’ credibility, rather than the
judge.” (internal quotation marks, citation, and alteration omitted)).
Monsanto also accused Dr. Portier of engaging in
“p-hacking,” manipulation of data to obtain statistically
significant results. Monsanto used Dr. Portier’s treatment of renal tumors observed in a 1983 mouse bioassay as an example of this alleged methodological flaw.
See Def.’s Mot. 25-26. Monsanto cites his prior analyses
of these data in regulatory submissions, noting that his
approach has evolved over time. Yet, although Monsanto takes issue with his use of a measure that takes
into account historical controls, it does not provide any
reason why use of his other measures, the CochranArmitage trend and Fisher exact tests, is an unreliable
way to evaluate these data. See EPA, Guidelines for
Carcinogen Risk Assessment at 2-19; see also Expert
Report of Dr. Corcoran 8, Wagstaff Decl. ISO Pls.’
Opp’n Ex. 102 [Dkt. No. 655-12] (“Corcoran Report”).
As to his incorporation of historical control data for tumors he deemed rare, Monsanto has legitimate cri-

150a
tiques of the way he calculated his statistic. But it is
within the realm of reasonable toxicological practice to
consider historical control data in some fashion, and
Monsanto has not demonstrated that another approach
to historical controls is the only reliable one.32 Indeed,
there are reasons one might expect a reliable expert to
use caution when dismissing tumor findings simply because they fall within the range of tumors observed in
historical controls. See, e.g., EPA, Guidelines for Carcinogen Risk Assessment at 2-20 to 2-21. Again, Monsanto may highlight discrepancies between Dr. Portier’s past approaches and the analysis he presents in
this case, and may emphasize what it perceives to be
flaws in Dr. Portier’s use of historical controls. But the
concerns about the opinion he presents here are not
sufficient to render his opinion inadmissible.
Monsanto points out that not even Drs. Jameson
and Portier, the two plaintiffs’ experts who focused at
length on the animal studies, could agree on how to analyze the studies and suggests this is evidence of unreliability. Def.’s Mot. 22 n.31. But, by that score, Monsanto’s experts would also be unreliable, as they
reached somewhat different conclusions regarding
some of the studies, too. Compare, e.g., Rosol Report
17 (noting in the Stout and Ruecker study a statistically
significant increase by pair-wise comparison for pancreatic islet cell adenomas in low-dose males, but concluding the tumors were not treatment related); id. at
17-18 (reporting no compound related or biologically
32

See, e.g., Foster Report 11, 16 n.2 (evaluating tumor findings in comparison to the range of historical controls rather than
the mean); Rosol Report 5-6; Charlotte Keenan et al., Best Practices for Use of Historical Control Data of Proliferative Rodent
Lesions, 31 Toxicologic Pathology 679, 690 (2009), Wagstaff Decl.
ISO Pls.’ Opp’n Ex. 108 [Dkt. No. 656-3].

151a
relevant changes in any treatment group in the Wood
2009 study); with Foster Report 16 (noting nonstatistically significant neoplastic changes in pancreatic
islet cells in the Stout and Ruecker study); id. at 18
(noting in the Wood 2009 study a statistically significant trend for mammary gland adenocarcinomas, and
for adenomas and adenocarcinomas combined for the
highest dose group in the same study, but concluding
the tumors were not compound-related). The Court
may not “t[ake] sides on questions that are currently
the focus of extensive scientific research and debate—
and on which reasonable scientists can clearly disagree.” Milward, 639 F.3d at 22.
In sum, with the exception of his pooled analysis,
Dr. Portier’s assessment of the animal carcinogenicity
data is admissible. Some of the statistical tests he applied to the data within the expert reports submitted in
conjunction with this case are essentially unchallenged.
Monsanto disputes the way he incorporated data on
historical controls into his analysis and how he sought
to address concerns that his observed statistically significant results could be due to chance. But seeking to
account for these factors comports with good scientific
practice, and Monsanto has not shown that Dr. Portier
has taken a scientifically unacceptable, as opposed to a
debatable, approach.
Dr. Portier’s second opinion supporting his conclusion that it is biologically plausible that glyphosate
causes cancer in humans concerns the mechanistic evidence. As discussed in Section V, his reliance on the
human in vivo studies does not disqualify his expert
opinion. Dr. Portier acknowledged that some of the results he considered were not statistically significant.
See, e.g., Portier Report 56. He also considered a later
Paz-y-Miño study, published in 2011, that showed no

152a
effect, which Monsanto cites in disputing the plaintiffs’
reliance on the other two human in vivo studies. Id. at
55-56.33 Dr. Portier additionally took into account myriad other mechanistic evidence, effectively unchallenged by Monsanto in its motion, including a published
meta-analysis of in vivo assays that found a statistically
significant positive mean response. Portier Report 6869. Dr. Portier explained that he weighted these studies heavily, as they demonstrate DNA damage in living
organisms with intact DNA repair mechanisms, making
them more probative of potential DNA damage in humans than in vitro studies. Id. at 69.
Monsanto also argues that Dr. Portier’s chart
summarizing the study results is unreliable, contending
he inappropriately added up the positive studies. Def.’s
Mot. 35. But Dr. Portier expressly cautioned against
relying too heavily on the table Monsanto disputes, noting that it was simply a summary tool. Portier Report
65 (explaining that the table “does not address the subtlety needed to interpret any one study,” but instead
“summarizes these studies in a simple framework that
allows all of the experimental data to be seen in one
glance”); cf. Expert Report of Dr. Jay Goodman 31,
Wagstaff Decl. ISO Pls.’ Opp’n Ex. 38 [Dkt. No. 649-8]
(“Goodman Report”) (“While there were occasional positives, some of which might have occurred by chance,
among the very numerous tests for genotoxicity, these
are far outweighed by the overwhelmingly negative results.”).

33

See César Paz-y-Miño et al., Baseline Determination in Social, Health, and Genetic Areas in Communities Affected by
Glyphosate Aerial Spraying on the Northeastern Ecuadorian
Border, 26 Reviews on Environmental Health 45 (2011), Wagstaff
Decl. ISO Pls.’ Mot. Ex. 111 [Dkt. No. 656-6]; Def.’s Mot. 33 n.66.

153a
In short, Monsanto’s attacks on Dr. Portier’s analysis of the mechanistic data probe his application of the
scientific method, but do not demonstrate that the principles and methodology he applied in analyzing these
data were not grounded in science. See Wendell, 858
F.3d at 1232.
Stepping back and applying the Daubert factors not
already accounted for to Dr. Portier’s Bradford Hill
analysis: Dr. Portier has not sought to publish his conclusions regarding glyphosate and NHL in a peerreviewed journal. However, the studies underlying his
opinion were in large part published in peer-reviewed
journals. See Daubert II, 43 F.3d at 1318; cf. Metabolife
International, Inc. v. Wornick, 264 F.3d 832, 845 (9th
Cir. 2001) (concluding that experts who “explain[ed]
the methodology of risk assessment and how the data
found in peer-reviewed articles and adverse incident
reports was used” in their declarations “facially complied with Daubert II’s verification requirement for evidence prepared in anticipation of litigation”). In addition, Dr. Portier has become, in the wake of his participation in the IARC Monograph process, something of
an advocate for increased regulatory attention to
glyphosate, suggesting his position is not one he has
taken solely for purposes of this litigation, even if much
of his public commentary occurred after he was retained by counsel for the plaintiffs. See, e.g., Expert
Report of Dr. Portier, App. Docs. 1-2, Wagstaff Decl.
ISO Pls.’ Opp’n Ex. 5; Daubert II, 43 F.3d at 1316-18;
Mar. 8, 2018 Tr. [Portier] 626-27. Although these factors do not strongly favor admission, neither do they
counsel significantly against it.

154a
*

*

*

On the whole, Dr. Portier has adequately demonstrated that his opinion regarding general causation is
sufficiently “within the range of accepted standards
governing how scientists conduct their research and
reach their conclusions” to proceed to a jury should any
of the plaintiffs get past summary judgment at the next
phase. Daubert II, 43 F.3d at 1317. He may present his
full Bradford Hill analysis, but may not support his biological plausibility conclusion with the application of his
pooling method. Turning from methods to conclusions,
perhaps Dr. Portier has read too much into the evidence in certain areas—particularly in the important
area of epidemiology. This could cause a jury to reject
his conclusions, but it does not warrant keeping his
opinion from a jury altogether. Thus, although it’s a
close question, Dr. Portier’s opinion does not involve
any logical leaps so great and so lacking in support as to
render them inadmissible. Joiner, 522 U.S. at 146.
B. Dr. Ritz
Dr. Ritz is an epidemiology professor at the University of California, Los Angeles. She has a PhD in
epidemiology, as well as an MD, and her primary research interests include the health effects of environmental and occupational exposures. Ritz Report 1.
Monsanto does not dispute that she is qualified to offer
an opinion addressing the epidemiology evidence at issue here.
Like Dr. Portier, Dr. Ritz first conducted a literature search to identify the relevant epidemiology evidence, assessed the quality of each pertinent study, and
used her judgment to determine how the results of
these studies fit together. Id. at 8-9, 14-23. She concluded that “[t]he epidemiologic studies as a whole sup-

155a
port an increased risk of NHL with exposure to glyphosate or glyphosate based formulations.” Id. at 25.
She also engaged in a Bradford Hill analysis. Dr.
Ritz concluded that the strength criterion was “partially met,” in light of the results of the meta-analyses that
showed a “weak to moderate size association.” Id. at
23. She further concluded that the dose-response criterion was met, gesturing toward the same two studies
with higher odds ratios for greater exposures as Dr.
Portier. Id. In assessing consistency, she noted briefly
that positive associations were observed in different
populations, places, and time periods. Id. at 24. She
briefly concluded that the temporality criterion was
met and, like Dr. Portier, acknowledged there was no
supportive human experimental evidence. Id. at 24-25.
Dr. Ritz took a somewhat different tack than Dr.
Portier with respect to the specificity, biological plausibility, and coherence criteria. Unlike Dr. Portier, who
focused on whether NHL was an outcome associated
exclusively with glyphosate exposure, Dr. Ritz asked
the inverse question, inquiring whether glyphosate exposure resulted in a specific cancer outcome. Approaching the factor this way, she concluded that the
criterion was met—increased incidences of NHL were
observed, but not of other cancers—although she
acknowledged that it was difficult to assess this criterion. Id. at 24; Apr. 4, 2018 Tr. [Ritz] 53-54.34 She found
coherence not to be a relevant factor, as she considered
34

The Bradford Hill article seems to countenance both these
experts’ interpretations of the criterion, noting that “[o]ne-to-one
relationships” between exposures and diseases are rare. Bradford
Hill at 297; see also Rothman at 27 (“The criterion of specificity has
two variants. One is that a cause leads to a single effect, not multiple effects. The other is that an effect has one cause, not multiple
causes.”).

156a
it to overlap with the question whether there was any
experimental evidence in humans to consider, and did
not address whether any analogous compounds provided information relevant to the causation inquiry here.
Ritz Report 25. Finally, to support her conclusion that
a causal relationship between glyphosate and NHL is
biologically plausible, Dr. Ritz in her report relied on
the mechanistic evidence. As to the mechanistic evidence, she provided a cursory summary of studies on
human absorption of glyphosate and studies she concludes demonstrate oxidative stress and genotoxicity.
Id. at 24-25; Mar. 5, 2018 Tr. [Ritz] 86-88. Ultimately,
she concluded “to a reasonable degree of scientific certainty,” that glyphosate and glyphosate-based formulations like Roundup cause NHL. Ritz Report 25.
Although Drs. Ritz and Portier generally offered
similar opinions regarding the epidemiology evidence,
one significant difference is Dr. Ritz’s greater emphasis
on numbers unadjusted for use of other pesticides.
Although she acknowledged the importance of considering results that accounted for confounding variables,
Dr. Ritz’s analysis emphasized some numbers that did
not make this adjustment. See, e.g., id. at 14, 16. Monsanto attacks her opinion on this ground and argues
that, once one focuses on the most fully adjusted numbers from the case-control studies, the results of these
studies (combined with the AHS cohort study on which
Monsanto relies) cannot justify a conclusion that there
is a meaningful association between glyphosate and
NHL. This critique of Dr. Ritz is a valid one, and exclusive consideration of numbers unadjusted for other
pesticides, when adjusted numbers are available, would
be disqualifying. Failing to take account of likely confounders by presenting and relying upon only unadjusted (or minimally adjusted) estimates is a serious

157a
methodological concern. See Nelson v. Tennessee Gas
Pipeline Co., 243 F.3d 244, 253 (6th Cir. 2001). This is
illustrated by the IARC Monograph, which focused on
numbers from epidemiological studies that were adjusted for other pesticides, explaining that “there is
high potential for confounding by use of multiple pesticides.” Monograph at 50; see also id. at 331. Accordingly, the misleading “Forest plot” from Dr. Ritz’s report—which highlighted numbers unadjusted for other
pesticides and, moreover, reported the number of cases
in the individual studies without taking into account
how many of these individuals were exposed to glyphosate—may not be presented to a jury. See Ritz Report
14. And frankly, this portion of her presentation calls
her objectivity and credibility into question.
However, although Dr. Ritz did not focus heavily
on the adjusted numbers in her reports, she did consider them. Two of the meta-analyses of the case-control
studies used the fully adjusted estimates, and both regressions performed in De Roos (2003) adjusted for use
of many other pesticides. Ritz Report 16, 19. She cited
the numbers from the meta-analyses first and foremost
in her causation analysis. See id. at 23.35 Further, during the hearings, Dr. Ritz professed that, even if she
were limited to considering only the numbers adjusted
for other pesticides, her conclusion would not change.
See Apr. 4, 2018 Tr. [Ritz] 37-42, 92. By way of explanation, Dr. Ritz, like Dr. Portier, pointed to the consistency of the observed associations in case-control
studies, which were primarily above 1.0 even if some
were not statistically significant. See id. at 39-40. As
35

Because Dr. Ritz did consider the adjusted numbers, the
Court declines Monsanto’s invitation to exclude any opinion based
on the adjusted numbers. See Def.’s Apr. 9, 2018 Supp. Br. 3-5.

158a
discussed in Section III, Dr. Ritz critiqued the methodology of the AHS study, the most significant study that
does not support her conclusion, and those critiques
raise valid concerns. Further, although Dr. Ritz’s conclusions do not predate this litigation, there is some evidence that her critiques of the AHS do. See Ritz Supp.
Report 8. Although it is again a close question, Dr.
Ritz’s conclusions regarding the epidemiology evidence
are admissible. While her analysis is subject to challenge—something Monsanto’s cross-examination during the Daubert hearing made plain—her opinion does
not rise to the level of an “unreliable nonsense opinion[].”
City of Pomona, 750 F.3d at 1044 (citation omitted).
Dr. Ritz’s assessment of the Bradford Hill
“strength” criterion as “partially met” based on the
“weak to moderate size association” reported in the
meta-analyses requires less of a logical leap than does
Dr. Portier’s assessment. Ritz Report 23. Her conclusion regarding dose response is based on the “effect estimates for longer or more extensive use” between 2
and 3—presumably, the greater-than-two-days-peryear odds ratio in the McDuffie (2001) study and the
greater-than-ten-days odds ratio in Eriksson (2008).
Id. She does not explain how the contrary results of
the AHS impacted her dose-response analysis, but, in
light of the two published studies suggesting a biological gradient and the negligible weight she gave to the
AHS overall in reaching her epidemiology opinions, her
conclusion regarding dose response is admissible, even
if it is questionable.
Dr. Ritz’s opinion regarding biological plausibility
is quite brief, and consists in effect of a series of citations to studies on human absorption of glyphosate and
possible genotoxic and cytotoxic effects on humans and
in rodents. See id. at 24-25. There is little to her analy-

159a
sis of this criterion, and she has not established that she
would be qualified to offer an opinion addressing the
toxicology evidence in any detail. However, to the extent she simply opines that, as an epidemiologist engaging in a Bradford Hill analysis, a review of the published mechanistic literature suggested it was biologically plausible that glyphosate could cause NHL in humans, that limited conclusion is admissible. Cf. Rothman at 28-29.
With her Bradford Hill analysis cabined in this
way, Dr. Ritz’s opinion that glyphosate causes NHL,
and has caused NHL in those who have used it in the
manner studied, is admissible. Mar. 5, 2018 Tr. [Ritz]
96; Ritz Supp. Report 10. Dr. Ritz’s opinion, like Dr.
Portier’s, goes to the ultimate general causation question and therefore is sufficient to support a denial of
summary judgment; it does not simply rehash IARC’s
analysis. Also like Dr. Portier—and perhaps to a
greater extent—there is ample room to challenge both
her methods and her conclusions. But, as discussed, the
purpose of Rule 702 and the Daubert inquiry is not to
“exclude opinions merely because they are impeachable.” City of Pomona, 750 F.3d at 1044 (citation omitted).
C. Dr. Weisenburger
Dr. Weisenburger, a physician and pathologist who
has focused for much of his career on NHL, also engaged in a Bradford Hill analysis in his expert report.
He has significant experience in epidemiology and was
a co-author of De Roos (2003), one of the key casecontrol studies for the plaintiffs. See Mar. 5, 2018 Tr.
[Weisenburger] 169-70; Expert Report of Dr. Weisenburger 1-2, Wagstaff Decl. ISO Pls.’ Opp’n Ex. 8 [Dkt.
No. 648-8] (“Weisenburger Report”). Monsanto does

160a
not dispute that he is qualified to opine on the epidemiology evidence. See Def.’s Mot. 11 n.16.
In his expert report, Dr. Weisenburger offered an
epidemiology opinion that was relatively brief. He considered the same core set of studies, reporting both the
adjusted and unadjusted odds ratios from these studies.
Although he did not include the hierarchical regression
in De Roos (2003) in his summary chart, he otherwise
considered the full picture presented by the published
epidemiology studies and concluded, first, that an association existed between NHL and glyphosate use. He
explained that neither methodological critiques of the
case-control studies nor the results of the AHS were
sufficient to persuade him that the association he detected in the case-control studies was spurious. Weisenburger Report 6. When confronted with the data
from the Andreotti (2018) update to the AHS, he discounted the study on the basis of nondifferential exposure misclassification, making many of the same arguments in support of this point as the experts above, as
well as what he characterized as an insufficient followup period. Supplemental Report of Dr. Weisenburger
1-2, Wagstaff Decl. ISO Pls.’ Supp. Br. Ex. 16 [Dkt. No.
1136-16] (“Weisenburger Supp. Report”).
Monsanto contends Dr. Weisenburger’s opinion is
unreliable because it relied upon the univariate analysis
in Eriksson (2008). Although Dr. Weisenburger did not
provide a particularly nuanced analysis of that study in
his report, he did include the results of the multivariate
analysis in his report, and he frankly acknowledged the
benefits of adjusting for potential confounders in that
study during his testimony. Weisenburger Report 5;
Mar. 6, 2018 Tr. [Weisenburger] 234-37. However, he
disputed the inclusion of one of the variables in the
study authors’ model (arsenic), and did not say, as Mon-

161a
santo implies, that he found the particular multivariate
analysis included in Eriksson (2008), which included
that disputed adjustment, to be more reliable. See Mar.
6, 2018 Tr. [Weisenburger] 237; Def.’s June 22, 2018 Br.
4. Monsanto also attacks Dr. Weisenburger’s failure to
mention the NAPP data in his expert report, even
though he is an author of that study. Dr. Weisenburger
explained that he elected to include published studies in
his expert report, a defensible choice. Mar. 6, 2018 Tr.
[Weisenburger] 251. And he was willing and able to
discuss the NAPP during the Daubert hearings, acknowledging the wisdom of certain adjustments made
in the NAPP study and that some of the odds ratios became statistically insignificant after these adjustments.
He also emphasized that the odds ratio for higherintensity exposure remained statistically significant.
Id. at 218-21, 253-55, 257-63. Thus, Dr. Weisenburger’s
treatment of the Eriksson (2008) and NAPP data is not
a reason to deem his epidemiology opinion unreliable.
Dr. Weisenburger’s handling of latency gives the
Court the most pause. In his initial report, he faulted
the first AHS study, De Roos (2005), for its inadequate
follow-up period. In doing so, he acknowledged neither
that the AHS inquired about exposures occurring prior
to the start of the study nor that the case-control studies included in De Roos (2003) could be subject to the
same criticism. See Weisenburger Report 5. He continued to fault the AHS for inadequate follow-up periods even after publication of the Andreotti (2018) update. Weisenburger Supp. Report 3. And Dr. Weisenburger repeatedly suggested, including in materials
prepared outside of this litigation, that glyphosateinduced NHL was likely to have a long average latency
period, on the order of 20 or more years. Weisenburger
Report 5; Def.’s June 22, 2018 Supp. Br. Ex. 1 [Dkt. No.

162a
1539-1]. Dr. Weisenburger sought to explain why it
might be appropriate to discount negative cohort studies on the basis of latency but not positive case-control
studies, but his justification was not entirely satisfying.
See Mar. 6, 2018 Tr. [Weisenburger] 278-84.
Although Dr. Weisenburger’s discussion of this issue during his Daubert testimony did not answer every
question it raised, he ultimately persuaded the Court
that he could testify reliably about the latency issue.
He admitted during the Daubert hearing that the casecontrol studies could also be critiqued for having a
short latency period. Mar. 5, 2018 Tr. [Weisenburger]
190; Mar. 6, 2018 Tr. [Weisenburger] 282-83. And he
continued to acknowledge evidence suggesting that it
likely takes many years, on average, for NHL to develop as a result of glyphosate exposure. See Mar. 6, 2018
Tr. [Weisenburger] 245-47, 268-69. While acknowledging these concerns, however, Dr. Weisenburger explained that the adjustments for other pesticides made
by De Roos (2003) and the NAPP study would ameliorate the latency concern to a degree; as noted, one possible explanation for elevated odds ratios so soon after
glyphosate’s introduction would have been use of other
pesticides, but these adjustments took account of that
possible confounder. Id. at 282-83. So, although there
is tension between Dr. Weisenburger’s view that, on
average, it likely takes more than a decade for NHL to
develop as a result of glyphosate exposure and the
heavy weight he gives the case-control studies that
could only account for a few years, he provided a scientifically plausible reason for continuing to credit the
studies that adjusted for other pesticides.
Turning to the remainder of Dr. Weisenburger’s
opinion, the Court likewise finds no basis for excluding
it. Dr. Weisenburger provided a brief rundown of the

163a
positive tumor findings identified by IARC, Greim
(2015), and the EPA and concluded these findings provide sufficient evidence of carcinogenicity in experimental animals. Weisenburger Report 6-8. He also reviewed the mechanistic evidence and found that these
studies supported IARC’s conclusion that glyphosate
and glyphosate-based herbicides are genotoxic. Id. at
8-9. He further opined that certain mechanistic studies
indicated that low-dose exposures can have significant
biological effects. Id. at 10.
Dr. Weisenburger’s Bradford Hill analysis is admissible in light of his interpretation of the epidemiology studies. He concluded the temporality requirement
was met. As to the strength of the association, he highlighted the odds ratios above 2.0 observed for certain
subsets of the case-control study data, taking into account whether these results were statistically significant. Id. at 10-11. He focused on the same two casecontrol studies that sought to capture dose response as
the experts above, and found elevated odds ratios to be
adequately replicated across case-control studies conducted by different researchers in different regions.
Regarding biological plausibility, he emphasized the
studies demonstrating genotoxic effects and the occurrence of lymphoma in mice in some of the animal experiments. Id. at 11. Like Dr. Ritz, he concluded the specificity criterion supported causation, as the only disease
associated with glyphosate exposure was NHL. Unlike
the experts previously discussed, he concluded that
glyphosate fell within a class of chemicals others of
which have been implicated in causing NHL. Id. at 12.
In addition, Dr. Weisenburger considered other possible explanations for the observed results and, among
other things, concluded that “confounding due to the
use of other pesticides does not fully explain the in-

164a
creased risk estimates for glyphosate” in light of the
results in some studies that controlled for use of other
pesticides. Id. None of these conclusions offends
Daubert’s requirements.
Of note, one feature of Dr. Weisenburger’s opinion
is particularly helpful to the plaintiffs. Unlike Dr. Ritz
and Dr. Portier, who elaborated on what the evidence
showed as to real-world exposure levels almost as an
afterthought, Dr. Weisenburger’s opinions were presented in these terms from the beginning. In his original report, he addressed whether glyphosate or glyphosate-based formulations like Roundup cause “NHL in
humans exposed to these chemicals in the workplace or
environment.” Weisenburger Report 2, 12. In addressing this question, he considered the epidemiological
studies as well as studies he determined showed biological effects at relatively low doses. See id. at 10. Thus,
Dr. Weisenburger’s testimony goes directly to the general causation question, and likewise assists the plaintiffs in surviving Monsanto’s summary judgment motion.
D. Dr. Neugut
Another of the plaintiffs’ experts who focused on
epidemiology, although eminently qualified and refreshingly candid, has not provided admissible testimony.
Dr. Neugut, like the experts discussed above, evaluated each of the key epidemiology studies before engaging in a Bradford Hill analysis that took into account all available data across disciplines. See Expert
Report of Dr. Neugut 11-17, 20-23, Wagstaff Decl. ISO
Pls.’ Opp’n Ex. 4 [Dkt. No. 648-4] (“Neugut Report”).
His supplemental report offered many of the same critiques of the AHS that Dr. Ritz offered. See Supple-

165a
mental Report of Dr. Neugut 6-12, Wagstaff Decl. ISO
Pls.’ Supp. Br. Ex. 15 [Dkt. No. 1136-15]. The reports
themselves are of high quality.
However, Dr. Neugut’s testimony at the Daubert
hearing was of much lower quality. There were several
inconsistencies between his deposition testimony and
his testimony at the hearing (significant ones—not just
the usual molehills of which lawyers often make mountains). He often seemed unfamiliar with key aspects of
the material that purportedly formed the basis of his
opinion. He sometimes answered questions in a cavalier fashion, apparently without giving much thought to
whether he really knew the answer. And he often
needed help from the plaintiffs’ lawyers in answering
questions. Although the written transcript of Dr.
Neugut’s testimony reflects these problems to some
extent, they were far more apparent in the courtroom
(and in the video recording of the hearing). To give a
few examples:
•

Dr. Neugut sought to characterize IARC’s assessment of glyphosate as something other
than a hazard assessment, even though the
Preamble is quite clear about what the Monographs seek to do. Mar. 6, 2018 Tr. [Neugut]
296; Monograph at 10.

•

Dr. Neugut opined that an IARC conclusion
that an agent is a probable carcinogen means,
as a practical matter, that the group reached
this conclusion with 70-90% certainty, although
IARC disclaims any numeric probability associated with its classifications. Mar. 6, 2018 Tr.
[Neugut] 301, 356-57; Monograph at 30 (“The
terms probably carcinogenic and possibly carcinogenic have no quantitative significance and

166a
are used simply as descriptors of different levels of evidence of human carcinogenicity, with
probably carcinogenic signifying a higher level
of evidence than possibly carcinogenic.” (emphasis omitted)).
•

In his deposition, Dr. Neugut agreed with
Monsanto’s counsel that no statistically significant, pesticide-adjusted odds ratio in the published literature supported an association between glyphosate and NHL. Hollingsworth
Decl. ISO Def.’s Mot. Ex. 3 158-59 [Dkt. No
546-3]. That was an erroneous statement about
a critical issue in the case. Neugut later sought
to correct that deposition testimony to take account of De Roos (2003), which reported a statistically significant association in the logistic
regression model adjusted for other pesticides.
Hollingsworth Decl. ISO Def.’s Reply Ex. 4
[Dkt. No. 681-5]; De Roos (2003) at 5.

•

In the slide presentation during Dr. Neugut’s
Daubert testimony, ostensibly prepared by Dr.
Neugut himself, there was a slide describing
McDuffie (2001). Dr. Neugut was not familiar
with all the assertions about McDuffie (2001)
that were contained in his own slide. See Mar.
6, 2018 Tr. [Neugut] 330.

•

He relied on a certain odds ratio from a 2002
Swedish case-control study whose lead author
was Lennart Hardell but demonstrated during
his testimony that he did not know much about
it. Among other things, he did not know
whether and to what extent Hardell considered
proxy respondents, and required help from the

167a
plaintiffs’ lawyer to answer this question. See
id. at 334-40.
•

In response to a question by the Court about
the logistic regression and the hierarchical regression in DeRoos (2003), Dr. Neugut first
stated that logistic regression was more “legitimate” and that hierarchical regression modeling “is a fancy-schmancy, sophisticated thing
you do to look cool.” Id. at 341. The Court responded, “so can you now try and explain the
difference between the two, to me?” After a
period of fumbling in which it became apparent
that Dr. Neugut couldn’t explain the difference
between the two, counsel for the plaintiff
stepped in to point Dr. Neugut to the portion of
the study that explained it. Dr. Neugut stated
that he didn’t know what it meant. Id. at 34142.

•

It appeared from his deposition testimony and
his testimony at the Daubert hearing that Dr.
Neugut reached his opinion that glyphosate
causes NHL after reading only the IARC Monograph, and before reviewing the individual
studies. Id. at 353-55. He also seemed to suggest that even IARC’s finding of limited evidence of carcinogenicity in humans, without
any review of the underlying studies, would
have sufficed for him to reach the conclusion he
reached in his report. Id. at 355-58.

•

At his deposition, Dr. Neugut stated that the
epidemiology evidence alone was not sufficient
to show causation. During the Daubert hearing, Dr. Neugut stated he was revisiting that
conclusion, even though the only evidence that

168a
could have justified a change in his analysis was
the Andreotti (2018) study, which showed no
association between glyphosate and NHL. Id.
at 368-69; cf. Domingo ex rel. Domingo, 289
F.3d at 607.
Each problem with Dr. Neugut’s testimony is not
sufficient, on its own, to justify exclusion. Reliable experts sometimes make mistakes. They sometimes need
to refer to the written materials during their testimony,
to refresh their recollection about an issue or perhaps to
consider a point raised by counsel for the first time on
cross-examination. Even a few instances of misstating
the details or failing to recall some aspect of a particular
study would not be enough to exclude a witness. But in
combination, the problems with Dr. Neugut’s testimony
lead the Court to conclude that his opinion is not sufficiently reliable to be admissible. See Department of
Toxic Substances Control v. Technichem, Inc., No. 12CV-05845-VC, 2016 WL 1029463, at *1 (N.D. Cal. Mar.
15, 2016) (noting that “[k]ey factual errors” undermine
the reliability of an expert’s testimony).
E. Dr. Jameson
Dr. Jameson, a chemist and environmental toxicologist who specializes in cancer, engaged in an IARCstyle hazard assessment of glyphosate as it relates to
NHL, with a focus on the rodent carcinogenicity studies. See Jameson Report 1, 9-11, 19-29. Dr. Jameson
has more than forty years of toxicology experience, and
has worked for the National Cancer Institute and National Institute of Environmental Health Sciences.
Mar. 7, 2018 Tr. [Jameson] 403. He was for many years
responsible for the preparation of the Report on Carcinogens, a congressionally mandated public health report listing agents known or reasonably anticipated to

169a
cause cancer in humans. Jameson Report 2-3. He has
also been a member of several IARC working groups,
including the working group that assessed glyphosate
as the chair of the experimental animal subgroup. Mar.
7, 2018 Tr. [Jameson] 404.
With respect to his opinion regarding the epidemiological evidence and its bearing on the general causation
question, Dr. Jameson is hamstrung by his decision to
conduct an IARC-style analysis. Dr. Jameson first
summarizes the relevant IARC report at length. Jameson Report 4-8. He then engages in a “hazard based assessment of glyphosate and/or glyphosate-based formulations[] that … is the same as defined and characterized
by IARC.” Id. at 9. Dr. Jameson concludes that the
human evidence is “limited” in the sense IARC used the
term; that there is “sufficient” evidence that glyphosate
causes certain tumors in experimental animals; and that
there is strong evidence that glyphosate is genotoxic and
induces oxidative stress, the two possible cancer-causing
mechanisms also identified by IARC. Id. at 19, 29, 30-31.
Ultimately, he opines “to a reasonable degree of scientific certainty that glyphosate and glyphosate-based
formulations are probable human carcinogens,” and that
“glyphosate and glyphosate-based formulations cause
NHL in humans.” Id. at 31-32. IARC does not explicitly
reach Dr. Jameson’s second conclusion but, having characterized his inquiry throughout the report as parallel to
IARC’s, there is no basis for reading Dr. Jameson’s
statements regarding glyphosate’s ability to cause NHL
in humans to mean anything more than that glyphosate
is an NHL “hazard” in the sense IARC defines that
term. See id. at 9; Mar. 7, 2018 Tr. [Jameson] at 412, 41819. That conclusion, reached using the methods IARC
used, is one that meets Daubert’s reliability requirement, but it does not itself allow the plaintiffs to survive

170a
summary judgment and, as discussed in Section II, may
not be admissible in this case at all, because it involves
too different an inquiry from the one a jury would be required to undertake.
Apparently realizing their mistake before Dr.
Jameson’s appearance at the Daubert hearing, counsel
for the plaintiffs sought to elicit an opinion from Dr.
Jameson during the hearing that went beyond the one
presented in his report—specifically, an opinion that
“exposure to glyphosate not only can cause [NHL], but
it is currently doing so, at current exposure levels today.” Id. at 405. Dr. Jameson’s analysis of the human
evidence is not sufficient to support his additional conclusion that glyphosate “is currently” causing NHL “at
current exposure levels today.” Dr. Jameson’s primary
focus and meaningful independent analysis concerned
the animal toxicology studies, and his analysis was not
crafted to support a conclusion that glyphosate is causing NHL in humans at current exposure levels. See id.
at 455-57. As a result, “there is simply too great an analytical gap between” his analysis, which effectively
duplicates IARC’s as to human studies but goes further
as to the animal studies, and his new conclusion regarding glyphosate’s effects on humans at current exposure
levels. Joiner, 522 U.S. at 146; see also Domingo ex rel.
Domingo, 289 F.3d at 606-07.
Obviously, none of this is the fault of Dr. Jameson—he is a scientist who should not be expected to
identify, on his own, the difference between an IARCstyle hazard assessment and the evidentiary standard
that governs civil lawsuits. But the apparent failure of
plaintiffs’ counsel to explain this difference to him, and
to elicit an opinion from him that goes beyond a hazard
assessment, means that his testimony is insufficient to
get the plaintiffs over the general causation hurdle.

171a
Although Dr. Jameson’s overall hazard-assessment
conclusion may end up not being admissible, he will be
permitted to offer testimony (if a case makes it to trial)
on the narrower topic of the animal cancer studies. As
Dr. Jameson stated repeatedly during the Daubert
hearing, the purpose of conducting studies in laboratory animals like the ones at issue here is to determine
whether a substance causes cancer in animals. See, e.g.,
Mar. 7, 2018 Tr. [Jameson] 475. As mentioned in Section IV, whether a substance does so is relevant to the
general causation inquiry.
Monsanto attacks Dr. Jameson for not adequately
addressing what it deems an absence of replicated tumor findings across different experiments, and for relying too heavily on statistical significance, rather than
conducting a fuller assessment of biological significance.
See Def.’s Mot. 30-31, 31 n.51; Def.’s Reply 29-30. Dr.
Jameson did consider replication, agreeing that repeated findings of the same tumors across sexes, studies, or
species would strengthen his conclusion that a particular chemical caused tumor development. Mar. 7, 2018
Tr. [Jameson] 449-52, 495. Further, Dr. Jameson concluded that four of the tumors of interest were repeated across studies. Id. at 449-52. Monsanto disagrees
with his interpretation of those studies, and pointed out
that his conclusions differ in many cases from those of
the study authors. But Monsanto’s disagreements with
how Dr. Jameson weighted different considerations in
arriving at his conclusions are fodder for crossexamination, not grounds for exclusion. See Karlo, 849
F.3d at 83 (“The question of whether a study’s results
were properly calculated or interpreted ordinarily goes
to the weight of the evidence, not to its admissibility.”
(citation omitted)).

172a
F. Dr. Nabhan
Dr. Nabhan is a hematologist and medical oncologist who specializes “in the diagnosis and management
of patients with all types of lymphoma.” Expert Report of Dr. Nabhan 1, Wagstaff Decl. ISO Pls.’ Opp’n
Ex. 7 [Dkt. No. 648-7]. Although he stated that he routinely reviews epidemiology and toxicology studies as
part of his clinical practice, he did not dispute that his
primary focus is on clinical work. Mar. 9, 2018 Tr.
[Nabhan] 805 (“I’m a clinician, I’m not an epidemiologist or a statistician, but we’re on the front line with
patients.”); id. at 818 (“Again, I’m not an epidemiologist. ...”). He summarized many relevant studies, but
offered little in the way of critical analysis of these
studies. See id. at 820 (“[F]rom a clinician’s view, we
don’t really sit down and re-analyze and re-perform a
peer-review process for every single paper that has
been published. … My job as a clinician is not to peerreview the entire literature again.”). Instead, he deferred to the opinions of other experts, and to IARC in
particular, in arriving at his conclusions. See id. at 82022, 850;. at 822 (“So as a clinician, I will look [at] these
epidemiology studies, then I look at bodies such as the
IARC, I look at the history, and it’s hard to argue, with
all of the data that the IARC looked at and with the
history, so I tend to obviously believe the data that
came out of IARC.”); id. at 837 (“I didn’t review this
particular evidence, but if the IARC says this particular aspect of the mechanism of action is weak, then it’s
weak.”); id. at 844 (agreeing that he “rel[ied] heavily on
IARC for [his] opinion”).
“[M]edical doctors do not need to be epidemiologists in order to testify regarding epidemiological studies,” so long as the expert is qualified by training or experience to interpret these studies and his opinions

173a
would be helpful to the jury. In re Mirena IUD Products Liability Litigation, 169 F. Supp. 3d 396, 426
(S.D.N.Y. 2016); see also In re Abilify, 299 F. Supp. 3d
at 1349. The primary problem for the plaintiffs, however, is Dr. Nabhan’s uncritical reliance on IARC’s conclusions. During the Daubert hearing, Dr. Nabhan all
but admitted that he reached his conclusion regarding
glyphosate upon reading the IARC report, and that
contrary new evidence was unlikely to shake his faith in
IARC’s conclusion. See Mar. 9, 2018 Tr. [Nabhan] 850
(“Q. At this point, nothing would [] shake your conviction. A. At this point, the IARC report is very convincing.”). The deference to IARC that Dr. Nabhan
demonstrated during the Daubert hearing may well be
appropriate clinical practice but, under these circumstances, it is not a reliable way to reach a general causation opinion. Dr. Nabhan’s report also did not
demonstrate that he engaged in his own objective analysis of the epidemiologic literature. Although he summarized the relevant studies, he said little about how or
whether they addressed possible bias or confounding,
for instance. See Nabhan Report 11-16.
During the Daubert hearing, Dr. Nabhan also suggested that his opinion regarding whether glyphosate
was causing NHL at present-day exposure levels was
informed by his clinical practice. See Mar. 9, 2018 Tr.
[Nabhan] 805-07. He suggested that a subset of NHL
patients developed their NHL as a result of glyphosate
exposure, and that he recommends curtailing glyphosate use for patients with NHL, treating it as a “modifiable risk factor.” Id. at 810-11, 826-27. Dr. Nabhan
may well be able to offer an opinion that glyphosate
was responsible for causing a particular patient’s NHL,
based on that patient’s clinical presentation and history, during the specific causation phase of this litigation.

174a
And it may well be good medical advice to tell a patient
to curtail glyphosate exposure. However, because Dr.
Nabhan has not provided a reliable basis for concluding
that glyphosate can cause NHL as a general matter,
Monsanto’s motion to exclude his testimony is granted.
VII. THE PLAINTIFFS’ DAUBERT MOTION
In addition to defending their own experts, the
plaintiffs seek to exclude certain of Monsanto’s experts.
These challenges are addressed in the sections that follow.
A. Dr. Rosol
The plaintiffs seek to exclude Dr. Rosol, a veterinary pathologist, because he considered certain documents available only in a “glyphosate reading room” in
Brussels that has since been shuttered. See Rosol Report 9, 13-18. They do not object to his general methodology or conclusions aside from this critique. See
Mar. 8, 2018 Tr. [Rosol] 731 (“We’re actually not really
even challenging your conclusions or your methodology
too much.”).
Dr. Rosol elaborated on what the reading room entailed during cross-examination at the Daubert hearing.
He testified that the reading room allowed researchers
to sign up for up to four half-day sessions during the
weeks it was open, and the researchers could use one of
approximately ten old, monochrome computers to review the data from the studies. Id. at 732-36. On the
one hand, he testified that he took approximately 50
pages of handwritten notes during his time in the reading room, and he references the material he reviewed in
the reading room repeatedly in his report. See id.; Rosol Report 13-18. On the other hand, he testified that
the “Reading Room pathology reports,” apparently the

175a
only material not accessible through the publicly available Greim (2015) study supplements, “did not influence
[his] interpretation” and were not necessary to support
his conclusions. Id. at 735.
So long as neither the Court nor the plaintiffs’ experts have access to the data available only in the reading room, Dr. Rosol will be precluded from referencing
this material in rendering his opinion. However, because he testified that his opinion would stand absent
that material, and his opinion is otherwise admissible,
his opinion will not otherwise be excluded.
B. Dr. Goodman
Dr. Goodman, a toxicologist, seeks to offer an opinion that glyphosate and glyphosate-based formulations
“should be regarded as non-genotoxic materials,” and
that, although they “might be capable of causing oxidative stress under certain experimental conditions, … it
is not appropriate to use this observation to support a
contention that these materials are capable of causing
cancer.” Goodman Report 3-4.
The plaintiffs challenge the admissibility of Dr.
Goodman’s testimony on two grounds. First, they argue his opinions discounting two human in vivo studies,
Bolognesi (2009) and Paz-y-Miño (2007), are inadmissible because his critiques of the studies are too speculative and contain errors. Some of Dr. Goodman’s critiques are less than persuasive bases for discounting
the studies—for instance, his concern that more than
one person might have analyzed the slides in Paz-yMiño (2007), which might have introduced subjectivity
into the data analysis. See id. at 13. Others are very
reasonable, like his observations that other factors
might have explained the DNA damage in light of the
period that elapsed between the aerial glyphosate

176a
spraying and the time when the blood samples were
taken, and that study participants appeared to exhibit
symptoms of acute illness. See Paz-y-Miño (2007) at 457
(noting the physical symptoms reported by participants
and that blood samples were gathered between two
weeks and two months after the aerial spraying of
glyphosate). Regarding the Bolognesi (2009) study, Dr.
Goodman emphasized that the indicator of genotoxicity
was highest in a region where glyphosate was not aerially sprayed (although where people were still exposed
to pesticides, including glyphosate). Goodman Report
15-17; Bolognesi (2009) at 995. Although the plaintiffs
ascribe a different meaning to this aspect of the Bolognesi study, Dr. Goodman’s observation is neither incorrect nor irrelevant, in light of the study’s focus on
the effects of aerial spraying and its extremely limited
conclusions. See Bolognesi (2009) at 994-95. The plaintiffs’ motion to exclude Dr. Goodman’s critiques of the
human in vivo studies is therefore denied.
The plaintiffs also mount a broader attack on Dr.
Goodman’s methodology as results-oriented.
Dr.
Goodman’s methodology emphasized studies conducted
on mammals or mammalian cells and those that use the
four basic tests used by international agencies for registration or approval of chemicals. Goodman Report 1011. He dismisses several of the studies as unable to
rule out cytotoxicity as the cause of the results observed. See, e.g., id. at 23, 26-27, 29-30. Although he
reaches different conclusions about what the weight of
the mechanistic evidence shows, his analysis is not so
flawed or one-sided that his opinions need be excluded.
C. Dr. Foster
The plaintiffs further seek to exclude the testimony
of Dr. Foster, who is also a toxicologist. They contend

177a
he is not qualified to offer an opinion on the rodent
studies, because his focus is on reproductive toxicology.
Notwithstanding Dr. Foster’s focus on reproductive
toxicology, he is qualified to opine on the rodent carcinogenicity data at issue here. See D.F. ex rel. Amador, 2017 WL 4922814, at *14. He is a trained in toxicology, served as the one-time acting director of an environmental toxicology program at Health Canada, and
has published at least a few peer-reviewed articles on
cancer in rodents. Wagstaff Decl. ISO Pls.’ Opp’n Ex.
122 at 118-23 [Dkt. No. 656-17 at 32-33].
The plaintiffs additionally argue that Dr. Foster’s
opinion is unreliable. Among the alleged flaws they
identify are his comparisons across studies the plaintiffs consider insufficiently similar. For example, they
point to his comparison of the results concerning interstitial testicular tumors in the Lankas (1981) study with
those in the Atkinson and Suresh studies, noting that,
in the latter two studies, not all the low-dose animals
were fully examined. Pls.’ Opp’n 67-68. The plaintiffs
also argue that he inappropriately dismissed certain
tumors because no tumor progression was observed or,
in the case of the Knezevich and Hogan study, because
of alleged weight loss in the high-dose group of mice.
Id. at 68-69.
Dr. Foster, like the plaintiffs’ experts, conducted a
literature review and evaluated the quality of each of
the studies. Unlike the plaintiffs’ experts, he explained
away the statistically significant tumor findings, pointing to a lack of reproducibility between studies, an abnormally low number of tumors in certain control
groups, lack of dose response, decreased survival of
certain control animals (which would result in older
treated animals, and thus likely more spontaneous tumors), and evidence of systemic toxicity in one high-

178a
dose group. See Foster Report 27. As discussed above,
different interpretations of these studies are not necessarily evidence of unreliability, and Dr. Foster’s interpretations of the same core studies evaluated by the
plaintiffs are sufficiently grounded in scientific principles to be admissible. The plaintiffs may raise their
concerns via cross-examination.
D. Drs. Rider and Mucci
Monsanto proffered two epidemiology experts, Drs.
Rider and Mucci. The plaintiffs object to their opinions
because they relied heavily and, the plaintiffs argue,
uncritically on the various iterations of the AHS study.
As discussed above, the AHS study, like the casecontrol studies, is open to valid critiques. Like the
plaintiffs’ experts who focused on epidemiology, Drs.
Rider and Mucci assessed the strengths and weaknesses of the relevant epidemiology studies, but weighed
the studies differently and reached different conclusions. Dr. Rider briefly acknowledged the possibility of
exposure misclassification in the AHS study, but concluded that, in light of the observed odds ratios below
1.0, it would not have obscured any positive association.
Rider Supp. Report 3-4. She also explained why she
was not concerned about the imputation method used
by the AHS study authors, citing methodological and
sensitivity analyses. Id. at 4-5. Dr. Mucci likewise
acknowledged the possibility of nondifferential misclassification of glyphosate exposure and explained how the
authors of the Andreotti (2018) study assuaged any
concerns she might have about the imputation method.
Mucci Report 33, 35; Mucci Supp. Report 2-4, 7; Mar. 9,
2018 Tr. [Mucci] 905 (“[W]e should be, as epidemiologists, concerned with the fact that there is 37 percent
missing data. We do want to rule out that there are not
biases that are systematic as a result of this missing

179a
data.”). Both experts offered rebuttals to the plaintiffs’
concerns. See Mucci Supp. Report 7-10; Rider Supp.
Report 8-11; Mar. 9, 2018 Tr. [Mucci] 863-919. As suggested earlier, the disputes between the experts evaluating these epidemiology studies are reasonable disputes. Dr. Mucci and Dr. Rider used sufficiently reliable methods to reach conclusions about the epidemiology evidence that require no unduly great leap from
their analyses. The plaintiffs’ Daubert motion to exclude their testimony is therefore denied.
E. Dr. Corcoran
Dr. Corcoran, a biostatistician, critiques Dr. Portier’s statistical analysis of the rodent carcinogenicity
studies. The plaintiffs argue only that Dr. Corcoran is
not qualified to offer an opinion on the data at issue
here, because his research has focused on dementia and
other aging-related diseases. As proof, they point to an
exchange in which he purportedly did not know the difference between primary and secondary tumors, the
latter of which the plaintiffs contend should be excluded from tumor counts in animal bioassays. Pls.’ Opp’n
56 n.165; Pls.’ Reply 12. That Dr. Corcoran’s research
has not focused on cancer or animal bioassays does not
require his exclusion. See Avila, 633 F.3d at 839. As a
trained biostatistician, he is qualified to offer a critique
of Dr. Portier’s statistical analysis, and the plaintiffs
are free to dispute his treatment of secondary tumors
through Dr. Portier’s testimony and during crossexamination. The motion to exclude Dr. Corcoran is
denied.
VIII. CONCLUSION
It’s a close question whether to admit the expert
opinions of Dr. Portier, Dr. Ritz, and Dr. Weisenburger

180a
that glyphosate can cause NHL at human-relevant doses. Therefore, it’s a close question whether to grant or
deny Monsanto’s motion for summary judgment. But
the Court concludes that the opinions of these experts,
while shaky, are admissible. They have surveyed the
significant body of epidemiological literature relevant
to this question; identified at least a few statistically
significant elevated odds ratios from case-control studies and meta-analyses; identified what they deem to be
a pattern of odds ratios above 1.0 from the case-control
studies, even if not all are statistically significant; emphasized that studies of glyphosate have focused on
many different types of cancer but found a link only between glyphosate and NHL; given legitimate reasons
to question the results of the primary study on which
Monsanto relies; and concluded, in light of all the available evidence, that a causal interpretation is appropriate. Their opinions may be bolstered by Dr. Jameson’s
narrower opinions regarding glyphosate’s ability to
cause cancer in animals. Therefore, the plaintiffs have
presented evidence from which a reasonable jury could
conclude that glyphosate can cause NHL at humanrelevant doses. Monsanto’s motion for summary judgment is denied.
IT IS SO ORDERED.
Dated: July 10, 2018

[handwritten signature]
VINCE CHHABRIA
United States District Court

181a
APPENDIX E
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 16-cv-00525-VC
EDWARD HARDEMAN,
Plaintiff,
v.
MONSANTO COMPANY,
Defendant.
Re: Dkt. Nos. 18, 23
Filed April 8, 2016
ORDER DENYING MOTION TO
DISMISS AND MOTION TO STAY

I.
Monsanto argues that Hardeman’s failure-to-warn
claims are preempted by the Federal Insecticide, Fungicide, and Rodenticide Act, which prohibits states
from “impos[ing] ... any requirements for labeling or
packaging in addition to or different from” the requirements in FIFRA itself. 7 U.S.C. § 136v(b). But
Hardeman’s failure-to-warn claims based on Roundup’s
labeling are not preempted, because “a state-law labeling requirement is not pre-empted by § 136v(b) if it is
equivalent to, and fully consistent with, FIFRA’s misbranding provisions.” Bates v. Dow Agrosciences LLC,
544 U.S. 431, 447 (2005).

182a
A.
To the extent Hardeman’s failure-to-warn claims
attack Roundup’s product labeling, they are consistent
with FIFRA. FIFRA requires a pesticide label to
“contain a warning or caution statement which may be
necessary and if complied with ... is adequate to protect
health and the environment.” 7 U.S.C. § 136(q)(1)(G);
see also 40 C.F.R. § 156.60. California law, similarly,
requires a manufacturer to warn either of any risk that
is known or knowable (in strict liability), or at least
those risks that “a reasonably prudent manufacturer
would have known and warned about” (in negligence).
Conte v. Wyeth, Inc., 85 Cal. Rptr. 3d 299, 310 (Ct. App.
2008). If anything, a manufacturer’s duty under California law is slightly narrower than its duty under
FIFRA: California law sometimes (in negligence) allows a manufacturer to escape liability where a warning would be unreasonable, but FIFRA seems always
to require a warning that is “necessary” and “adequate” to protect human health—whether or not such a
warning is otherwise reasonable. In this light, it’s hard
to see how Hardeman’s failure-to-warn claims could “be
construed more broadly than” FIFRA. Astiana v.
Hain Celestial Grp., Inc., 783 F.3d 753, 758 (9th Cir.
2015). Indeed, Hardeman’s complaint explicitly bases
his California-law failure-to-warn claims on Monsanto’s
alleged violation of FIFRA. Complaint at ¶¶161-62.
B.
Monsanto contends Hardeman’s failure-to-warn
claims are nonetheless preempted because the EPA has
approved Roundup’s product labels. But the EPA’s authority to enforce FIFRA does not prohibit private litigants from also enforcing that statute: the Supreme
Court, rejecting an argument against “giv[ing] juries in

183a
50 States the authority to give content to FIFRA’s
misbranding prohibition,” Bates, 544 U.S. at 448, has
instead allowed “[p]rivate remedies that enforce
[FIFRA’s] misbranding requirements,” id. at 451. And
the mere fact that the EPA has approved a product label does not prevent a jury from finding that that same
label violates FIFRA. In Bates, the Supreme Court
allowed state-law failure-to-warn claims to go forward
as long as those claims were consistent with FIFRA,
id. at 452-53—even though the EPA had approved the
insecticide label at issue, id. at 434-35. Bates thus “established that mere inconsistency between the duty
imposed by state law and the content of a manufacturer’s labeling approved by the EPA at registration did
not necessarily mean that the state law duty was
preempted.” Indian Brand Farms, Inc. v. Novartis
Crop Prot. Inc., 617 F.3d 207, 222 (3d Cir. 2010).
This result is consistent with the text of the
FIFRA statute. Monsanto notes that “registration of a
pesticide shall be prima facie evidence that the pesticide, its labeling and packaging comply with the registration provisions of” FIFRA. 7 U.S.C. § 136a(f)(2).
But “prima facie evidence” is not conclusive proof. And
the preceding sentence in this same statutory provision
provides that “[i]n no event shall registration of an article be construed as a defense for the commission of any
offense under” FIFRA. Id. Of course, if the EPA’s approval of Roundup’s label had the force of law, it would
preempt conflicting state-law enforcement of FIFRA.
See Wyeth v. Levine, 555 U.S. 555, 576 (2009). But
there’s no indication that the EPA’s approval of
Roundup’s label had the force of law. See United States
v. Mead Corp., 533 U.S. 218, 227-34 (2001). Though
EPA rulemaking “[would] necessarily affect the scope
of pre-emption under § 136v(b),” the EPA has promul-

184a
gated “relatively few regulations that refine or elaborate upon FIFRA’s broadly phrased misbranding
standards.” Bates, 544 U.S. at 453 n.28.
This result is also consistent with the district
court’s holding in Mirzaie v. Monsanto Co., No. 15-cv04361-DDP, 2016 WL 146421 (C.D. Cal. Jan. 12, 2016).
There, the plaintiffs sought (among other things) injunctive relief forcing Monsanto to change the contents
of its label. Complaint at 10, Mirzaie v. Monsanto Co.,
No. 15-cv-04361-DDP (C.D. Cal. June 9, 2015). According to the district court, “[t]he only question” in ruling
on Monsanto’s motion to dismiss was “whether the injunctive relief Plaintiffs seek would constitute a requirement for labeling or packaging.” Mirzaie, 2016
WL 146421, at *2. The answer to that question was
yes: “an injunction imposed against a manufacturer to
change its [EPA-approved] label would represent a
state-mandated labeling requirement and would therefore be preempted.” Id. (alteration in original) (quoting
Nathan Kimmel, Inc. v. DowElanco, 275 F.3d 1199,
1203 (9th Cir. 2002)). Dictating the contents of Roundup’s label would usurp the EPA’s exclusive authority,
under 7 U.S.C. § 136v(b), to approve all pesticide labeling. But Hardeman, unlike the Mirzaie plaintiffs,
doesn’t seek an injunction dictating the contents of
Roundup’s label: he just contends that Roundup’s existing label violates FIFRA, implying that the EPA
failed to enforce FIFRA correctly when it approved
that label. And Bates tells us that the EPA’s authority
to enforce FIFRA—unlike the EPA’s authority to approve all pesticide labeling—isn’t exclusive.
C.
Similarly, Monsanto contends that Hardeman’s
failure-to-warn claims are preempted because the

185a
“EPA repeatedly has concluded that glyphosate is not a
carcinogen.” But almost all of the findings Monsanto
cites were made in regulations interpreting the Food,
Drug, and Cosmetic Act—not FIFRA. FDCA regulations don’t “give content to FIFRA’s misbranding
standards,” Bates, 544 U.S. at 453, so they don’t affect
the extent to which FIFRA preempts state law.
Monsanto does cite one document from the FIFRA
context—a fact sheet discussing glyphosate’s reregistration as a pesticide, which notes the EPA’s 1991
classification of glyphosate as a “Group E oncogen”
showing “evidence of non-carcinogenicity for humans.”
But neither the fact sheet nor the underlying 1991 classification actually conflict with Hardeman’s complaint,
because the classification “emphasized ... that designation of an agent in Group E is based on the available
evidence at the time of evaluation and should not be interpreted as a definitive conclusion that the agent will
not be a carcinogen.” And even if the fact sheet or classification did conflict with Hardeman’s complaint, it’s
not clear that either has the force of law, see Mead, 533
U.S. at 229, so it’s not clear that either has preemptive
effect, see Reid v. Johnson & Johnson, 780 F.3d 952,
964 (9th Cir. 2015).
Monsanto’s last piece of evidence—online video of
Congressional hearing testimony in which various
speakers characterize the EPA’s position on glyphosate—probably isn’t subject to judicial notice, because
it could reasonably be questioned whether the speakers
are characterizing the EPA’s position accurately. But,
even if it is, there’s no indication that the positions discussed in the video involve an interpretation of FIFRA
that has the force of law.

186a
II.
Monsanto next argues that, because Hardeman “alleges that both glyphosate and Roundup® are inherently and unavoidably dangerous,” he can’t proceed on
his strict-liability design-defect claims. Monsanto bases
this argument on comments j and k to section 402A of
the Restatement (Second) of Torts.
Comment j doesn’t support Monsanto’s argument.
That comment provides that, “[i]n order to prevent the
product from being unreasonably dangerous, the seller
may be required to give directions or warning.” Restatement (Second) of Torts § 402A cmt. j (1965). This
means that a plaintiff can bring failure-to-warn claims,
but it doesn’t mean that a plaintiff can bring only failure-to-warn claims. Comment j also provides that “a
product bearing such a warning, which is safe for use if
it is followed, is not in defective condition, nor is it unreasonably dangerous.” Id. But Hardeman alleges that
Roundup did not bear the warning it should have, so
he’s free to allege that Roundup was also “in defective
condition” or “unreasonably dangerous.”
That leaves comment k. Comment k provides that,
where a product is “quite incapable of being made safe
for their intended and ordinary use ... [t]he seller ... is
not to be held to strict liability.” Id. cmt. k. But there’s
an important caveat: comment k only applies where
products “are properly prepared and marketed, and
proper warning is given.” Id. Once again, Hardeman
alleges that Roundup was not properly prepared or
marketed, and was not accompanied by proper warning, so—by its own terms—comment k doesn’t apply.
Moreover, even if comment k applied by its own
terms, it seems unlikely the California courts would apply it here. The California Supreme Court limited its

187a
adoption of comment k to a narrow medical context:
“because of the public interest in the development,
availability, and reasonable price of drugs, the appropriate test for determining responsibility is the test
stated in comment k.” Brown v. Superior Court, 751
P.2d 470, 477 (Cal. 1988). In this respect, Brown was
consistent with prior California case law applying
comment k, which “overwhelmingly involve[d] products
such as prescription drugs, vaccines, blood, and medical
devices such as intrauterine devices and breast implants.” Wilkinson v. Bay Shore Lumber Co., 227 Cal.
Rptr. 327, 331 (Ct. App. 1986). And though California
courts have since clarified that Brown extends beyond
prescription drugs to include other medical products,
see Hufft v. Horowitz, 5 Cal. Rptr. 2d 377, 382-84 (Ct.
App. 1992), Monsanto does not cite—and the Court
cannot find—a California case applying comment k outside the medical context, accord Garrett v. Howmedica
Osteonics Corp., 153 Cal. Rptr. 3d 693, 700-01 (Ct. App.
2013). On the contrary, California courts appear willing
to apply comment k only where a product is “available
only through the services of a physician,” id. at 701.
III.
Monsanto’s motion to dismiss is denied. And because the Court has denied Monsanto’s motion to dismiss, Monsanto’s motion to stay discovery is also denied.
IT IS SO ORDERED.
Dated: April 8, 2016

[handwritten signature]
VINCE CHHABRIA
United States District Court

189a
APPENDIX F
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
MDL No. 2741
Case No. 16-md-02741-VC
IN RE: ROUNDUP PRODUCTS LIABILITY LITIGATION
This document relates to:
Hardeman v. Monsanto, 16-cv-00525-VC
Filed July 17, 2019
PRETRIAL ORDER NO. 164:
AMENDED JUDGMENT
In light of the order granting in part Monsanto’s
motion for judgment as a matter of law, see Pretrial
Order No. 160, Dkt. No. 4576, as well as the order
granting Mr. Hardeman’s motion to amend the interest
rate, see Pretrial Order No. 163, Dkt. No. 4601, Edwin
Hardeman shall recover from Monsanto Co. the following sums for compensatory and punitive damages:
Past economic loss

$200,967.10

Past noneconomic loss

$3,066,667.00

Future noneconomic loss

$2,000,000.00

Punitive damages

$20,000,000.00

Monsanto shall pay prejudgment interest for past
economic damages awarded ($200,967.10) at the rate of
seven percent (7%) from the date of the filing of the
Complaint, February 1, 2016, through the entry of the

190a
original judgment on May 3, 2019, resulting in total prejudgment interest of $45,748.92. Thus, the total judgment in this case pending determination of awardable
costs is $25,313,383.02.
Monsanto shall pay postjudgment interest upon
this judgment at the federal interest rate governed by
28 U.S.C. § 1961, and shall pay for recoverable court
costs incurred in this action by Mr. Hardeman as determined by this Court following review of Mr. Hardeman’s bill of costs.
Execution may issue for all amended judgment
amounts, interests, and costs thirty (30) days after entry of this judgment.
IT IS SO ORDERED.
Date: July 17, 2019

[handwritten signature]
Honorable Vince Chhabria
United States District Court

191a
APPENDIX G
RELEVANT STATUTORY PROVISIONS
U.S. Const. art. VI cl. 2
This Constitution, and the Laws of the United States
which shall be made in Pursuance thereof; and all Treaties made, or which shall be made, under the Authority
of the United States, shall be the supreme Law of the
Land; and the Judges in every State shall be bound
thereby, any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding.

192a
7 U.S.C. § 136v
§ 136v. Authority of States
(a) In general
A State may regulate the sale or use of any federally
registered pesticide or device in the State, but only if
and to the extent the regulation does not permit any
sale or use prohibited by this subchapter.
(b) Uniformity
Such State shall not impose or continue in effect any
requirements for labeling or packaging in addition to or
different from those required under this subchapter.
(c) Additional uses
(1) A State may provide registration for additional uses of federally registered pesticides formulated for distribution and use within that State to meet special local
needs in accord with the purposes of this subchapter
and if registration for such use has not previously been
denied, disapproved, or canceled by the Administrator.
Such registration shall be deemed registration under
section 136a of this title for all purposes of this subchapter, but shall authorize distribution and use only
within such State.
(2) A registration issued by a State under this subsection shall not be effective for more than ninety days if
disapproved by the Administrator within that period.
Prior to disapproval, the Administrator shall, except as
provided in paragraph (3) of this subsection, advise the
State of the Administrator’s intention to disapprove
and the reasons therefor, and provide the State time to
respond. The Administrator shall not prohibit or disapprove a registration issued by a State under this subsection (A) on the basis of lack of essentiality of a pesti-

193a
cide or (B) except as provided in paragraph (3) of this
subsection, if its composition and use patterns are similar to those of a federally registered pesticide.
(3) In no instance may a State issue a registration for a
food or feed use unless there exists a tolerance or exemption under the Federal Food, Drug, and Cosmetic
Act that permits the residues of the pesticides on the
food or feed. If the Administrator determines that a
registration issued by a State is inconsistent with the
Federal Food, Drug, and Cosmetic Act, or the use of, a
pesticide under a registration issued by a State constitutes an imminent hazard, the Administrator may immediately disapprove the registration.
(4) If the Administrator finds, in accordance with
standards set forth in regulations issued under section
136w of this title, that a State is not capable of exercising adequate controls to assure that State registration
under this section will be in accord with the purposes of
this subchapter or has failed to exercise adequate controls, the Administrator may suspend the authority of
the State to register pesticides until such time as the
Administrator is satisfied that the State can and will
exercise adequate controls. Prior to any such suspension, the Administrator shall advise the State of the
Administrator’s intention to suspend and the reasons
therefor and provide the State time to respond.

194a
Fed. R. Evid. 702
Rule 702. Testimony by Expert Witnesses
A witness who is qualified as an expert by knowledge,
skill, experience, training, or education may testify in
the form of an opinion or otherwise if:
(a) the expert’s scientific, technical, or other specialized knowledge will help the trier of fact to understand
the evidence or to determine a fact in issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles
and methods; and
(d) the expert has reliably applied the principles and
methods to the facts of the case.

195a
APPENDIX H
UNITED STATES ENVIRONMENTAL
PROTECTION AGENCY
[letterhead]
August 7, 2019
Dear Registrant,
We are writing to you concerning label and labeling requirements for products that contain glyphosate.
On July 7, 2017, California listed glyphosate as a substance under Proposition 651, based on the International Agency for Research on Cancer’s (IARC’s) classification of the pesticide as “probably carcinogenic to humans.” EPA disagrees with IARC’s assessment of
glyphosate. EPA scientists have performed an independent evaluation of available data since the IARC
classification to reexamine the carcinogenic potential of
glyphosate and concluded that glyphosate is “not likely
to be carcinogenic to humans.” EPA considered a more
extensive dataset than IARC, including studies submitted to support registration of glyphosate and studies
identified by EPA in the open literature as part of a
systematic review. For more detailed information on
this evaluation, please see the 2017 Revised Glyphosate

1

California’s Safe Drinking Water and Toxic Enforcement
Act of 1986 (also known as Proposition 65) requires businesses to
inform Californians about significant exposures to chemicals that,
under the terms of Proposition 65, are believed to cause cancer,
birth defects or other reproductive harm. See California Office of
Environmental Health Hazard Assessment, “Proposition 65,” at
https://oehha.ca.gov/proposition-65.

196a
Issue Paper: Evaluation of Carcinogenic Potential2.
Further, EPA’s cancer classification is consistent with
other international expert panels and regulatory authorities, including the Canadian Pest Management
Regulatory Agency, Australian Pesticide and Veterinary Medicines Authority, European Food Safety Authority, European Chemicals Agency, German Federal
Institute for Occupational Safety and Health, New Zealand Environmental Protection Authority, and the
Food Safety Commission of Japan.
On February 26, 2018, the United States District Court
for the Eastern District of California issued a preliminary injunction enjoining California from enforcing the
state warning requirements involving the pesticide
glyphosate’s carcinogenicity, in part on the basis that
the required warning statement is false or misleading3.
Given EPA’s determination that glyphosate is “not
likely to be carcinogenic to humans,” EPA considers
the Proposition 65 warning language based on the
chemical glyphosate to constitute a false and misleading
statement. As such, pesticide products bearing the
Proposition 65 warning statement due to the presence
of glyphosate are misbranded pursuant to section
2(q)(l)(A) of FIFRA and as such do not meet the requirements of FIFRA. In registering pesticides, EPA
must determine that the labeling complies with the requirements of FIFRA including that the product not be
misbranded. See FIFRA 3(c)(5)(B). Therefore, EPA
will no longer approve labeling that includes the Propo2

https://www.regulations.gov/document?D=EPA-HQ-OPP2009-0361-0073
3

National Association of Wheat Growers, et al. v. Zeise, 309
F.Supp.3d 842 (E.D.Cal.)

197a
sition 65 warning statement for glyphosate-containing
products. The warning statement must also be removed from all product labels where the only basis for
the warning is glyphosate, and from any materials considered labeling under FIFRA for those products.
For any pesticide product that currently contains
Proposition 65 warning language exclusively on the basis that it contains glyphosate, EPA requests the submission of draft amended labeling that removes such
language within ninety (90) days of the date of this letter.
Sincerely,
[handwritten signature]
Michael L. Goodis, P.E.
Director, Registration Division
Office of Pesticide Programs

